1a
IN THE COURT OF APPEALS
OF MARYLAND
No. 32
September Term, 2019
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JIMMIE ROGERS
v.
STATE OF MARYLAND, ET AL.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Barbera, C.J.
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Opinion by Watts, J.
Barbera, C.J., Hotten and Biran, J.J., dissent.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Filed: March 31, 2020
On October 20, 2015, in the Circuit Court for Anne
Arundel County, Jimmie Rogers, Petitioner, pled guilty
to one count of human trafficking under Md. Code
Ann., Crim. Law (2002, 2012 Repl. Vol., 2016 Supp.)

2a
(“CR”) § 11-303(a).1 The age of the victim was not
established during the statement of facts at the plea
proceeding. Rogers was sentenced pursuant to a plea
agreement that did not include registration as a sex
offender as a requirement. Later, Rogers was notified
by the Department of Public Safety and Correctional
Services (“the Department”), Respondent, that he was
required to register as a Tier II sex offender with the
Maryland Sex Offender Registry (“the Registry”) for a
period of twenty-five years. Rogers registered as instructed but filed in the circuit court a complaint for
declaratory judgment against the State of Maryland,
Respondent, and the Department (together, “the
State”), seeking a declaration that he was not required
to register as a Tier II sex offender, and an order
compelling the Department to remove him from the
Registry. The circuit court granted Rogers’s motion for
summary judgment on the ground that the victim’s age
had not been proven. The circuit court issued an order
declaring that Rogers was not required to register as a
Tier II sex offender and requiring the State to remove
Rogers’s name from the Registry. The State appealed.
The Court of Special Appeals reversed and remanded
the case to the circuit court for a determination of the
victim’s age by a preponderance of the evidence.

1

Effective October 1, 2019, CR § 11-303 was renumbered as
Crim. Law (2002, 2012 Repl. Vol., 2019 Supp.) § 3-1102. See 2019
Md. Laws 472-73, 476-77, 488 (Vol. I, Ch. 21, H.B. 871); 2019 Md.
Laws 488, 492-93, 504 (Vol. I, Ch. 22, S.B. 690). We refer to CR
§ 11-303, the version of the statute that was in effect at the time
of the proceedings in this case.

3a
A conviction under CR § 11-303(a) does not
require that the victim be a minor. A violation of CR
§ 11-303(a) is a misdemeanor that is punishable by up
to ten years’ imprisonment, a fine not exceeding
$5,000, or both. See CR § 11-303(c)(1)(i). Under CR
§ 11-303(a)(1), among other things, “[a] person may not
knowingly: (i) take or cause another to be taken to any
place for prostitution; (ii) place, caused to be placed, or
harbor another in any place for prostitution; [or] (iii)
persuade, induce, entice, or encourage another to be
taken to or placed in any place for prostitution[.]”
(Paragraph breaks omitted). The age of the victim is
not a necessary element of the offense; stated
otherwise, no proof of the victim’s age is needed for a
conviction under CR § 11-303(a).
By contrast, CR § 11-303(b)(1) expressly prohibits
a violation of subsection (a) involving a victim who is a
minor and such a violation constitutes a felony that is
punishable by up to twenty-five years’ imprisonment,
a fine not exceeding $15,000, or both. See CR § 11303(c)(2). Pursuant to Md. Code Ann., Crim. Proc. (2001,
2008 Repl. Vol., 2016 Supp.) (“CP”) § 11-701(p)(2),2 a
Tier II sex offender is described, in pertinent part, as a
person convicted of “conspiring to commit, attempting
to commit, or committing a violation of [CR] § 11303”—without reference to a specific subsection of
that statute—“if the intended prostitute or victim is a

2

This is the version of the statute in effect at the time of the
proceedings in this case.

4a
minor[.]” Pursuant to CP § 11-704(a)(2), a Tier II sex
offender is required to register with the Registry.
Against this backdrop, we consider whether a
person, like Rogers, who is convicted of human
trafficking under CR § 11-303(a) is required to register
as a Tier II sex offender with the Registry where the
victim’s age was not established during a guilty plea
proceeding. We must first ascertain whether the
Department is authorized to make a determination
after a person is convicted and sentenced as to whether
the victim was a minor at the time of the offense and
order the person to register. We also address the point
at which the determination is to be made and the
required standard of proof.
We hold that, where Rogers pled guilty to violating
CR § 11-303(a), an offense whose elements did not
require proof of the victim’s age, and where no proof of
the victim’s age was established at the plea proceeding, Rogers was not required to register as a Tier
II sex offender pursuant to CP §§ 11-701(p)(2) and 11704(a)(2), and the Department lacked the authority to
determine that the victim was a minor and to order
registration. No statute or regulation gives the Department the authority to make a factual determination as
to the victim’s age for purposes of determining that
registration as a Tier II sex offender is required. We
conclude that determination of a fact necessary for
placement on the Registry—e.g., the victim’s age—
must be made by the trier of fact beyond a reasonable
doubt during the adjudicatory phase of the criminal
proceeding prior to sentencing. We reverse the

5a
judgment of the Court of Special Appeals and conclude
that the circuit court properly granted summary
judgment and declaratory judgment in favor of Rogers.
BACKGROUND
Criminal Case
Rogers was charged in the District Court of
Maryland, sitting in Anne Arundel County, with
several counts of human trafficking of a minor and
prostitution arising out of an incident that occurred at
a Red Roof Inn. In a sworn Statement of Charges, a
law enforcement officer identified the victim as “a
juvenile” and “a minor[.]” (Capitalization omitted).
Subsequently, Rogers was charged by indictment in
the circuit court with five counts of human trafficking
of a minor in violation of CR § 11-303(b) and two
counts of prostitution in violation of CR § 11-306.
Rogers decided to plead guilty. On October 20,
2015, at the start of Rogers’s plea proceeding, as part
of a plea agreement, Count Five of the indictment was
amended from alleging that Rogers had trafficked a
minor victim in violation of CR § 11-303(b) to allege
human trafficking generally in violation of CR § 11303(a). Rogers pled guilty to the amended Count Five
and the State entered a nolle prosequi on the
remaining charges. The prosecutor read the following
statement of facts into the record:
[O]n April 3rd of 2015[,] Trooper [C.G. Heid]
of the Maryland State Police . . . was working
in an undercover capacity . . . actively looking

6a
for a missing young woman. . . . He had
received word as part of a task force that he’s
on that she was missing and may be involved
in prostitution against her will.
He found an ad in the Backpage ads, . . .
which advertise for prostitution. And he called
that number. He would have told you in his
training, knowledge, and experience that in
the Backpage ads they are advertising sex in
exchange for money. And this ad had all of the
hallmarks of those types of ads. And he would
have told you in his training, knowledge, and
experience he thought that perhaps this was
the missing girl.
He called the number, . . . and . . . there
was a voice on the other end. . . . The subject
that answered the call stated, “Hello.” The
voice clearly sounded like a man trying to
disguise his voice to be that of a woman,
according to the Trooper.
The Trooper asked that person on the
other end of the line if that person was
working today, and the person said, “Yes.” The
person asked if the Trooper wanted to come
see her today, saying that she was a woman.
And the Trooper asked if he could come see
her around 9:00 a.m., she said, “Yes.”
Based on the photos in the ad, it appeared
that the hotel was the Red Roof Inn. The
Trooper is familiar with that hotel, and . . .
there are a lot of people engaging in
prostitution out of that hotel, the Trooper

7a
would have told you in
knowledge, and experience.

his

training,

They actually utilized surveillance
around the motel in an attempt to locate
another person who might be assisting the
young woman who was in the ad. They know
that through their training, knowledge, and
experience that that is often the case that a
pimp will be in the area, surveilling the area,
leaving the hotel room just before a date,
[with] a person coming to participate in the
prostitution. Comes to the hotel room, and
then the person who is supervising that
prostitution will then come immediately
thereafter.
They did go to that area, . . . which is
located in Anne Arundel County, Maryland, at
the Red Roof Inn. They surveilled from the inn
next door, which is the Hampton Inn, they saw
a person who would be identified as . . .
Rogers[ ] walk to a room on the odd numbered
side of the motel, two minutes later he came
back to the vehicle that he had previously
been in, and pulled away. And that was right
at the time that they were coming for the 9:00
date.
At 9:22, they got a text from that same
phone number that the Trooper had called
previously, indicating that he should come to
the Red Roof Inn . . . where they were already
there surveilling. At 9:29 hours, he called back
and the voice [that] answered . . . was clearly
a female this time, same phone number but

8a
clearly a woman, a young woman, and
certainly not the same person he had spoken
to earlier. The woman said that she would text
the room, and at 9:31 she texted room 333.
The Trooper arrived at room 333, knocked
on the door. A young woman looked through
the window and then came and opened the
door, invited the Trooper in. Several Troopers
then entered the room, identified themselves
as police officers, and then spoke with the
young woman who, in fact, was the missing
girl. . . .
She was very nervous, constantly looking
towards the curtain and the door. She said
that her boss, those were her words, her boss
would probably be coming back to the motel to
keep an eye on her. She said that she was
exchanging sex for money at his behest. She
said that she was doing it because he was
giving her drugs that she needed at that time,
that she was addicted to drugs. . . .
She said that her boss rented the room for
her. And, in fact, we would have produced
evidence that [Rogers] did, in fact, rent room
333 [ ] for several days, indicating that one
person was staying there, and that was [the
victim].
[S]he said he was currently holding $400
for her of her proceeds that she had made
through prostitution. And by holding it later
became clear that she meant he was not
permitting her to have the proceeds of the
prostitution. He was keeping them for

9a
himself. But she explained at that time that
. . . their arrangement was that he was going
to keep half of what she earned after each
date. That he was providing security for her
. . . and helps when she makes the dates.
She said that he posts her ads on the
Backpage magazine on his phone, and then
also takes her phone and uses that as well.
She said that she felt pressure and . . . makes
the dates because he yelled at her to do that.
She indicate[d] that she had sexual intercourse with men for money and that she had
done that over the past couple of days . . . in
that very hotel room. She said that she did
confirm that it was [Rogers] who had
answered the phone when the Trooper had
called and pretended to be her and set up the
date.
She was subsequently taken into custody
. . . and provided a very detailed recorded
statement with more information with regard
to the[ ] events. But suffice [it] to say, . . .
[Rogers] was benefiting from the proceeds of
prostitution, which he had convinced [the
victim] to be involved [ ] in Anne Arundel
County.
The victim’s age was not included in the statement of
facts or established during the plea proceeding.
The circuit court sentenced Rogers to ten years of
imprisonment, with all but eighteen months suspended, with credit for 202 days served, followed by
two years of supervised probation.

10a
After Rogers’s release from prison, the Department advised him that he was required to register as
a Tier II sex offender for a period of twenty-five years.
On October 4, 2016, Rogers completed his initial
registration.
Complaint for Declaratory Judgment
On January 31, 2017, in the circuit court, Rogers
filed a Complaint for Declaratory Judgment against
the State, seeking a declaration that his conviction did
not require him to register as a Tier II sex offender and
an order compelling the Department to remove him
from the Registry.
On September 8, 2017, the State filed a motion for
summary judgment, arguing that, because Rogers had
been convicted under CR § 11-303 and had never disputed that the victim was a minor, the plain language
of CP § 11-701(p)(2) required him to register as a Tier
II sex offender. The State attached to the motion an
affidavit from Allison Gilford, the Supervisor and
custodian of records for the Registry, who averred that
the Registry’s file on Rogers and court records demonstrated that the guilty plea arose from charges that
had been filed against Rogers for “participating in the
prostitution of a minor.” Attached as exhibits to
Gilford’s affidavit were: (1) the Criminal Hearing Sheet
indicating that Rogers pled guilty to Count Five after
it was amended to “read CR [§] 11-303(a) rather than
CR [§] 11-303(b)”; (2) the Statement of Charges
prepared by a Maryland State Trooper referring to the

11a
victim as “a juvenile” and “a minor” (capitalization
omitted); and (3) the indictment charging Rogers with
five counts of human trafficking of a minor in violation
of CR § 11-303(b).
Rogers filed a motion for summary judgment and
a response to the State’s motion for summary
judgment, arguing that, because he had been convicted
under CR § 11-303(a), not CR § 11-303(b), and because
the State had failed to establish that the victim was a
minor, he was not required to register as a Tier II sex
offender under CP § 11-701(p)(2). Rogers asserted that
there was no evidence in the record that the victim of
the charge to which he pled guilty was a minor or was
even the same victim referenced in the other charges.
The circuit court held a hearing on the crossmotions for summary judgment. The circuit court ruled
from the bench, granting Rogers’s motion for summary
judgment and denying the State’s motion for summary
judgment. The circuit court issued a “Declaratory
Judgment and Order,” stating:
DECLARED, ADJUDGED AND DECREED, that [ ] Rogers is not required to
register as a Tier II sex offender on the basis
of his conviction in State of Maryland vs.
Jimmie Junior Rogers . . . and accordingly, it
is hereby:
ORDERED, that (1) [ ] Rogers shall not be
required, ordered, or directed to register as a
Tier II sex offender on the basis of his
conviction in State of Maryland vs. Jimmie
Junior Rogers . . . and, (2) Defendants State of

12a
Maryland and [ ] Department [ ], and any
other agency charged with administering
such registry, shall remove [ ] Rogers’[s] name
from any and all sex offender registries on
which it appears as a result of his conviction
in State of Maryland v. Jimmie Junior
Rogers[.]
(Cleaned up).
The State filed a notice of appeal.
Opinion of the Court of Special Appeals
On March 28, 2019, in a reported opinion, the
Court of Special Appeals reversed the circuit court’s
judgment and remanded the case to the circuit court
for a hearing on the age of the victim, to be proven by
a preponderance of the evidence. See State v. Rogers,
240 Md. App. 360, 362, 370, 205 A.3d 36, 38, 42 (2019).
The Court of Special Appeals rejected Rogers’s
contention that his conviction under CR § 11-303(a)
did not require him to register as a sex offender, and
held that, under CP § 11-701(p)(2), individuals
convicted of violating CR § 11-303 are required to
register as Tier II sex offenders if the offense is
perpetrated against a minor. See id. at 366, 205 A.3d at
40. According to the Court of Special Appeals, “[t]he
registration statute does not differentiate between
convictions under CR § 11-303(b), a crime for which
the victim’s age is an element, and CR § 11-303(a), for
which the victim’s age is not—a conviction under
either sub[section] triggers tier II status if the victim

13a
is a minor.” Id. at 366-67, 205 A.3d at 40. The Court of
Special Appeals reasoned that, because the victim’s
age was not an element of the crime of which Rogers
was convicted, age did not need to be proven beyond a
reasonable doubt. See id. at 366, 205 A.3d at 40. The
Court of Special Appeals stated that sex offender
registration is not punishment, and, as such, is not
“subject to the evidentiary [standard] of proof beyond
a reasonable doubt.” Id. at 367, 205 A.3d at 40. The
Court of Special Appeals remanded the case for the
circuit court to determine by a preponderance of the
evidence whether the victim was a minor at the time
of the offense and to determine whether Rogers was
required to register as a Tier II sex offender under CP
§ 11-704. See id. at 370, 205 A.3d at 42.
Petition for a Writ of Certiorari
On May 15, 2019, Rogers petitioned for a writ of
certiorari, raising the following two issues:
1. When [ ] Rogers pled guilty to an offense
under a statute requiring no proof of the
victim’s age and no proof of age is provided,
does the Department [ ] have the authority to
make an ex parte finding of fact that the
victim is a minor and thus, order [ ] Rogers to
register as a tier II offender?
2. Assuming arguendo that the Department
[ ] has the authority to make ex parte findings
of fact regarding the age of the victim, what
level of proof is required and who may make
the ultimate determination of fact?

14a
On May 29, 2019, the State filed an answer to the
petition for a writ of certiorari and a conditional crosspetition, raising the following three issues:
1. Did the Court of Special Appeals correctly
apply settled law when it reversed the circuit
court’s order granting [ ] Rogers’s motion for
summary judgment, where [ ] Rogers failed to
demonstrate, as a matter of law, that he is not
required to register as a sex offender based
upon his conviction for human trafficking in
violation of [CR] § 11-303?
2. Is [ ] Rogers’s separation-of-powers argument both unpreserved and meritless?
3. Is the State entitled to summary
judgment where [ ] Rogers did not genuinely
dispute the State’s evidence proving that the
victim of [ ] Rogers[’s] human-trafficking
offense was a minor, thus establishing as a
matter of law that [ ] Rogers was required to
register as a sex offender based upon his
conviction of human trafficking in violation of
[CR] § 11-303?
On August 26, 2019, this Court granted the
petition and the conditional cross-petition. See Rogers
v. State, 465 Md. 666, 214 A.3d 1195 (2019).
STANDARD OF REVIEW
Summary judgment is appropriate where “the
motion and response show that there is no genuine
dispute as to any material fact and that the party in
whose favor judgment is entered is entitled to

15a
judgment as a matter of law.” Kennedy Krieger Inst. v.
Partlow, 460 Md. 607, 632, 191 A.3d 425, 440 (2018)
(citation omitted). “[W]hether a trial court’s grant of
summary judgment was proper is a question of law
subject to de novo review on appeal[,]” and “we
independently review the record to determine whether
the parties properly generated a dispute of material
fact, and, if not, whether the moving party is entitled
to judgment as a matter of law.” Id. at 632, 191 A.3d at
440 (citation omitted). “We review the record in the
light most favorable to the nonmoving party and
construe any reasonable inferences that may be drawn
from the facts against the moving party.” Id. at 632-33,
191 A.3d at 440 (citation omitted).
“The standard of review for a declaratory judgment entered as a result of the grant of a motion for
summary judgment is whether that declaration was
correct as a matter of law.” Catalyst Health Sols., Inc.
v. Magill, 414 Md. 457, 471, 995 A.2d 960, 968 (2010)
(cleaned up). Where an issue surrounding a declaratory judgment order involves an interpretation and
application of Maryland law, “we must determine
whether the [trial] court’s conclusions are legally
correct under a de novo standard of review.” Dep’t of
Pub. Safety and Corr. Servs. v. Doe, 439 Md. 201, 219,
94 A.3d 791, 801 (2014) (“Doe II”) (cleaned up).
Recently, in Sabisch v. Moyer, 466 Md. 327, 350,
220 A.3d 272, 285 (2019), we set forth the following
rules of statutory construction:

16a
The cardinal rule of statutory construction is
to ascertain and effectuate the intent of the
General Assembly.
As this Court has explained, to determine that
purpose or policy, we look first to the language
of the statute, giving it its natural and
ordinary meaning. We do so on the tacit theory
that the General Assembly is presumed to
have meant what it said and said what it
meant. When the statutory language is clear,
we need not look beyond the statutory language to determine the General Assembly’s
intent. If the words of the statute, construed
according to their common and everyday
meaning, are clear and unambiguous and
express a plain meaning, we will give effect to
the statute as it is written. In addition, we
neither add nor delete words to a clear and
unambiguous statute to give it a meaning not
reflected by the words that the General
Assembly used or engage in forced or subtle
interpretation in an attempt to extend or limit
the statute’s meaning. If there is no ambiguity
in the language, either inherently or by
reference to other relevant laws or circumstances, the inquiry as to legislative intent
ends.
(Citation omitted).

17a
DISCUSSION3
I.
The Parties’ Contentions
Rogers contends that, under the circumstances of
this case—where he pled guilty to an offense not
requiring proof of the victim’s age and where no proof
of the victim’s age was established at the plea
proceeding—the Department lacked the authority to
determine that the victim was a minor and to order
him to register as a Tier II sex offender. Rogers argues
that a conviction for human trafficking under CR § 11303(a) does not trigger the Registry’s requirements for
Tier II sex offender registration. Rogers asserts that
nothing in the sex offender registry statutes authorizes the Department or the Registry’s manager to
evaluate evidence and determine facts beyond the
record of conviction.
The State responds that, under CP § 11-701(p)(2)’s
plain language, sex offender registration is required
where a person is convicted of violating CR § 11-303
and the victim is a minor. The State argues that the
3

We consolidate the questions presented by the parties into
two issues—the first addressing whether registration is required
under the circumstances of this case and who may make a
determination of the victim’s age, the second addressing at what
point a determination of the victim’s age must be made and what
standard of proof is required. To the extent that the State raises
a question as to whether Rogers’s separation of powers argument
is preserved, Rogers’s assertion that the Department’s action
violated the separation of powers doctrine is not a basis for the
holding in this case. As such, we need not address whether the
issue is preserved.

18a
absence of proof of the victim’s age from the guilty plea
record did not nullify Rogers’s obligation to register as
a Tier II sex offender and the Department had the
authority to determine the victim’s age where that fact
had not been determined in the underlying criminal
proceeding. The State maintains that the Department
properly determined that the victim was a minor, and
asserts that, in the civil proceeding, Rogers did not
genuinely dispute that finding.
Relevant Statutes and Regulations
At all relevant times, CR § 11-303 provided in
pertinent part:
(a)(1)

A person may not knowingly:

(i) take or cause another to be taken to
any place for prostitution;
(ii) place, cause to be placed, or harbor
another in any place for prostitution;
(iii) persuade,
induce,
entice,
or
encourage another to be taken to or placed in
any place for prostitution;
(iv) receive consideration to procure for
or place in a house of prostitution or
elsewhere another with the intent of causing
the other to engage in prostitution or
assignation;
(v) engage in a device, scheme, or
continuing course of conduct intended to
cause another to believe that if the other did

19a
not take part in a sexually explicit performance, the other or a third person would
suffer physical restraint or serious physical
harm; or
(vi) destroy, conceal, remove, confiscate,
or possess an actual or purported passport,
immigration document, or government identification document of another while otherwise
violating or attempting to violate this
subsection.
...
(b)(1) A person may not violate subsection
(a) of this section involving a victim who is a
minor.
...
(c)(1)(i) Except as provided in paragraph (2)
of this subsection, a person who violates
subsection (a) of this section is guilty of the
misdemeanor of human trafficking and on
conviction is subject to imprisonment not
exceeding 10 years or a fine not exceeding
$5,000 or both.
(ii) A person who violates subsection (a) of this section is subject to § 5106(b) of the Courts Article.
(2) A person who violates subsection (b)
of this section is guilty of the felony of human
trafficking and on conviction is subject to
imprisonment not exceeding 25 years or a fine
not exceeding $15,000 or both.

20a
A predecessor of CR § 11-303 was added to the
Criminal Law Article of the Code of Maryland in 2002
as part of the creation of the Criminal Law Article;
previously, the section was Art. 27, § 428. See 2002 Md.
Laws 197, 200, 779 (Vol. I, Ch. 26, H.B. 11). At that
time, Md. Code Ann., Crim. Law (2002) § 11-303 did
not contain a provision concerning conduct in which
the victim was a minor, and simply provided that a
person who violated the section was guilty of the
misdemeanor of pandering. See id. at 779. In 2007, Md.
Code Ann., Crim. Law (2002, 2006 Supp.) § 11-303 was
amended to change the term “pandering” to “human
trafficking,” to add a new subsection (b) to provide that
“[a] person may not violate subsection (a) of this
section involving a victim who is a minor[,]” and to
make a violation of subsection (b) involving a minor
victim a felony that is subject to a higher maximum
sentence. 2007 Md. Laws 2144-45, 2151-52 (Vol. III, Ch.
340, S.B. 606).4

4

In 2009, Md. Code Ann., Crim. Law (2002, 2008 Supp.)
§ 11-303(a)(1)(iii) was amended from “[a] person may not
knowingly[ ] . . . persuade or encourage by threat or promise
another to be taken to or placed in any place for prostitution” to
provide that “[a] person may not knowingly[ ] . . . persuade,
induce, entice, or encourage another to be taken to or placed in
any place for prostitution[.]” 2009 Md. Laws 722-23 (Vol. I, Ch.
143, H.B. 542) (cleaned up). In 2010, Md. Code Ann., Crim. Law
(2002, 2009 Supp.) § 11-303(a)(1) was amended such that § 11303(a)(1)(iv), (v), and (vi) appear as they did in CR § 11-303(a)(1).
See 2010 Md. Laws 3567, 3569-70 (Vol. IV, Ch. 529, S.B. 261). The
following year, Md. Code Ann., Crim. Law (2002, 2010 Supp.)
§ 11-303 was repealed and reenacted without amendments, and a
new section was added to the Criminal Procedure Article to

21a
In 2013, Md. Code Ann., Crim. Law (2002, 2012
Repl. Vol.) § 11-303 was amended to add a new
subsection (f ), which provided that “[i]t is not a defense
to a prosecution under sub[paragraph] (b)(1) of this
section that the person did not know the age of the
victim.” 2013 Md. Laws 5592-94 (Vol. VII, Ch. 653, H.B.
933) (cleaned up). From 2013 to 2019, the time period
relevant here, CR § 11-303 remained unchanged.
Effective October 1, 2019, as part of the reorganization
and amendment of certain provisions relating to sex
trafficking and prostitution, CR § 11-303 was renumbered as Crim. Law (2002, 2012 Repl. Vol., 2019
Supp.) § 3-1102. See 2019 Md. Laws 472-73, 476-77,
488 (Vol. I, Ch. 21, H.B. 871); 2019 Md. Laws 488, 49293, 504 (Vol. I, Ch. 22, S.B. 690). Among other amendments, the term “human trafficking” was replaced with
“sex trafficking[.]” 2019 Md. Laws 477, 492-93 (cleaned
up). CR § 11-303(a) and (b)(1) were renumbered as Md.
Code Ann., Crim. Law (2002, 2012 Repl. Vol., 2019
Supp.) § 3-1102(a) and (b)(1) without change. Id. at
476, 492.

provide that a person who was convicted of prostitution under a
different section of the Criminal Law Article could
file a motion to vacate the judgment if, when the person
committed the act or acts of prostitution, the person
was acting under duress caused by an act of another
committed in violation of the prohibition against
human trafficking under § 11-303 of the Criminal Law
Article or under federal law.
2011 Md. Laws 1016-17, 1021 (Vol. II, Ch. 218, S.B. 327) (cleaned
up).

22a
As to sex offender registration, at the relevant
time, CP § 11-701(p)(2) defined a “Tier II sex offender”
in pertinent part as “a person who has been convicted
of[ ] . . . conspiring to commit, attempting to commit, or
committing a violation of [CR] § 11-303, § 11-305, or
§ 11-306 . . . if the intended prostitute or victim is a
minor[.]” At that time, CR § 11-303 stated what is set
forth above. CR § 11-305(a) concerned abduction of
children under sixteen years of age. CR § 11-306
concerned prostitution, providing, among other things,
that “[a] person may not knowingly[ ] engage in
prostitution or assignation by any means[ or] keep, set
up, occupy, maintain, or operate a building, structure,
or conveyance for prostitution or assignation[.]” CR
§ 11-306(a)(1), (2) (paragraph breaks omitted).
When Md. Code Ann., Crim. Law (2002) § 11-303
was enacted, it did not contain a provision concerning
conduct in which the victim was a minor—i.e., the
provision that later was enacted as Md. Code Ann.,
Crim. Law (2002, 2007 Supp.) § 11-303(b)(1). A predecessor of CP § 11-701, which was added to the Criminal
Procedure Article in 2001, defined an “offender” in
pertinent part as a person “ordered by a court to
register” and who had been convicted of violating any
of the pandering statutes, including CR § 11-303’s
predecessor (Art. 27, § 428) “if the intended prostitute
[was] under the age of 18 years[.]” 2001 Md. Laws 76,
380, 382 (Vol. I, Ch. 10, S.B. 1) (cleaned up). Effective
October 1, 2019, the references to the statutes in CP
§ 11-701(p)(2) were updated so that paragraph now
provides that “ ‘Tier II sex offender’ means a person

23a
who has been convicted of[ ] . . . conspiring to commit,
attempting to commit, or committing a violation of § 31102, § 3-1103, § 11-303, § 11-305, § 11-306, or § 11307 of the Criminal Law Article, if the intended
prostitute or victim is a minor[.]” 2019 Md. Laws. 472,
474, 483, 488 (Vol. I, Ch. 21, H.B. 871) (cleaned up).5
Pursuant to CP § 11-713(2), the Department must
“keep a central registry of registrants[.]” Registrants
are required to file registration statements containing,
among other things, the registrant’s full name and all
addresses and places where the registrant resides or
habitually lives; the name and address of each of the
registrant’s employers; a description of the crime of
which the registrant was convicted; all identifying
factors, including a physical description; information
for any vehicle owned or regularly operated by the
registrant and the locations where all vehicles are
kept; and the registrant’s fingerprints and palm prints.
See CP § 11-706(a). Under CP § 11-717(a)(1), the
Department is required to “make available to the
public registration statements or information about
registration statements.” The Department is required
to post on the Internet:
(1) a current listing of each registrant’s
name and other identifying information; and
(2) in plain language that can be understood
without special knowledge of the criminal
5

We refer to the version of the statute that was in effect at
the time of the underlying proceedings—CP § 11-701(p)(2)—and
not the version of the statute that became effective last year.

24a
laws of the State, a factual description of the
crime of the offender that is the basis for the
registration, excluding details that would
identify the victim.
CP § 11-717(b). Members of the public are permitted to
electronically transmit information about a registrant
to the Department. See CP § 11-717(c)(1). CP § 11721(a) provides, among other things, that “[a] registrant may not knowingly fail to register, . . . or
knowingly provide false information of a material fact
as required by this subtitle.” A first-time violation of
CP § 11-721 constitutes a misdemeanor and a second
or subsequent violation constitutes a felony. See CP
§ 11-721(b).
CP § 11-720 provides that the Secretary shall
adopt regulations to carry out the subtitle. To that end,
Code of Maryland Regulations (“COMAR”) 12.06.01.01
to 12.06.01.18 set forth regulations related to the
administration of sex offender registration. COMAR
12.06.01.06B(1) provides that “[a] supervising authority shall establish procedures for[ o]btaining information required for the registration statement before [ ]
its submission to the Sex Offender Registry Unit and
to other agencies as required[.]” And, the Sex Offender
Registry Unit is required to:
(1)

Maintain a central registry:

(a) Initiated by receipt of registration
statements; and

25a
(b) Updated by receipt of periodic registration documentation and notice of changes
of registrant’s address or other status;
(2) Determine if a registrant should be
placed in an under investigation or absconder
status;
(3)

Calculate terms of registration; and

(4)

Authorize termination of registration.

COMAR 12.06.01.08A.
Relevant Case Law
In Doe II, 439 Md. at 237, 94 A.3d at 812, this
Court explained that the Department’s Sex Offender
Registry Unit “is in charge of the maintenance of all
sex offender registration information for the State[,
and p]ursuant to Maryland regulations, . . . has the
authority to maintain Maryland’s central registry, as
well as to manage and authorize termination of registration.” (Citation omitted). We stated that a trial court
has “the authority to compel the State to remove all of
its records relating to [a person]’s registration as a sex
offender[.]” Id. at 237, 94 A.3d at 812.
Maryland case law has recognized that the Registry is a conviction-based registration scheme. In In re
Nick H., 224 Md. App. 668, 673, 700, 123 A.3d 229, 232,
247-48 (2015), a case in which the trial court ordered a
child respondent to register as a sex offender, the Court
of Special Appeals observed:

26a
One aspect of [the Registry Act] that was
important to the holding of a violation of the
constitutional prohibition against ex post
facto laws by the Court of Appeals . . . and by
this Court . . . was the automatic imposition of
the registration requirement because of a
conviction for a particular sex crime.
(Citations omitted). The Court of Special Appeals
explained that the requirement of sex offender
registration “appl[ies] automatically by operation of
Maryland law.” Id. at 710, 123 A.3d at 254.
As to being required to register, in Cain v. State,
386 Md. 320, 322, 325 n.6, 872 A.2d 681, 682, 684 n.6
(2005), this Court considered whether a person convicted of second-degree assault was required to
register as an “offender” under what was then Md.
Code Ann., Crim. Proc. (2001) § 11-701(d)(7), which
provided that “ ‘[o]ffender’ means a person who is
ordered by a court to register under this subtitle and
who[ ] has been convicted of a crime that involves
conduct that by its nature is a sexual offense against a
person under the age of 18 years[.]” We held “that a
person convicted of second[-]degree assault [was] not
required to register as an offender under the Registration of Offenders statute, unless the elements of the
crime contain[ed] reference to a sexual offense against
a minor.” Id. at 322, 872 A.2d at 682. In that case, the
defendant was charged with one count of child abuse,
two counts of third-degree sexual offense, and one
count of second-degree assault, and he pled guilty to
second-degree assault. See id. at 322-23, 872 A.2d at

27a
682-83. During the guilty plea proceeding, defense
counsel advised that the prosecutor was going to ask
that the defendant register under the registration
statute and that counsel was going to argue against
registration. See id. at 324, 872 A.2d at 683. At the
sentencing proceeding, defense counsel asked that the
defendant not be required to register as a sex offender.
See id. at 325, 872 A.2d at 684. The trial court
ultimately ordered the defendant to register as an
offender as a condition of his probation. See id. at 326,
872 A.2d at 684-85. The defendant filed a motion to
correct an illegal sentence, arguing that the conviction
for second-degree assault did not fall within the
definition of “offender” set forth in Md. Code Ann.,
Crim. Proc. (2001) § 11-701(d)(7). See id. at 326, 872
A.2d at 685. The trial court denied the motion. See id.
at 327, 872 A.2d at 685. The defendant appealed, and,
on our own initiative, this Court issued a writ of
certiorari. See id. at 327, 872 A.2d at 685.
This Court held that the defendant was not
required to register as a sex offender, and reversed the
trial court’s denial of the motion to correct an illegal
sentence. See id. at 327, 872 A.2d at 685. The defendant
“argue[d] that the elements of the crime of assault for
which he was convicted negate[d] the registration
requirement, while the State assert[ed] that the
underlying facts to which [he] pled guilty mandate[d]
registration.” Id. at 329, 872 A.2d at 686. In deciding
the issue, this Court extensively reviewed the history
of Maryland’s offender registration laws and the Registry. See id. at 329-35, 872 A.2d at 686-90. We observed

28a
that second-degree assault was “not one of the enumerated crimes in the statute requiring registration, such
as rape, kidnaping, false imprisonment, or violations of
the child pornography statute.” Id. at 335, 872 A.2d at
690 (citation omitted).
We addressed the State’s contention that the
defendant was “required to register because the facts
contained in the statement of facts underlying the
assault by their nature constituted a sexual offense
under Section 11-701(d)(7).” Id. at 335, 872 A.2d at 690.
We noted that the statute defined an offender as
someone who was “ ‘convicted of a crime that involves
conduct that by its nature is a sexual offense’ against
a minor[,]” meaning that we needed to look at “the
elements of the crime [of ] which [the defendant was]
convicted” to determine whether registration was required. Id. at 336, 872 A.2d at 690 (emphasis in original). Looking at the elements of second-degree assault,
of which the defendant was convicted, we observed
that the offense did not contain references to a sexual
offense against a minor, and instead consisted of “the
common[-]law offenses of assault, assault and battery,
and battery, unless aggravated to the greater offense
of first[-]degree assault by the use of a firearm or intent
to cause serious physical injury[,]” which did not “contemplate conduct that by its nature involves a sexual
offense.” Id. at 338, 872 A.2d at 691-92 (cleaned up).
We determined that, to qualify as an offender
under the statute at issue, the statute “require[d] that
sexual conduct that involve[d] an underage person [ ]
be presented within the crime charged and which the

29a
person [stood] convicted.” Id. at 338, 872 A.2d at 692.
In our view, “[t]o hold otherwise would expose individuals to possible registration that have been convicted
of crimes that do not include elements related to sexual
conduct with a minor[.]” Id. at 338, 872 A.2d at 692. We
concluded that the trial court erred in denying the
motion to correct an illegal sentence and we ordered
the trial court to vacate the condition of probation
requiring the defendant to register as an offender. See
id. at 340, 872 A.2d at 693. We explained:
[T]he trial [court] acknowledged that [the
defendant] had agreed to plead guilty to
second[-]degree assault, which the [trial
court] described as “unpermitted touching.”
The State entered a nolle prosequi on the
other charges against [the defendant], relating to child abuse and a sexual offense which
left only the elements of second[-]degree
assault, i.e.[,] the unlawful application of force
to another person, remaining without implication of sexual conduct involving a minor.
Id. at 340, 872 A.2d at 693.
In State v. Duran, 407 Md. 532, 554, 967 A.2d 184,
197 (2009), a case addressing the same statutory
provision as Cain, among other things, this Court held
“that indecent exposure is not a crime that by its
nature is a sexual offense” and that the defendant, who
was convicted of indecent exposure, was “not required
to register as a[n] ‘offender’ under” Md. Code Ann.,
Crim. Proc. (2001, 2006 Supp.) § 11-701(d)(7). In
Duran, 407 Md. at 534, 967 A.2d at 185, the defendant

30a
exposed himself to girls of middle school age on three
occasions and he was indicted on four counts of
indecent exposure. The defendant pled guilty to one
count of indecent exposure in each of three cases. See
id. at 534, 967 A.2d at 185. At the sentencing proceeding, the State requested, and the trial court
ordered, that the defendant register as a sex offender.
See id. at 534, 967 A.2d at 185. The defendant appealed, and the Court of Special Appeals vacated the
condition of probation requiring registration, concluding that “the elements of the crime of indecent exposure
‘do not contain reference to a sexual offense against a
minor,’ ” and thus “registration was outside the scope
of the plea agreement.” Id. at 534, 967 A.2d at 185
(citation omitted).
On review, we observed that Md. Code Ann., Crim.
Proc. (2001, 2006 Supp.) § 11-704(a) required that “an
offender” register with their supervising authority, and
that Md. Code Ann., Crim. Proc. (2001, 2006 Supp.)
§ 11-701(d) defined an offender “as a person who has
committed an enumerated offense or who has been
convicted of a crime that involves conduct that by its
nature is a sexual offense against a person under the
age of 18 years[.]” Id. at 547-48, 967 A.2d at 192-93
(cleaned up). Because indecent exposure was not an
enumerated offense, we addressed whether it was a
crime that by its nature was a sexual offense. See id.
at 549, 967 A.2d at 193-94. Tracing the historical basis
of the crime, we concluded that “indecent exposure is
not in and of itself sexual in nature, because the
lewdness element incorporates conduct that is not

31a
sexual, in addition to that which may be sexual.” Id.
at 553, 967 A.2d at 196. In short, we determined
that “neither this Court’s interpretation of the
common[-]law indecent exposure nor any statute
requires a sexual component.” Id. at 554, 967 A.2d at
197.
We rejected the State’s argument that the
appropriate remedy was to vacate the defendant’s plea
instead of striking the registration condition of
probation. See id. at 555, 967 A.2d at 197. We explained
that we disagreed “because the trial court had no
authority under the statute to require [the defendant]
to register and the registration condition was not
integral to the plea agreement; it was not even a
subject of negotiation.” Id. at 555, 967 A.2d at 197-98.
Thus, the appropriate remedy was to strike the
condition of probation that the defendant register as a
sex offender. See id. at 556, 967 A.2d at 198.
Analysis
Here, we hold that, where Rogers pled guilty to
violating CR § 11-303(a), an offense whose elements do
not require proof of the victim’s age, and where no
proof of the victim’s age was established at the plea
proceeding, Rogers was not required to register as a
Tier II sex offender pursuant to CP §§ 11-701(p)(2) and
11-704(a)(2). The Department lacked the authority to
determine on its own initiative that the victim was a
minor and to order registration. No statute or
regulation gives the Department the authority to make

32a
a factual determination as to the victim’s age and to
require that an individual register as a Tier II sex
offender.
We begin by examining the plain language of the
relevant statutes. Indisputably, CR § 11-303(a) does
not mention the victim’s age. CR § 11-303(a) prohibits,
among other things, the knowing taking or causing of
someone to be taken to any place for prostitution,
harboring someone in a place for prostitution, and persuading, inducing, enticing, or encouraging someone to
be taken to any place for prostitution. CR § 11-303(a)
criminalizes human trafficking, and is a misdemeanor
that carries a maximum sentence of ten years’ imprisonment, a $5,000 fine, or both. See CR § 11-303(c)(1)(i).
CR § 11-303(a) does not contain any reference to the
victim’s age whatsoever. By contrast, CR § 11-303(b)(1),
a more serious offense, specifically prohibits violation
of subsection (a) involving a victim who is a minor. CR
§ 11-303(b)(1) expressly forbids human trafficking of
children. That offense is a felony with a maximum
sentence of twenty-five years’ imprisonment, a $15,000
fine, or both. See CR § 11-303(c)(2).
CP § 11-701(p)(2) defines a “Tier II sex offender”
as a person who has been convicted of conspiring to
commit, attempting to commit, or committing a violation of CR § 11-303 where “the intended prostitute or
victim is a minor[.]” Examining the plain language of
CP § 11-701(p)(2) leads to the conclusion that a person
is a Tier II sex offender and required to register
pursuant to CP § 11-704(a)(2) where two conditions
are satisfied: (1) the person is convicted of violating CR

33a
§ 11-303; and (2) the intended prostitute or victim is a
minor. CP § 11-701(p)(2) does not distinguish between
convictions under CR § 11-303(a) and CR § 11303(b)(1), and it appears that a conviction under either
provision may result in a requirement to register if the
victim is a minor. We agree with the State that CP § 11701(p)(2)’s definition of a Tier II sex offender applies to
someone who is convicted of violating CR § 11-303(a)
where the intended prostitute or victim is a minor.
Otherwise, the language “if the intended prostitute or
victim is a minor” would be superfluous, because a
conviction under CR § 11-303(b)(1), by its very definition, will always involve a victim who is a minor. Put
differently, the language in CP § 11-701(p)(2) regarding the victim being a minor is not necessary for a
person who is convicted of violating CR § 11-303(b)(1)
to be required to register; to have any meaning at all,
the language must apply to CR § 11-303(a) and other
statutes like it set forth in CP § 11-701(p)(2) that do
not require the age of the victim to be proven.
Although we are satisfied that, under CP § 11701(p)(2), a conviction of either CR § 11-303(a) or CR
§ 11-303(b)(1) triggers Tier II sex offender status if the
victim is a minor, a person is not a Tier II sex offender
simply by virtue of a conviction under CR § 11-303(a);
there must also be proof that the victim was a minor.
What can be gleaned from the plain language of CP
§ 11-701(p)(2) is that the General Assembly intended
Tier II sex offender registration where there was
conviction of an identified crime and where the victim
was a minor. The plain language of the statute

34a
indicates that the General Assembly did not intend
registration under CP § 11-701(p)(2) simply because
there was a conviction under CR § 11-303(a).
Here, Rogers pled guilty to, and was convicted of,
violating CR § 11-303(a). The victim’s age was not
established during the prosecutor’s recitation of the
statement of facts or at any point during the guilty
plea proceeding. It was only after Rogers was released
from imprisonment that the Department determined
that he was required to register as a Tier II sex
offender under CP § 11-701(p)(2). Although CP § 11701(p)(2) sets forth two conditions for someone to
qualify as a Tier II sex offender—conviction under CR
§ 11-303 and the intended prostitute or victim is a
minor—the statute does not indicate how a determination is to be made as to whether the victim is a minor
if that fact is not established during the underlying
criminal proceeding. CP § 11-701(p)(2) does not state
whether a determination of the victim’s status as a
minor is to be made by the trier of fact (either the trial
court or a jury), or if, as in this case, the Department
may make such a determination. After a thorough
review of relevant law, we conclude that the trier of
fact, not the Department, must make the determination. As such, the Department did not have the
authority in this case to determine that the victim was
a minor and to order Rogers to register as a Tier II sex
offender. We explain.
Looking at the sex offender registration statutes
and regulations reveals that there is no explicit
delegation anywhere authorizing the Department to

35a
make such a determination, and we know of no case in
which this Court has recognized that the Department
has such authority. Absent an express delegation of
authority to the Department to make such a
determination, we decline to read into the statutes and
regulations the authority to permit the Department to
take the action.
At oral argument, the Assistant Attorney General
acknowledged that there is no explicit statutory
delegation of authority to the Department to make a
determination as to a victim’s age, but argued that,
because CP § 11-701(p)(2) requires a conviction and
that the victim be a minor, and because the statutes
and regulations require that the Registry be maintained, the Department is permitted to make such a
determination. Without dispute, the Department is
required to “keep a central registry of registrants and
a listing of juvenile sex offenders[,]” CP § 11-713(2),
and has various attendant responsibilities. Nothing in
the plain language of the statutes themselves, however, provides the Department with the ability to
determine, or even a process for determining, a fact
necessary for placement on the Registry. The regulations that were promulgated by the Department are
likewise unavailing. Under COMAR 12.06.01.08A, the
Sex Offender Registry Unit is required to maintain the
Registry, “[d]etermine if a registrant should be placed
in an under investigation or absconder status[,]”
“[c]alculate terms of registration[,]” and “[a]uthorize
termination of registration.” Although the Sex Offender
Registry Unit may determine whether a registrant

36a
should be placed in an “under investigation or
absconder” status, the Unit is not authorized to
determine facts necessary to place a person on the
Registry in the first instance.
To allow the Department, the Sex Offender
Registry Unit, or some person or entity other than the
trier of fact to determine a fact necessary for placement
on the Registry would lead to an incongruous result for
those convicted of violating CR § 11-303(b)(1) and
those convicted of violating CR § 11-303(a). A conviction under CR § 11-303(b)(1) would involve proof of
a victim’s age as determined by the trier of fact beyond
a reasonable doubt because the victim’s age is an
element of the offense, and that person would subsequently be ordered to register as a Tier II sex
offender. Whereas, placement on the Registry for a
conviction under CR § 11-303(a) would involve proof of
one of the various modes of human trafficking, but no
proof of the victim’s age would be required whatsoever
by any standard of proof before the trier of fact. Yet,
that person would be placed on the Registry if the
Department determined post hoc, by whatever process
it deemed appropriate, that the victim was a minor. If
the Department were permitted to make such a
finding, that finding could be made without notice and
non-publicly, and would not necessarily be required to
meet any particular standard of proof, such as proof
beyond a reasonable doubt, by clear and convincing
evidence, or by a preponderance of the evidence.
It would be difficult to conceive that the General
Assembly intended placement on the Registry for

37a
those convicted under CR § 11-303(a) to be determined
by an entity different than the trier of fact, in a
different manner, and through use of an unknown
standard of proof different than that used for those
convicted under CR § 11-303(b)(1). Such a result would
be illogical. Allowing such a determination would lead
to the circumstance presented here, where it is incumbent on the defendant to seek relief from the
Department’s finding, after the criminal proceeding
has concluded, without knowing how the Department
reached its conclusion. As in this case (where Rogers
requested declaratory judgment), the defendant would
bear the burden of establishing that placement on the
Registry was erroneous. A defendant generally does
not have the burden of proof—i.e., the requirement to
prove—that punitive or regulatory actions taken by
the State against him or her were unwarranted.
Generally, the State must prove conduct warranting
such action. Permitting the Department to determine
in a closed-door fashion that the defendant is required
to register and causing the defendant to challenge the
determination would turn reasonableness on its head.
We are cognizant that not all of the statutes
referenced in CP § 11-701(p)(2) have as an element of
the offense that the victim be a certain age. For some
offenses, including human trafficking under CR § 11303(a), there must be additional proof that the
intended prostitute or victim was a minor for Tier II
sex offender registration to be required. For example,
CR § 11-306(a) prohibits knowingly engaging in
prostitution or maintaining or operating a building for

38a
prostitution, and does not require as an element of the
offense proof as to the victim’s age. Simply because
some of the statutes do not have as an element of the
offense that the victim be a minor (or some other
certain age) does not mean that the General Assembly
intended that a determination of the victim’s age be
made outside of the underlying criminal proceeding.
The circumstance that some offenses require proof of
the victim’s age as an element and some do not does
not resolve the question of the process for making a
determination under CP § 11-701(p)(2) that the victim
is a minor, where the victim’s age is not an element of
the offense. That there are several statutes referenced
by CP § 11-701(p)(2)—some of which require proof of
the victim’s age as an element and some that do not—
does not mean that the General Assembly intended for
the Department to make the determination. Based on
principles of fairness, it would make sense that the
trier of fact—not the Department—must determine
the facts necessary for placement on the Registry.
Our conclusion is supported by the numerous
cases in which trial courts—not the Department—
ordered defendants to register as sex offenders. See,
e.g., Duran, 407 Md. at 534, 967 A.2d at 185; Cain, 386
Md. at 326, 872 A.2d at 684-85; Nick H., 224 Md. App.
at 673, 123 A.3d at 232. Although arising in a different
context, Cain, 386 Md. at 336, 338, 872 A.2d at 690,
692, and Duran, 407 Md. at 547-48, 553-54, 967 A.2d
at 192-93, 196-97, stand for the principle that determination of who is an “offender” for registration purposes—or, in this case, who is a Tier II sex offender—is

39a
controlled by the language of the statute at issue. To be
a Tier II sex offender, CP § 11-701(p)(2) requires both
a conviction of CR § 11-303 and that the intended
prostitute or victim be a minor. Just as a finding of
guilt is made by a trier of fact, absent any indication
whatsoever by the statutes’ plain language that the
Department is authorized to determine facts necessary
for placement on the Registry, we conclude that such
facts must be determined by the trier of fact. Having
determined that the Department is not authorized to
find facts necessary for placement on the Registry, we
next address at what point the trier of fact must make
such a determination and the required standard of
proof.
II.
The Parties’ Contentions
On brief, Rogers contends that the victim’s age
must be found by the trier of fact beyond a reasonable
doubt before sentencing, not by the Registry’s manager
at some point after conviction. Rogers asserts that this
Court has determined that sex offender registration is
punishment equivalent to imposing an additional
sanction for a defendant’s crime. At oral argument,
surprisingly, though, in response to questions from the
Court, Rogers’s counsel allowed that the trial court
could make a determination beyond a reasonable
doubt about the victim’s age at any point within the
context of the criminal case, so long as the determination is made before sentence is imposed.

40a
The State responds that this Court has previously
concluded that sex offender registration is not intended as punishment, but instead is intended as a
regulatory requirement. As such, the State argues that
the victim’s age may be determined by the Department
by a preponderance of the evidence, not beyond a
reasonable doubt, and after conclusion of the court
proceedings.
Relevant Law
In Young v. State, 370 Md. 686, 690, 806 A.2d 233,
235 (2002), this Court examined an earlier version of
the Maryland sex offender registration statute in the
context of due process rights. We determined that “sex
offender registration [did] not constitute punishment
in the constitutional sense[.]” Id. at 690, 806 A.2d at
235. In so determining, we applied the “intent-effects”
test, “a two-part inquiry whether (1) the legislature
intended the sanction to be punitive, and (2) the
sanction is so punitive in effect as to prevent the court
from legitimately viewing it as regulatory or civil in
nature, despite the legislature’s intent.” Id. at 711, 70607, 806 A.2d at 248, 245. As to the legislative intent
behind the sex offender registration statutes, we noted
that, as enacted, the statute at issue contained no
express statement of purposes, but “the plain language
and overall design . . . clearly indicate[d] that it was
not intended as punishment, but rather was intended
as a regulatory requirement aimed at protection of the
public.” Id. at 712, 806 A.2d at 248. The Court stated
that the General Assembly did not intend “registration

41a
or notification as a device to punish convicted sex
offenders” and did not intend “to stigmatize or shame
sex offenders.” Id. at 712, 806 A.2d at 248.
As to whether there was clear proof that the
statute was so punitive, either in purpose or effect, that
its punitive nature overrode the remedial purpose, this
Court looked at the following factors derived from
Kennedy v. Mendoza-Martinez, 372 U.S. 144, 168-69,
83 S.Ct. 554, 9 L.Ed.2d 644 (1963):
(1) whether the sanction involves an
affirmative disability or restraint; (2) whether
it has historically been regarded as a
punishment; (3) whether it comes into play
only on a finding of scienter; (4) whether its
operation will promote the traditional aims of
punishment—retribution and deterrence; (5)
whether the behavior to which it applies is
already a crime; (6) whether it lacks an
alternative purpose to which it rationally may
be connected; and (7), if such alternative does
exist, whether the statute appears excessive
in relation to it.
Young, 370 Md. at 713, 698, 806 A.2d at 249, 240. We
observed that “sex offender registration imposes [ ]
affirmative disabilities on registrants, particularly in
light of the community notification provisions of [the
statute].” Id. at 713, 806 A.2d at 249. We noted that
“[b]eing labeled as a sex[ ] offender within the
community can be highly stigmatizing and can carry
the potential for social ostracism.” Id. at 713, 806 A.2d
at 249. Nevertheless, we “conclude[ed] that the burden

42a
[was] not so unreasonable, in light of the statute’s
remedial aims, that it converts the statute into a
punitive one.” Id. at 713, 806 A.2d at 249. We also noted
that the statute applied to past criminal conduct,
implicating the fifth factor. See id. at 714, 806 A.2d at
249. We ultimately concluded that the statute was “not
so punitive a statute in its effect that its application
defeat[ed] the [General Assembly]’s remedial intent.”
Id. at 714, 806 A.2d at 250. And, we stated that “[s]ex
offender registration traditionally ha[d] not been
regarded as punishment.” Id. at 714, 806 A.2d at 250.
We observed that the statute had no scienter requirement, possibly promoted deterrence, had a
legitimate purpose other than punishment, and was
not excessive in relation to its remedial purpose. See
id. at 715, 806 A.2d at 250.
More than a decade later, in Doe v. Dep’t of Pub.
Safety and Corr. Servs., 430 Md. 535, 537, 62 A.3d 123,
124 (2013) (“Doe I”), a plurality of this Court concluded
that the petitioner could not be compelled to register
as a sex offender, explaining:
During the 1983-84 school year, at the
time of [the p]etitioner’s commission of the sex
offense mentioned herein, the Maryland sex
offender registration statute did not exist. The
General Assembly enacted the sex offender
registration statute in 1995. As a result of
amendments to that statute in 2009 and 2010,
[the p]etitioner is now required to register as
a sex offender. We shall hold that requiring
[the p]etitioner to register as a result of the
2009 and 2010 amendments violates the

43a
prohibition against ex post facto laws
contained in Article 17 of the Maryland
Declaration of Rights. Pursuant to our
determination that [the p]etitioner may not
be compelled to register, his name and
likeness shall be removed from the Maryland
Sex Offender Registry.
The plurality determined that “application of the sex
offender registration statute to [the p]etitioner in 2009
[was] the equivalent of imposing a new criminal
sanction for [the p]etitioner’s prior commission of sex
crime in the 1980s.” Id. at 561, 62 A.3d at 138. In the
plurality’s view, placement on the Registry essentially
had the same effect as placing the petitioner on
probation, thereby “effectively impos[ing] on him an
additional criminal sanction.” Id. at 562, 62 A.3d at
139. The plurality explained:
[The p]etitioner testified that under
threat of arrest and incarceration he was
required to register in 2009. [The p]etitioner
currently must report in person to law
enforcement every three months, give notice
to law enforcement of his address and any
changes of address, and notify law enforcement before being away from his home for
more than seven days. Furthermore, he must
disclose to the State a significant amount of
information, some of which is highly personal,
including: his employment address; information about his conviction; his [S]ocial
[S]ecurity number; his email address and
computer log-in names; information about
vehicles he often uses, including those not

44a
owned by him; his finger[ ]prints and palm
prints; all identifying factors, including a
physical description, and an updated digital
image of himself. . . . If [the p]etitioner fails to
comply with these requirements, he faces
terms of imprisonment, depending on the
violation, of up to three or five years.
Id. at 562, 62 A.3d at 139 (cleaned up). Moreover, “the
dissemination of [the p]etitioner’s information pursuant to the sex offender registration statute[ was] tantamount to the historical punishment of shaming[,]” and
was “punitive for ex post facto purposes.” Id. at 564,
565, 62 A.3d at 140, 141 (footnote omitted).
In a concurring opinion, the Honorable Glenn T.
Harrell, Jr. discussed the various amendments to the
Maryland Sex Offender Registration Act that had
occurred since 2009, stating:
Since 2009, several amendments to the
Maryland Sex Offender Registration Act have
been adopted, including, but not limited to: (1)
adding juvenile sex offenders to the list of
those who must register; (2) requiring registration statements to include a list of aliases,
electronic email addresses, computer screen
names, or any name by which the registrant
had been legally known; (3) requiring tier III
offenders (such as Doe) to register in person
every three months for life; (4) requiring
that registrants provide three days[’] notice
after changing addresses; (5) ordering
registrants to notify law enforcement, prior to
the relocation, when the registrant obtains a

45a
temporary residence or changes the location
where the registrant resides or “habitually
lives” for more than 5 days; (6) requiring
homeless registrants to register in person
with the local law enforcement in each county
where the registrant habitually lives; (7)
publicize registration information on the
Internet; and (8) granting the Department [ ]
and law enforcement the discretion to provide
notice of a registration statement or a
registrant’s change of address to whomever
they deem necessary so as to protect the
public from the registrant.
Id. at 569-70, 62 A.3d at 143-44 (Harrell, J., concurring)
(citations omitted). Judge Harrell observed that “significant revisions to the Maryland registration statute
ha[d] occurred since the Young [C]ourt reviewed the
statute in 2002.” Id. at 571, 62 A.3d at 145 (Harrell, J.,
concurring). For example, Judge Harrell noted that,
beyond disseminating basic registry information about
registrants, “the Maryland registry web site allows any
person to post comments, that are available for the
public to view, below a registrant’s profile.” Id. at 572,
62 A.3d at 145 (Harrell, J., concurring). Judge Harrell
observed that “in-person registration requirements
may involve punitive restraints.” Id. at 572, 62 A.3d at
145 (Harrell, J., concurring). Judge Harrell stated that
“dissemination of non-public and sensitive information
about registrants” presented the risk of being
stigmatizing, and noted that registrants were required
“to inform the State on every change of location,
including any place in which a registrant habitually

46a
lives or stays for more than five days, and . . . the
Department or law enforcement [were permitted] to
share the information with anyone when [ ] necessary
to do so to protect the public.” Id. at 572-73, 62 A.3d at
145 (Harrell, J., concurring) (citations omitted). As to
recidivism, Judge Harrell stated that research since
2002 demonstrated that, “[a]pplying such a broadreaching statute like Maryland’s to any qualifying sex
offender without particularized determinations of
recidivism may undermine the law’s intent to prevent
the repetition of sex offenses. Indeed, recent research
reports that broad-reaching sex offender registration
and notification laws do not reduce recidivism by sex
offenders.” Id. at 573, 62 A.3d at 146 (Harrell, J.,
concurring) (citations omitted).
In a separate concurring opinion, the Honorable
Robert N. McDonald, joined by the Honorable Sally D.
Adkins, stated that “the cumulative effect of the 2009
and 2010 amendments of the State’s sex offender
registration law took [the] law across the line from civil
regulation to an element of the punishment of
offenders.” Id. at 578, 62 A.3d at 148 (McDonald, J.,
concurring) (citations omitted).
Similarly, in Quispe del Pino v. Md. Dep’t of Pub.
Safety and Corr. Servs., 222 Md. App. 44, 63, 112 A.3d
522, 533 (2015), in the ex post facto context, the Court
of Special Appeals concluded:
[T]he retroactive application of [the Maryland
Sex Offender Registration Act] to [the]
appellant by the 2010 amendment imposed

47a
additional punishment on [the] appellant for
criminal conduct that occurred prior to the
existence of the amended statute, by extending the term of his required registration
from ten years to twenty-five years. Thus the
2010 amendment, as applied to [the] appellant, is unconstitutional under the prohibition
against ex post facto laws contained in Article
17 of the Maryland Declaration of Rights.
In Nick H., 224 Md. App. at 673, 689, 123 A.3d at
232, 241, a case where a juvenile court ordered the
appellant to register as a sex offender, the Court of
Special Appeals held, in pertinent part, that the
juvenile court properly ordered the appellant to
register and that the retroactive application of the
Maryland Sex Offender Registration Act as applied to
the appellant was not punishment and was not a
violation of the prohibition against ex post facto laws.
In that case, the juvenile court conducted a hearing to
determine whether the appellant was at a significant
risk of re-offending and “concluded, based on clear and
convincing evidence, that [the] appellant was at a
significant risk of re-offending, and thus ordered him
to register as a sex offender[.]” Id. at 673, 123 A.3d at
232. The Court of Special Appeals applied the intenteffects test and examined the various MendozaMartinez factors, see Nick H., 224 Md. App. at 689-705,
123 A.3d at 241-50, concluding:
[A]lthough the requirement of registration
imposes an affirmative disability on [the]
appellant, has been regarded historically as
punishment, carries the element of scienter,

48a
and applies to behavior that is criminal in
nature, these disadvantages are outweighed
by the public safety purpose of [the Maryland
Sex Offender Registration Act] and the
process afforded juvenile sex offenders both
before and after being ordered to register.
[The Act] requires an individualized assessment of a juvenile sex offender, under a clear
and convincing evidence standard, before
placement on the sex offender registry, and
the opportunity to seek a reduction in the
term of registration. By contrast, [the Act]
requires all adults convicted of certain sexual
offenses to register as sex offenders for a
specified term regardless of their continuing
threat to society. Therefore, the placement of
some juvenile sex offenders on the sex offender register is explicitly tied to the regulatory
purpose of sex offender registration.
Id. at 705, 123 A.3d at 250-51.
In Apprendi v. New Jersey, 530 U.S. 466, 490
(2000), the United States Supreme Court held that,
“[o]ther than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed
statutory maximum must be submitted to a jury, and
proved beyond a reasonable doubt.” In that case, a New
Jersey statute classified the possession of a firearm for
an unlawful purpose as a second-degree offense
punishable by between five years’ and ten years’
imprisonment. See id. at 468. A separate New Jersey
statute, which was a hate crime law, provided for an
extended term of imprisonment if the trial court found

49a
by a preponderance of the evidence that the defendant
committed the crime “with a purpose to intimidate an
individual or group of individuals due to race, color,
gender, handicap, religion, sexual orientation[,] or
ethnicity[.]” Id. at 468-69 (cleaned up). Under the hate
crime law, the extended term of imprisonment for
second-degree offenses was between ten years’ and
twenty years’ imprisonment. See id. at 469. The
Supreme Court explained that the New Jersey
statutory scheme consisted of the following:
[A] jury [is allowed] to convict a defendant of
a second-degree offense based on its finding
beyond a reasonable doubt that [the
defendant] unlawfully possessed a prohibited
weapon; after a subsequent and separate
proceeding, it then allows a judge to impose
punishment identical to that New Jersey
provides for crimes of the first degree, based
upon the judge’s finding, by a preponderance
of the evidence, that the defendant’s purpose
for unlawfully possessing the weapon was to
intimidate his [or her] victim on the basis of a
particular characteristic the victim possessed.
Id. at 491 (cleaned up). Applying its holding, the
Supreme Court concluded that the New Jersey
statutory scheme could not stand. See id. at 491-92.

50a
Analysis
Here, we hold that applying the intent-effects test
and the Mendoza-Martinez factors leads to the
conclusion that sex offender registration under the
current statutory scheme is sufficiently punitive, i.e.,
serving as more than a mere civil regulation, to require
determination of a fact necessary for placement on the
Registry—such as the victim’s age—be made beyond a
reasonable doubt by the trier of fact during the
adjudicatory phase of the criminal proceeding prior to
sentencing. Although whether placement on the Registry is punitive has not been examined in the context of
a conviction for CR § 11-303(a), placement on the
Registry is placement on the Registry, regardless of the
reason or the conviction that required sex offender
registration. We are satisfied that establishment of the
victim’s age and placing a defendant who is convicted
of violating CR § 11-303(a) on the Registry essentially
increases the punishment or penalty for that crime,
and that the determination of the victim’s age must be
submitted to the trier of fact and proven beyond a
reasonable doubt. Cf. Apprendi, 530 U.S. at 490 (“Other
than the fact of a prior conviction, any fact that
increases the penalty for a crime beyond the prescribed
statutory maximum should be submitted to a jury, and
proved beyond a reasonable doubt.”); see also Blakely
v. Washington, 542 U.S. 296, 303, 313 (2004) (“[T]he
‘statutory maximum’ for Apprendi purposes is the
maximum sentence a judge may impose solely on the
basis of the facts reflected in the jury verdict or
admitted by the defendant. . . . As Apprendi held,

51a
every defendant has the right to insist that the
prosecutor prove to a jury all facts legally essential to
the punishment.” (Cleaned up.)).
We begin our inquiry with the intent-effects test,
and whether the General Assembly intended sex
offender registration to be punitive and whether sex
offender registration is so punitive in effect that it
cannot be viewed simply as regulatory or civil in
nature, despite the General Assembly’s intent. In
Young, 370 Md. at 712, 806 A.2d at 248, we stated “that
the plain language and overall design of ” the sex
offender registration statutes demonstrated that sex
offender registration “was not intended as punishment, but rather was intended as a regulatory requirement aimed at protection of the public.” At least as
originally enacted, the General Assembly did not intend “registration or notification as a device to punish
convicted sex offenders” or as a method “to stigmatize
or shame sex offenders.” Id. at 712, 806 A.2d at 248.
That the General Assembly may have intended a nonpunitive regulatory scheme is not dispositive; we must
determine whether the scheme is so punitive in effect
as to negate that intent. We determine that the
cumulative effects of the Maryland Sex Offender
Registration Act are increasingly punitive, i.e., that
placement on the Registry is progressively more
punitive, and that case law has begun to recognize as
much.
Application of the Mendoza-Martinez factors is
instructive. As to the first factor, whether sex offender
registration in Maryland involves an affirmative

52a
disability or restraint, we conclude that it does. Even
in Young, 370 Md. at 713, 806 A.2d at 249, we
recognized that sex offender registration imposes
affirmative disabilities on registrants, especially given
the community notification provisions, and that being
labeled as a sex offender can be highly stigmatizing
and lead to social ostracism. Moreover, from our
perspective, the in-person registration requirements
involve punitive restraints. For example, a Tier II sex
offender is required to register in person every six
months with local law enforcement and the digital
image for registration must also be updated every six
months. See CP § 11-707(a)(1)(i), (ii). Although inperson registration does not constitute a physical
restraint on a registrant, this requirement cannot be
said to be a minor one, given that it occurs every six
months, in the case of Tier I and Tier II sex offenders,
and every three months, in the case of Tier III sex
offenders and sexually violent predators. See CP § 11707(a)(1)(i), (a)(2)(i), (a)(3)(i).
A Tier II sex offender is required to register for
twenty-five years, a period of time that may long
exceed the term of imprisonment imposed. See CP
§ 11-707(a)(4)(ii). Indeed, the maximum penalty for a
violation of CR § 11-303(a) is ten years’ imprisonment,
a $5,000 fine, or both. See CR § 11-303(c)(1)(i). As part
of the registration statement, a registrant is tasked
with providing a plethora of personal information,
including the registrant’s complete name and every
address and place where the registrant resides or
habitually lives, the names and addresses of all of the

53a
registrant’s employers, a list of electronic mail addresses, computer log-in or screen names or identities,
instant-messaging identities, and electronic chat room
identities the registrant has used, the registrant’s
Social Security number, all identifying factors,
including a physical description, information for any
vehicle owned or regularly operated by the registrant
and the locations where the vehicles are kept, and the
registrant’s fingerprints and palm prints. See CP § 11706(a). In Young, 370 Md. at 713, 806 A.2d at 249, this
Court acknowledged that a registration statement
“may include documentation of highly personal, confidential, and ordinarily nonpublic information such as
treatment received for a mental abnormality or
personality disorder.” (Citation omitted). See also CP
§ 11-706(b). Knowingly failing to provide any of the
information required to be included in a registration
statement is, for a first offense, a misdemeanor punishable by up to three years’ imprisonment, a $5,000 fine,
or both, and, for a second or subsequent offense, a
felony punishable by up to five years’ imprisonment, a
$10,000 fine, or both. See CP § 11-721(a), (b).
Significantly, information about sex offender
registrants is publicly available and required to be
posted on the Internet. See CP § 11-717(a)(1), (b). The
Internet has increased dissemination of the personal
information of sex offenders, and anyone, at any time
and for any reason, can look up a current listing of a
registrant. Public availability and dissemination of sex
offender registration expose sex offenders to ostracism,
and may cause lost employment opportunities, housing

54a
discrimination, threats, and violence. In sum, we
conclude that this factor—whether sex offender
registration in Maryland involves an affirmative
disability or restraint—weighs heavily in favor of
registration having a punitive effect.6
As to the second factor, whether sex offender
registration has historically been regarded as punishment, although in Young, 370 Md. at 714, 806 A.2d at
250, we stated that “[s]ex offender registration traditionally ha[d] not been regarded as punishment[,]”
more recently, in Doe I, 430 Md. at 561, 564, 62 A.3d at
139, 140, a plurality of this Court observed that
requiring the petitioner to register had the same effect
on his life as placing him on probation, which is a form
of a criminal sanction, and that dissemination of the
petitioner’s information was tantamount to the
historical punishment of shaming. In Nick H., 224 Md.
App. at 694, 123 A.3d at 244, the Court of Special
Appeals concluded that publishing information about
former juvenile sex offenders on a public website
created an enduring stigma of their misconduct akin
to shaming. We agree with this reasoning and conclude
that registration has developed in the direction of
being punitive.

6

Similarly, in Sabisch, 466 Md. at 332-33, 220 A.3d at 275,
in evaluating eligibility to petition for habeas corpus relief, this
Court concluded that a person on probation with conditions that
significantly restrain the person’s lawful liberty is eligible to seek
habeas corpus relief. Hence, this Court recently recognized that
non-physical restraints can significantly impair liberty.

55a
As to whether sex offender registration depends
on a finding of scienter, unlike juvenile sex offender
registration, see Nick H., id. at 694-95, 123 A.3d at 24445, adult sex offender registration requirements “are
triggered when the offender is released into the
community” and “appl[y] to individuals convicted of
any of the enumerated offenses, without regard to the
offender’s state of mind[,]” Young, 370 Md. at 715, 806
A.2d at 250.
As to whether sex offender registration operates to
promote the traditional aims of punishment—retribution and deterrence—in Young, id. at 715, 806 A.2d at
250, we observed that, because the sex offender
registrations statutes were enacted to protect the
public, registration could not be characterized as
retribution. Nevertheless, we allowed that the statutes
possibly “promote[d] deterrence.” Id. at 715, 806 A.2d
at 250. Black’s Law Dictionary defines “deterrence” as
“[t]he act or process of discouraging certain behavior,
particularly by fear; esp[ecially], as a goal of criminal
law, the prevention of criminal behavior by fear of
punishment.” Deterrence, Black’s Law Dictionary (11th
ed. 2019). The possibility of sex offender registration
may very well have a deterrent effect on some
individuals who would otherwise engage in criminal
behavior but for the fear, or threat, of registration. And,
as the Court of Special Appeals recognized, the
“requirements of reporting, notification, and disclosure
to law enforcement serve a deterrent function by
continually reminding the registrant of the everpresent interest of law enforcement in the registrant’s

56a
behavior[,]” and “the public dissemination of offenders’
information is similar to shaming, and thus acts to
deter past offenders from re-offending, and may deter
future offenders who are aware of the public consequences of sexual offenses.” Nick H., 224 Md. App. at
695-96, 123 A.3d at 245 (cleaned up). We conclude that
this factor weighs in favor of registration being
punitive.
As to whether the behavior to which registration
applies is already a crime, registration “clearly applies
to past criminal conduct[.]” Young, 370 Md. at 714, 806
A.2d at 249. To be sure, “[t]he fact that the statute is
triggered by a criminal conviction does not undermine
the [General Assembly]’s intent to create a sex offender
registry to aid in the civil purpose of tracking the
location of known sex offenders.” Id. at 714, 806 A.2d
at 249. As such, this factor weighs equally in favor of
registration being punitive in nature and serving a
civil purpose.
As to whether registration lacks an alternative
purpose to which it rationally may be connected, it is
clear that the registration statutes have a purpose
other than punishment—to protect the public. In
Young, id. at 715, 806 A.2d at 250, we observed that the
registration statutes have “strong remedial aspects
and serve[ ] the important nonpunitive goal of alerting
law enforcement and the community to the presence of
sexual predators who may reoffend.” Finally, we
consider whether the sanction of registration is
excessive in relation to its remedial purpose. From our
perspective, given that the provisions of the sex

57a
offender registration statutes protect the public from
sex offenders and the registration requirements apply
only to those who qualify as sex offenders under the
statutes, see id. at 715, 806 A.2d at 250, it cannot be
said that the sanction of registration is excessive. On
balance, however, an examination of all of the factors
weighs in favor of determining that the cumulative
effect of the registration statutes is punitive in nature,
and, as such, sex offender registration may be considered akin to punishment. Because establishment of
the victim’s age as a minor would necessitate
placement on the Registry for a defendant convicted of
violating CR § 11-303(a), effectively subjecting the
defendant to additional punishment for the crime, it is
logical that determination of the victim’s age be
submitted to the trier of fact and proven beyond a
reasonable doubt.
In our view, whether placement on the Registry is
viewed as punitive, as we determine, or as regulatory,
a defendant should be entitled to process where a fact
necessary for placement on the Registry, e.g., the
victim’s age, is at issue. There is no statute, rule, or
case that allows a trial court to make a finding of fact
beyond a reasonable doubt (or by a lesser standard of
proof ) at sentencing after a jury trial (or a bench trial,
for that matter), or where the defendant has pled
guilty and agreed to a statement of facts. Absent an
amendment of CP § 11-701(p)(2) or another statute
enacted by the General Assembly, consistent with the
Supreme Court’s holding in Apprendi, to provide for
some other process, we conclude that, to require sex

58a
offender registration, the facts of the case adduced
during the adjudicatory phase of the criminal proceeding must establish the age of the victim beyond a
reasonable doubt.
To establish the victim’s age during the adjudicatory phase beyond a reasonable doubt in a case in
which a defendant pleads guilty, the State could
pursue an agreed statement of facts that establishes
the victim’s age. Stated otherwise, the defendant and
the State would enter into a plea agreement where the
statement of facts establishes the victim’s age. Under
Maryland Rule 4-243(c)(1), after a plea agreement is
presented to the trial court, the trial court “may then
accept or reject the plea and, if accepted, may approve
the agreement or defer decision as to its approval or
rejection until after such pre-sentence proceedings and
investigation as the [trial court] directs.” Aside from
accepting or rejecting the plea, the trial court is not
authorized to make additional findings of fact outside
of those in the plea agreement reached between the
defendant and the prosecutor, but may accept the facts
that are presented during the plea as the basis for
finding a defendant guilty beyond a reasonable doubt.
The premise of a typical guilty plea is that a defendant
agrees with the facts as presented by the State, not
that the trial court would make a finding that goes
against the defendant, unless there is an Alford plea
and the parties have agreed to such a plea.7 Under the
7

In Jackson v. State, 448 Md. 387, 391 n.3, 139 A.3d 976,
978 n.3 (2016), we explained that an Alford plea—derived from
North Carolina v. Alford, 400 U.S. 25 (1970)—is a plea

59a
process set forth above, where the defendant agrees to
plead guilty to violating what is now CR § 3-1102(a),
and the State wants to pursue sex offender registration, the State would include the victim’s age in the
statement of facts. If the defendant does not want to
acknowledge that the victim was a minor, then the
defendant would not agree with the statement of facts,
and, presumably, would not plead guilty.
In the event of a jury trial, where the State seeks
to have the defendant ordered to register as a Tier II
sex offender under CP § 11-701(p)(2) and the age of the
victim is not an element of the offense, determination
of the victim’s age beyond a reasonable doubt could be
achieved by a special verdict question submitted to the
jury.8 To be sure, a defendant may object to the use of a
special verdict question regarding the victim’s age as
prejudicial, especially where the defendant is charged
with other offenses that do not require proof of the
victim’s age, as some of the offenses referenced by CP
§ 11-701(p)(2) do not. In most jury trials, though,
in which the individual retains the right to appellate
review of evidence subject to a suppression motion but
avoids going through the time and expense of a full
trial. By pleading not guilty and agreeing to the proffer
of stipulated evidence or an agreed statement of facts,
an individual, like with a guilty plea, waives a jury trial
and the right to confront witnesses but retains
appellate review of the suppression decision.
(Cleaned up).
8
In State v. Adams, 406 Md. 240, 294, 958 A.2d 295, 328
(2008), this Court stated that special verdicts are appropriate in
criminal as well as civil cases, and that “[a] special verdict is a
proper method to create an unambiguous record for appeal.”

60a
witnesses and victims are generally asked to provide
their age when testifying, so a victim’s age is usually
not a secret. As such, as another option, where there is
genuinely no dispute about a victim’s age, a defendant
could agree or stipulate, outside of the presence of the
jury, to the age of the victim if the defendant believes
inclusion of a question on a verdict sheet would be
prejudicial.
Alternatively, in lieu of a special verdict question
or the defendant’s stipulation outside of the jury’s
presence, the question of the victim’s age could be
handled through sequential jury determinations,
whereby the jury would first determine whether the
defendant was guilty of a violation of CR § 11-303(a)
(now CR § 3-1102(a)), and, if so, next determine
whether the victim was a minor. This would eliminate
any claim of prejudice before the jury by the defendant.
In Galloway v. State, 371 Md. 379, 419, 809 A.2d 653,
677 (2002), in a concurring opinion, the Honorable
Alan M. Wilner observed that, with respect to a case in
which a defendant is charged with possession of a
firearm by a person previously convicted of a crime and
another offense not requiring proof that the person
was previously convicted of a crime, a trial court could
“take the intermediate step . . . of bifurcating the
[criminal in possession] charge—allowing the jury to
consider only the current substantive charges first,
and then, after it renders a verdict on those charges,
having that same jury hear the additional evidence
and then consider the [criminal in possession] charge.”
(Wilner, J., concurring) (citation omitted). In other

61a
words, the jury would make sequential determinations
of the charges.9
At bottom, we conclude that a fact necessary for
placement on the Registry, such as the victim’s age,
must be determined by the trier of fact beyond a
reasonable doubt, during the adjudicatory phase of the
criminal proceeding, prior to sentencing. In this case,
that did not occur. Instead, Rogers pled guilty to
violating CR § 11-303(a) and the victim’s age was not
established during the agreed statement of facts or at
any point during the guilty plea proceeding. Without
being authorized by statute, regulation, or case law,
through use of an unknown standard of proof, and after
the underlying criminal proceeding had concluded and
Rogers had served a sentence of imprisonment, the
Department determined that the victim was a minor
and ordered Rogers to register as a Tier II sex offender.
This action was taken without notice to Rogers or
permitting him to be heard in any respect. Placement
on the Registry is no less punitive or consequential for
those convicted under CR § 11-303(a) (now CR § 31102(a)), as opposed to those convicted under CR § 11303(b)(1) (now CR § 3-1102(b)(1)), and, absent
amendment of the statutes, one group of people should
not be subject to placement on the Registry through an
unidentified process and then required to challenge
that placement. The circuit court correctly granted
summary judgment in Rogers’s favor, and properly de9

At a bench trial, the trial court, of course, could be asked to
make the requisite finding during the adjudicatory phase beyond
a reasonable doubt.

62a
termined that Rogers was not required to register and
that his name was to be removed from the Registry. We
reverse the judgment of the Court of Special Appeals.
JUDGMENT OF THE COURT OF SPECIAL
APPEALS REVERSED. CASE REMANDED
TO THAT COURT WITH INSTRUCTION TO
AFFIRM THE JUDGMENT OF THE
CIRCUIT COURT FOR ANNE ARUNDEL
COUNTY. RESPONDENTS TO PAY COSTS
IN THIS COURT AND IN THE COURT OF
SPECIAL APPEALS.

63a
IN THE COURT OF APPEALS
OF MARYLAND
No. 32
September Term, 2019
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JIMMIE ROGERS
v.
STATE OF MARYLAND, ET AL.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Barbera, C.J.
McDonald
Watts
Hotten
Getty
Booth
Biran,
JJ.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Dissenting Opinion by Biran, J., which
Barbera, C.J., and Hotten, J., join.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Filed: March 31, 2020
Respectfully, I dissent.
In my view, the Majority misinterprets the
Maryland Sex Offender Registration Act (“MSORA”) to
preclude the Department of Public Safety and Correctional Services (the “Department”) from determining

64a
the existence of a fact that triggers sex offender
registration for Petitioner Jimmie Rogers, where that
fact was not necessary to a finding of guilt in Rogers’s
prior criminal case, and therefore was not proven or
admitted in that proceeding. I would hold that the
General Assembly impliedly delegated the power to
make such a determination to the Department, subject
to judicial review in an administrative mandamus
action or (as in this case) a declaratory judgment
action filed by a person who has been directed to
register as a sex offender.
Rogers did not preserve his constitutional arguments for appellate review, and therefore I would not
reach them. On the merits of those claims, I would hold
that the Department’s determination that Rogers’s
victim (M.H.) was a minor does not violate the
separation of powers mandated under Article VIII of
the Maryland Declaration of Rights. As to Rogers’s
Sixth Amendment argument, I would conclude that
Maryland’s sex offender registration regime is not
punitive, but rather achieves the remedial purpose for
which the General Assembly intended it: to protect the
public. Alternatively, even if sex offender registration
in Maryland is considered effectively to be punitive,
registration does not increase a person’s punishment
for a criminal offense beyond the otherwise applicable
statutory maximum for that offense, within the
meaning of Apprendi v. New Jersey, 530 U.S. 466
(2000). Thus, I would hold that the trier of fact in a
criminal case is not required to determine beyond a
reasonable doubt the existence of any fact that, while

65a
not an element of the offense, is a prerequisite to
registration under MSORA.
In concluding otherwise, the Majority creates a
new, unprecedented, and ill-advised procedure that
Maryland judges and juries must now try to carry out
in criminal cases, with the likely result that some
Maryland residents whose conduct warrants sex
offender registration will not be required to register,
and that others, who have previously registered as sex
offenders in Maryland without ever disputing their
status as such, will now file similar declaratory judgment actions seeking removal from Maryland’s Sex
Offender Registry. In addition, the Majority’s decision
is unique among the States, and may well encourage
some individuals who are currently registered as sex
offenders in other jurisdictions to move to Maryland in
the hope that they will be able to avoid registration
here. I do not believe the General Assembly intended
to make Maryland an outlier when it decided who
would qualify as Tier I, Tier II, and Tier III sex
offenders under Maryland law. Nor does the Sixth
Amendment require this unfortunate result.
Applying the substantial evidence test for review
of factual determinations by administrative agencies, I
would uphold the Department’s finding that M.H. was
a minor at the time Rogers committed his human
trafficking offense. Accordingly, I would remand this
case to the Circuit Court with instructions to enter
summary judgment for Respondents and to issue a
judgment declaring that Rogers is, and must continue
to register as, a Tier II sex offender.

66a
I
A Supervising Authority Under MSORA Has
the Authority to Determine a Circumstance
That Triggers Sex Offender Registration Where
That Circumstance Is Not an Element of a
Registrant’s Criminal Offense.
Because the age of the victim is not an element of
the human trafficking offense to which Rogers pled
guilty, it is not surprising that there was neither a
proffer by the State nor a finding by the Circuit Court
at Rogers’s plea hearing that M.H. was a minor at the
time of the offense. This left open a gap in the
determination whether Rogers would be required to
register as a Tier II sex offender. If Rogers’s victim was
a minor, he would be a Tier II sex offender and
therefore obligated to register. If his victim was not a
minor, Rogers would not be required to register at all.
The Department subsequently closed this gap
with its determination that Rogers’s victim was a
minor. The Majority holds that the Department lacked
the authority to do so, concluding that, in the absence
of an express delegation by the General Assembly of
the authority to determine the age of a victim in these
circumstances, it will not read MSORA, Md. Code Ann.,
Crim. Proc. (CP) § 11-701, et seq. (2001, 2008 Repl. Vol.,
2016 Supp.),1 impliedly to delegate such authority to
the Department. Maj. Slip Op. at 26. Contrary to the
Majority’s conclusion, I believe the General Assembly
1

Unless otherwise noted, I refer to this version of CP § 11701 throughout this opinion.

67a
intended the Supervising Authority (here, the
Department2) to determine the age of a victim for
purposes of sex offender registration, where that fact
is not an element of a potential registrant’s offense of
conviction.
Whether the General Assembly impliedly granted
the Supervising Authority this authority is a question
of law, and “turns on the General Assembly’s intent in
empowering the agency and the statutory scheme
under which the agency acts.” Thanner Enterprises,
LLC v. Baltimore Cty., 414 Md. 265, 279 (2010) (citing
Bd. of Liquor License Comm’rs for Baltimore City v.
Hollywood Prods., Inc., 344 Md. 2, 11 (1996) (cleaned
up)). When the General Assembly has bestowed upon
an agency a broad delegation of power, this Court
liberally construes the scope of that agency’s implied
powers. Id. In addition, “[a]dministrative agencies
possess an ‘expertise’ and, thus, have a greater ability
to evaluate and determine the matters and issues that
regularly arise, or can be expected to be presented, in
the field in which they operate or in connection with
the statute that they administer.” Adventist Health
Care Inc. v. Maryland Health Care Comm’n, 392 Md.
103, 119 (2006). “[C]onsiderable weight is due [to] the
2

A “Supervising Authority” under MSORA is “the agency or
person that is responsible for collecting the information for the
initial registration” of a particular sex offender. CP § 11-701(n).
For all individuals who are incarcerated in a correctional facility
operated by the Department, the Supervising Authority is the
Secretary of the Department. Id. § 11-701(n)(1). For ease of
reference, I will refer to the Department as Rogers’s Supervising
Authority.

68a
agency’s interpretation and application of the statute
it administers and to the agency’s interpretation of its
own regulations.” Id. at 121 (cleaned up).
I believe the Majority focuses too narrowly on CP
§ 11-701(p)(2), which governs whether a person
convicted of the criminal offense to which Rogers pled
guilty qualifies as a Tier II sex offender. To fully
understand the import of the Majority’s holding and
why I believe it is incorrect, it is useful to begin by
examining CP § 11-701 in greater detail, as well as
other pertinent statutory and regulatory provisions.
A. Statutory and Regulatory Framework
The General Assembly first enacted a sex offender
registration regime for Maryland in 1995. See 1995
Md. Laws, Chapter 142. It has amended the statute,
now commonly referred to as MSORA, several times in
the quarter century that has passed. The Department
is the agency charged with maintaining Maryland’s
Sex Offender Registry. The General Assembly has
provided that, “[w]ith advice from the Criminal Justice
Information Advisory Board . . . , the Secretary shall
adopt regulations to carry out [MSORA].” CP § 11-720.
The Department, in turn, has promulgated regulations
that are located in Title 12, Subtitle 6, Chapter 1, of
the Code of Maryland Regulations (COMAR). The
Department’s prefatory regulation states that “[t]he
purpose of this chapter is to establish the framework
for the sex offender registration process and to specify

69a
the duties and responsibilities of a registrant and
State and local agencies as established under Criminal
Procedure Article, §§ 11-701-11-721, Annotated Code
of Maryland.” COMAR 12.06.01.01 (2015).3
In many instances, a person is classified as a Tier
I, Tier II, or Tier III sex offender if the person is
convicted of a particular listed offense, without the
necessity of any additional circumstance being present. For example, if a person is convicted of a fourthdegree sex offense under Md. Code Ann., Crim. Law
(CR) § 3-308 (2002, 2012 Repl. Vol.),4 he or she is a Tier
I sex offender. CP § 11-701(o)(1). Another example is
someone who is convicted of first-degree rape under CR
§ 3-303; that person is defined as a Tier III sex offender.
CP § 11-701(q)(1)(ii). The fact of a conviction for such a
listed offense automatically triggers the requirement
to register as a sex offender at one of the specified tiers,
and there is no need in such an instance for anyone to
make a finding about anything that was not necessarily proven at a trial or admitted by the defendant
as part of a guilty plea to that offense.
In many other instances, however, to be classified
as a Tier I, Tier II, or Tier III sex offender, a defendant
must be convicted of a particular listed offense and a
particular additional circumstance must be present.
Several of these instances arise where the victim of the
3

I refer to this version of COMAR throughout this opinion.
Unless otherwise noted, all citations to sections of the
Criminal Law Article are to those as set forth in the 2012
Replacement Volume.
4

70a
offense for which the defendant was convicted is in a
certain age range, but the age of the victim is not an
element of the crime:

5

•

CP § 11-701(o)(2) (Tier I sex offender status for a person who has been convicted
under CR § 3-902 (visual surveillance
with prurient intent), “if the victim is a
minor”5).

•

CP § 11-701(p)(2) (2001, 2018 Repl. Vol.,
2019) (Tier II sex offender status for a
person who has been convicted under CR
§ 3-1102 (2002, 2012 Repl. Vol., 2019
Supp.) (sex trafficking),6 CR § 3-1103
(2002, 2012 Repl. Vol., 2019 Supp.)
(marriage trafficking), CR § 11-303 (2002,

A “minor” is an “individual under the age of 18 years.” CR
§ 1-101(g).
6
CR § 3-1102 was previously codified as CR § 11-303. Rogers
was convicted of human trafficking under former CR § 11-303(a),
a misdemeanor, which does not include the age of the victim as
an element of the offense. As the Majority explains, subsection
(b)(1) of former CR § 11-303 requires proof that the victim was a
minor, is a felony offense, and contains greater maximum
penalties than subsection (a) of former CR § 11-303. In 2019, the
General Assembly renumbered the human trafficking statute as
CR § 3-1102 and changed some references in the statute from
“human trafficking” to “sex trafficking.” At the same time, the
General Assembly somewhat confusingly renumbered a prostitution/
assignation statute which had been CR § 11-306 as new CR § 11303. In keeping with the Majority’s approach, I will refer to the
statute under which Rogers was prosecuted as CR § 11-303,
notwithstanding that a different offense is now set forth at § 11303 of the Criminal Law Article and also is a predicate offense for
Tier II sex offender registration “if the intended prostitute or
victim is a minor.”

71a
2012 Repl. Vol., 2019 Supp.) (engaging in
“assignation,” or occupying a building,
structure, or conveyance for prostitution
or assignation),7 CR § 11-306 (2002, 2012
Repl. Vol., 2019 Supp.) (soliciting, or
offering to procure or solicit, prostitution
or assignation), or CR § 11-307 (2002,
2012 Repl. Vol., 2019 Supp.) (additional
offenses involving the use of a building,
structure, or conveyance for prostitution
or assignation), “if the intended prostitute or victim is a minor”).

7

•

CP 11-701(p)(3) (Tier II sex offender status for a person who has been convicted
under CR § 3-314 (sexual conduct
between correctional or juvenile justice
employee and inmate or confined child) or
CR § 3-603 (sale of a minor) “if the victim
is a minor who is at least 14 years old”).

•

CP § 11-701(q)(1)(iii) (Tier III sex offender status for a person who has been
convicted under CR § 3-502 (kidnapping)
“if the victim is a minor”).

•

CP § 11-701(q)(2) (Tier III sex offender
status for a person who has been convicted under CR § 3-314 (sexual conduct
between correctional or juvenile justice
employee and inmate or confined child),
CR § 3-503 (child kidnapping), or CR 3603 (sale of a minor) “if the victim is
under the age of 14 years”).

See note 6 above.

72a
•

CP § 11-701(q)(3) (Tier III sex offender
status for a person who is convicted of
conspiring to commit, attempting to commit, or committing the common law
offense of false imprisonment, “if the
victim is a minor”).8

Although the age of a victim involved in an offense
is the most common additional circumstance that,
along with a conviction for an offense, triggers sex
offender registration, age is not the only such circumstance that MSORA refers to in defining a Tier I, Tier
II, or Tier III sex offender. Other additional circumstances include:

8

•

CP §§ 11-701(o)(3), 11-701(p)(5) & 11701(q)(5) (Tier I, Tier II, or Tier III sex
offender status, respectively, for conviction of a crime committed in a federal,
military, tribal, or other jurisdiction that,
“if committed in this State, would
constitute” one of the Maryland offenses
that triggers sex offender registration).

•

CP § 11-701(o)(5) (Tier I sex offender
status for conviction of certain military

A few of the underlying criminal statutes listed in CP §§ 11701(o), (p), and (q) as qualifying for Tier I, Tier II, or Tier III sex
offender status if the victim or other specified person is within a
certain age range, can only be violated if the victim or other
person is within that age range. See, e.g., CP § 11-701(o)(2) (Tier
I sex offender status for person who violates CR § 11-208 “if the
victim is a minor”; CR § 11-208 prohibits possession of a visual
representation of a child under 16 engaged in certain sexual acts).
The redundancy in a few of the subsections of §§ 11-701(o), (p),
and (q) has no bearing on the issues in this case.

73a
offenses that are “similar to” various
listed federal offenses).
•

CP §§ 11-701(o)(6), 11-701(p)(6) & 11701(q)(6) (Tier I, Tier II, or Tier III sex
offender status, respectively, for conviction of a crime in a court of certain foreign
countries that, “if committed in this
State, would constitute” one of the crimes
listed in CP §§ 11-701(o)(1) through
(o)(5), 11-701(p)(1) through (p)(3), or 11701(q)(1) through (q)(3)).

•

CP § 11-701(p)(4) (Tier II sex offender
status for conviction of an offense that
would require the person to register as a
tier I sex offender “after the person was
already registered as a tier I sex
offender”).

•

CP § 11-701(q)(1)(v) (Tier III sex offender
status for person who has been convicted
of the common law offense of sodomy, or
of the commission of an unnatural or
perverted sexual practice under CR § 3322, “if the offense was committed with
force or threat of force”).

•

CP § 11-701(q)(4) (Tier III sex offender
status for conviction of an offense that
would require the person to register as a
Tier I or Tier II sex offender “after the
person was already registered as a [T]ier
II sex offender”).

Other statutory and regulatory provisions also
provide useful context. Under CP § 11-704(a), a person

74a
who is a Tier I, Tier II, or Tier III sex offender “shall
register with the person’s supervising authority.” The
Department has promulgated a regulation providing
that “a registrant shall complete, sign, and date a registration statement form with a supervising authority.”
COMAR 12.06.01.05(A). If the person required to
register was sentenced to a term of imprisonment, the
person must register with his or her supervising
authority “before the date that the registrant is
released.” CP § 11-705(b)(1).
For all sex offenders in the State, a registration
statement must include, among other things, “a description of the crime for which the registrant was
convicted.” CP § 11-706(a)(4). The Department has
issued regulations that detail the information in the
registration statement that must be supplied by the
registrant and the Supervising Authority, respectively.
COMAR 12.06.01.05(B) & (C). The Department has
provided that, “[f ]or each crime for which the registrant is required to register,” the Supervising
Authority must supply certain information:
(a) Name of the crime, including statutory
citation if applicable and available;
(b) Date of conviction;
(c) Name of Maryland court and county, or
other court and location, where the
registrant was convicted;
(d) Date the crime was committed; and

75a
(e) Victim’s age at the time the crime was
committed.
Id. at 12.06.01.05(C)(4) (emphasis added).
Under COMAR 12.06.01.06, a Supervising Authority “shall establish procedures for . . . [o]btaining
information required for the registration statement
before to [sic] its submission to the Sex Offender
Registry Unit and to other agencies as required.” In
addition, “before releasing a registrant, a representative of the Supervising Authority shall complete
the registration statement, including the information
required under Regulation .05 of this chapter.” Id. at
12.06.01.06(C)(1)(a) (cleaned up).
B. Discussion
Against this backdrop, I turn to the Majority’s
interpretation of MSORA as requiring “the trier of
fact – not the Department – [to] determine the facts
necessary for placement on the Registry.” Maj. Slip Op.
at 29.9 I disagree with the Majority’s analysis for
9

In Part II of its Discussion, the Majority holds that, as a
matter of constitutional law, the trier of fact must decide beyond
a reasonable doubt during the adjudicatory phase of a criminal
case whether the victim of a human trafficking charge brought
under CR § 11-303(a) was a minor in order for a person convicted
under § 11-303(a) to be required to register as a sex offender.
Given that holding, Part I of the Majority’s analysis seems not to
be essential. In other words, on the Majority’s view, even if the
General Assembly intended to leave such a determination to the
Department or other Supervising Authority, the Sixth Amendment prohibits the General Assembly from doing so. Because I
disagree with the Majority’s Sixth Amendment analysis, I must

76a
several reasons. First, the General Assembly must be
presumed to understand that, in the normal course, a
jury in a criminal case is not asked to decide whether
a victim of an offense is a minor (or any other fact)
unless such a determination is necessary for a finding
of guilt on a charged offense. Yet, as the above
discussion makes clear, the General Assembly has
created many circumstances that trigger sex offender
registration in Maryland that are not elements of a
criminal offense. It seems very unlikely that the General Assembly intended to make so many non-elementbased determinations an additional responsibility of
the criminal trier of fact without expressly saying so,
especially given that there is no precedent under
Maryland law that I am aware of for the trier of fact in
the guilt phase10 of a criminal case to make a finding
that does not bear on an element of a charged offense.
Put another way, I do not believe the General Assembly
would have assumed when drafting MSORA that a
reach the question of statutory interpretation that the Majority
considers in Part I of its Opinion.
10
When Maryland maintained the death penalty as a
possible punishment for first-degree murder, a jury often would
decide beyond a reasonable doubt in the penalty phase of a capital
murder case whether a particular aggravating factor alleged by
the State was present. See generally Borchardt v. State, 367 Md.
91 (2002). That process was explicitly governed by statute, see id.
at 101-02, and involved the ultimate punishment. The Majority
does not assert that the capital murder penalty phase that
previously existed under Maryland law is relevant to the
consideration of whether the General Assembly intended the
criminal trier of fact to determine non-element facts necessary for
placement on the Sex Offender Registry. Nor could such a link
plausibly be inferred.

77a
criminal jury (or judge in a nonjury trial) would ever
be called upon to determine the age of a victim, where
the offense does not require the State to prove the age
of the victim in order to obtain a conviction. Given that
such a role for a jury would be a very significant
departure from the traditional role of Maryland
criminal juries, I believe that, if the General Assembly
had wanted to make such determinations the province
of the jury, it expressly would have said so.
Second, my interpretation of MSORA is buttressed by the reality that many of the circumstances
that are not elements of a criminal offense, but which
the General Assembly has made prerequisites to sex
offender status, are not circumstances that a Maryland
jury (or even a Maryland sentencing court) would ever
be in a position to decide. For example, a Maryland
resident who is convicted in another jurisdiction of an
offense that, if committed in Maryland “would constitute” one of the Maryland offenses that triggers
registration, or is convicted in a military court of an
offense that is “similar to” various listed federal
offenses that trigger registration, is defined as a sex
offender under MSORA and must register at the
specified tier. See CP §§ 11-701(o)(3), 11-701(p)(5) &
11-701(q)(5); CP § 11-701(o)(5); CP §§ 11-701(o)(6), 11701(p)(6) & 11-701(q)(6). Practically speaking, only a
registrant’s Supervising Authority would be in a
position to determine whether a Maryland resident
convicted in another jurisdiction must register as a sex
offender in Maryland on the basis that his or her
offense of conviction “would constitute” or is “similar

78a
to” an offense specified in CP § 11-701(o), (p), or (q).
Given that the General Assembly indisputably intended that the Supervising Authority, not the
criminal trier of fact, decide some of the non-element
circumstances that are prerequisites to sex offender
registration, I believe the General Assembly intended
the Department also to have authority to find whether
the other non-element circumstances referenced in the
same subsections of § 11-701 are present in a particular case. See Whiting-Turner Contracting Co. v.
Fitzpatrick, 366 Md. 295, 302-03 (2001) (“[W]hen
interpreting any statute, the statute as a whole must
be construed, interpreting each provision of the statute
in the context of the entire statutory scheme”).
Third, the Department or other Supervising
Authority is well positioned to determine the age of a
victim and the other non-element circumstances that
trigger registration. The age of a victim usually will be
determinable by the Supervising Authority with minimal effort, through the review of undisputed evidence,
and will not likely require a credibility determination.
See Hutton v. State, 339 Md. 480, 500-01 (1995)
(discussing the “province of the jury” to “judge the
credibility of the witnesses and weigh their testimony
and . . . to resolve contested facts”).
Another example of a non-element factual determination that is obviously within the competency of a
Supervising Authority to determine is the circumstance of prior registration being in effect when a
person commits a new offense that qualifies for
registration. Consider a person who is charged with

79a
committing a fourth-degree sex offense under CR § 3308 at a time when he already was registered as a Tier
II sex offender. Under CP § 11-701(q)(4), if that person
is convicted of the new fourth-degree sex offense, he
will be a Tier III sex offender because he was
registered as a Tier II sex offender when he committed
the new offense.11 Under the Majority’s interpretation
of MSORA, carried to its logical conclusion, a Supervising Authority would not be authorized to determine
that the person was registered as a Tier II sex offender
at the time he committed the fourth-degree sex offense
because the General Assembly has not expressly
authorized the Supervising Authority to do so. Rather,
under the Majority’s reasoning, the fact of the person’s
prior registration as a Tier II sex offender would be
alleged in the indictment and introduced at the trial
for fourth-degree sex offense, and the jury would be
asked to determine whether the defendant was a Tier
II sex offender at the time he committed the alleged
fourth-degree sex offense. It is difficult to conceive that
the General Assembly would have created such a
scenario sub silentio, which would not only inject
additional time and complexity into a criminal trial
being conducted in a presumably busy Circuit Court,
but would also allow the jury to learn very prejudicial
information about a defendant, where it is completely
irrelevant to a finding of guilt. It is much more likely
that the General Assembly intended that, if my hypo11

See also CP § 11-701(p)(4) (similar provision that defines a
person as a Tier II sex offender if the person is convicted of an
offense that would require registration as a Tier I offender after
the person was already registered as a Tier I offender).

80a
thetical defendant were convicted of fourth-degree
sex offense, the Department (or other Supervising
Authority) would simply check the Sex Offender
Registry and determine that he was registered as a
Tier II offender at the time he committed the fourthdegree sex offense, and would notify him that, upon
release from custody, henceforth he would be required
to register as a Tier III sex offender. Again, if one
accepts that the General Assembly intended a
Supervising Authority to determine this non-element
fact, that conclusion provides support for the view that
the General Assembly intended a Supervising Authority
likewise to determine the other non-element circumstances (including the age of the victim) set forth in the
other subsections of § 11-701(o), (p), and (q).
Fourth, the General Assembly amended MSORA
in 2010, several years after this Court’s landmark
decision in Young v. State, 370 Md. 686 (2002). As
discussed in more detail below, in Young this Court
rejected a constitutional challenge to the non-jury
finding of the age of a victim that resulted in Young
being an “offender” under the pre-2010 version of
MSORA. It appears it was the sentencing court that
determined Young’s victim was a minor and then
ordered Young to register as an “offender,” consistent
with MSORA’s requirement at the time that a court
exercise its discretion to order a person to register
before the person would be considered an “offender”
and therefore required to register. See CP § 11-701(h)
(2001, 2008 Repl. Vol., 2009 Supp.); Young, 370 Md. at
692-93 & n.4. Had the General Assembly intended the

81a
trier of fact to decide the age of the victim for purposes
of sex offender registration when it is not an element
of a criminal offense, notwithstanding this Court’s
determination in Young that the Sixth Amendment
does not require the jury to make such a finding,
presumably the General Assembly would have
expressly said so on one of the several occasions when
it amended MSORA after Young. Not only has the
General Assembly never said that such a finding is a
job for the criminal trier of fact; it also substantially
decreased the role of sentencing courts in the registration process as part of the 2010 amendments to
MSORA when it eliminated the provision in CP § 11701(h) under which the trial court in Young apparently
had determined that Young’s victim was a minor and
then exercised discretion to order Young to register as
an “offender.” Given that: (1) making findings that are
not essential to determine the elements of a criminal
offense is not traditionally the function of a criminal
trier of fact; (2) the General Assembly has never shown
any sign that a criminal trier of fact should take on
such a role; and (3) post-Young, the General Assembly
has largely taken sentencing courts out of the business
of ordering registration, I believe that the General
Assembly necessarily has left it to a Supervising
Authority to determine all such non-element facts.
Fifth, I find it significant that the Department has
promulgated regulations that make it the responsibility of the Supervising Authority to supply and
publish all the information about the registrant’s
crime for the registration statement, including the

82a
“[v]ictim’s age at the time the crime is committed.”
COMAR 12.01.06.05(C)(4). These regulations necessarily contemplate that the Supervising Authority will
conduct a review of court records and other potentially
relevant materials and thereby determine the specific
age of the victim at the time of the registrant’s prior
criminal offense, regardless of whether the age of the
victim is an element of the offense. For example, if a
person is convicted of first-degree rape, which automatically triggers Tier III registration, the Supervising Authority must supply the age of the victim for
inclusion on the registration statement, even though
the victim’s age is not an element of the offense. Before
supplying and publishing the age of the victim, the
Supervising Authority necessarily must first determine it.
Even in cases where, in order to sustain a
conviction, the State must prove that a victim is a
minor or is in another particular age range, under
COMAR 12.01.06.05(C)(4), the Supervising Authority
does not merely include in a registration statement
that the victim was in the age range set forth in the
pertinent criminal statute, but rather is required to
supply the specific age of the victim within that range.
This regulation supports the Department’s position in
this case that a Supervising Authority is authorized to
determine whether the victim was a minor (or in
another age range), where that fact is not an element
of a potential registrant’s criminal offense, but is a
prerequisite to a person being required to register as a

83a
sex offender. This Court owes deference to the Department’s interpretation of a Supervising Authority’s
authority under MSORA and under the Department’s
own regulations. Adventist Health Care, 392 Md. at
119; see also Board of Physician Quality Assurance v.
Banks, 354 Md. 59, 69 (1999) (“[A]n administrative
agency’s interpretation and application of the statute
which the agency administers should ordinarily be
given considerable weight by reviewing courts,” and
“the expertise of the agency in its own field should be
respected.”).
The Majority’s arguments in support of its interpretation of MSORA are unconvincing. The Majority
primarily relies on the absence of an express delegation of authority to determine whether a victim was a
minor, where that fact is not an element of the offense.
However, the Majority’s insistence on an express
delegation of authority in this context runs contrary to
this Court’s recognition for many decades “that the
tasks of making factual determinations and resolving
disputes are not reserved exclusively to the judicial
branch of government.” Maryland Aggregates Ass’n v.
State, 337 Md. 658, 676 (1995). To the contrary, it is
well settled that “administrative bodies may exercise
quasi-judicial authority, which essentially consists of
deciding questions of fact and law subject to judicial
review.” Reliable Contracting Co., Inc. v. Maryland
Underground Facilities Damage Prevention Auth., 446
Md. 707, 717 (2016) (citing Heaps v. Cobb, 185 Md. 372,
378-79 (1945)).

84a
This Court has previously found implied delegation of quasi-judicial duties to an agency within the
executive branch, where such delegation is consistent
with the purposes of the legislation in question. See id.
In my view, the General Assembly has done the same
in MSORA. This is even more apparent when one
considers the broad grant of regulatory authority that
the General Assembly provided in the statute. See CP
§ 11-720 (empowering the Secretary of the Department to adopt regulations to carry out MSORA); see
also Christ by Christ v. Maryland Dep’t of Nat. Res.,
335 Md. 427, 437-39 (1994) (discussing “numerous
situations” where the General Assembly has delegated
“broad power to an administrative agency to adopt
legislative rules or regulations in a particular area,”
and stating that “this Court has upheld the agency’s
rules or regulations as long as they did not contradict
the language or purpose of the statute”).
The Majority invokes “principles of fairness” to
justify its conclusion that the General Assembly did
not intend the Department to fill the adjudicatory gap
left in Rogers’s case. Maj. Slip Op. at 29. The Majority’s
point here is that a person who is convicted under CR
§ 11-303(b)(1) necessarily has all facts that trigger sex
offender registration (including that the victim was a
minor) found by the criminal trier of fact, whereas,
under the Department’s interpretation of MSORA, a
person who is convicted under CR § 11-303(a) can end
up on the Sex Offender Registry without the trier of
fact finding beyond a reasonable doubt that the victim
of the offense was a minor. The Majority reasons that

85a
the General Assembly would not have intended such
an “incongruous” and “illogical” result. Maj. Slip Op. at
27, 28.
In my view, by considering the interplay of CP
§ 11-701(p)(2) and CR § 11-303 in a vacuum, the
majority misinterprets the General Assembly’s intent.
As discussed above, the General Assembly has
provided for many instances in which a person will be
convicted of a potentially qualifying crime that does
not include the age of the victim as an element of the
offense. In addition, the General Assembly has provided for many other instances in which the circumstance that triggers registration is not a matter that
could even theoretically be decided by a Maryland trier
of fact. All those other instances should be considered
in this Court’s examination of legislative intent. When
they are considered, the General Assembly’s decision
to allow a Supervising Authority to determine the
existence of the age of a minor in a case prosecuted
under CR § 11-303(a) does not seem anomalous, but
rather is consistent with the overall statutory scheme.
The age of the victim of a person convicted under CR
§ 11-303(a) is just one of many such instances. The
General Assembly has shown that it attempts to
narrowly tailor registration to its remedial purpose by
requiring an additional circumstance to be present
with respect to the commission of certain offenses
before the perpetrators of those offenses will be
required to register. In no way does it follow, however,
that the General Assembly intends to require a jury

86a
determination beyond a reasonable doubt that the
additional circumstance is present.
In other words, as applied to this case, it does not
follow from the General Assembly’s creation of a felony
violation of CR § 11-303 where the victim is a minor
that the General Assembly intended sex offender registration for someone who is convicted of a misdemeanor
violation of CR § 11-303, and whose victim is a minor,
effectively to be decided by a jury. Given that neither
Rogers nor the Majority cites any statute anywhere in
the United States that expressly requires (or has been
interpreted to require) a criminal trier of fact to
determine a non-element circumstance that triggers
sex offender registration, and also does not cite any
case in which an Apprendi challenge has resulted in a
court deciding that a trier of fact must make such
determinations under a reasonable doubt standard as
a matter of constitutional law, I believe the General
Assembly most certainly assumed and intended that
the trier of fact would not make such determinations
under MSORA, thereby leaving them to a Supervising
Authority to make, subject to judicial review.12

12

As discussed in Part II.C. below, the Majority agrees that
the General Assembly’s intent in enacting MSORA was remedial,
not punitive. See Maj. Slip Op. at 39. Had the General Assembly
intended sex offender registration to effect additional punishment
on those convicted of human trafficking and the other crimes
referenced in CP § 11-701(o), (p), and (q), perhaps the General
Assembly post-Apprendi would have limited the application of
MSORA only to instances in which a registrant was convicted of
a specified crime and would not have provided for some instances
in which additional non-element circumstances trigger

87a
The Majority also believes that the General
Assembly would not intend the Department to make
non-element determinations that result in sex offender
registration because it would then be “incumbent on
the defendant to seek relief from the Department’s
finding, after the criminal proceeding has concluded,
without knowing how the Department reached its
conclusion,” and the defendant “would bear the burden
of establishing that placement on the Registry was
erroneous.” Maj. Slip Op. at 28. But it is commonplace
that those who are aggrieved by agency action must
challenge it as arbitrary and capricious and/or not
supported by substantial evidence. Thus, it would not
be a novel proposition to the General Assembly – or
“turn reasonableness on its head,” Maj. Slip Op. at 29
– that an administrative determination that a victim
was a minor for purposes of sex offender registration
would be reviewed under the substantial evidence
standard, and that the burden of persuasion would lie
with the registrant. See, e.g., Maryland Aviation
Admin. v. Noland, 386 Md. 556, 581 (2005) (given the
presumption of validity of an agency decision, the
burden in a judicial review action is upon the party
challenging the agency action). As discussed above, the
registration. Under Apprendi and Young, the General Assembly
would not have been required to so limit MSORA. See Part II.C.3
below. Nevertheless, the fact that the General Assembly has not
removed the non-element circumstances that trigger sex offender
registration from CP §§ 11-701(o), (p), and (q), is further evidence
that the General Assembly does not intend MSORA, as amended,
to be punitive and therefore does not intend that such
circumstances be determined by the criminal trier of fact beyond
a reasonable doubt.

88a
age of a victim typically will be easily determinable
through review of the record of the criminal trial or
other records that a Supervising Authority might
obtain. The registrant presumably will have obtained
the State’s evidence regarding the age of the victim in
discovery in the criminal case, and therefore will be
well positioned to know if the Supervising Authority
has arrived at an incorrect determination that should
be challenged.
Moreover, if a person ordered to register brings an
administrative mandamus action against the Department or other Supervising Authority, the defendant
agency will be required to disclose either the record
underlying the decision or, if no record exists, “the
agency shall provide (1) a verified response that fully
sets forth the grounds for its decision and (2) any
written materials supporting the decision.” Md. Rule 7402(d). The court may also remand the matter to the
agency for further supplementation of materials
supporting its decision. Id. If a registrant instead
elects to challenge the factual determination of the
Supervising Authority through a declaratory judgment
action, the registrant can obtain discovery from the
defendant agency in the normal course of litigation.
Finally, the Majority’s reliance on State v. Duran,
407 Md. 532, 534 (2009), Cain v. State, 386 Md. 320,
326 (2005), and In re Nick H., 224 Md. App. 668, 673
(2015), is misplaced. The Majority notes that, in those
cases, the trial judges ordered the defendants to
register. Maj. Slip Op. at 30. It appears the Majority
believes those cases stand for the proposition that,

89a
because the trial courts ordered registration for those
persons, the General Assembly did not leave any
circumstances to the Supervising Authority to determine. However, the majority overlooks that, in Duran
and Cain, the defendants registered because they were
“offenders” under the then-current version of MSORA.
As discussed above, prior to 2010, an “offender” was
defined as “a person who is ordered by a court to register under this subtitle” and who had been convicted
of violating any of a number of criminal statutes. CP
§ 11-701(h) (2001, 2008 Repl. Vol., 2009 Supp.) (emphasis added). Thus, prior to 2010, registration was not
required for individuals in Cain’s and Duran’s circumstances unless a court ordered them to register. It does
not follow that, after the General Assembly eliminated
virtually all sentencing courts’ discretionary determinations regarding registration as part of the 2010
amendments to MSORA,13 the General Assembly
intended all factual determinations necessary to
registration to be made by the criminal trier of fact
beyond a reasonable doubt.14
13

The one holdover provision from the era when sentencing
courts exercised discretion with respect to whether an “offender”
would be required to register can be found in CP § 11-701(q)(1)(iv)
(2001, 2018 Repl. Vol, 2019 Supp.), which provides that a person
who is convicted of kidnapping under CR § 3-502 is a Tier III sex
offender “if the victim is an adult, and the person has been
ordered by the court to register under this subtitle.”
14
In Nick H., the juvenile court applied a specific court
procedure that is required under CP § 11-704(c) before a person
who committed an offense as a juvenile may be required to
register. 224 Md. App. at 674-79. Thus, Nick H. also does not
support the majority’s interpretation of MSORA.

90a
In sum, I am not persuaded that the General
Assembly, without any express indication whatsoever,
has established a process—apparently never recognized anywhere in the United States until today—
under which a criminal trier of fact determines facts
that are unnecessary for a finding of guilt but are
necessary for a person to be required to register as a
sex offender. To the contrary, the General Assembly has
left it to the Supervising Authority to make the
necessary determinations of all non-element circumstances that trigger registration.
II
The Majority Errs in Holding That, as a Matter
of Constitutional Law, the Criminal Trier of
Fact Must Determine Beyond a Reasonable
Doubt the Existence of Non-Element Facts That
Trigger Registration Under MSORA.
A. Rogers’s Constitutional Arguments Are Not
Preserved for Appellate Review and the
Court Should Not Reach Them.
In their principal brief, Respondents argue that
Rogers failed to preserve his constitutional arguments
for appellate review. Therefore, Respondents contend,
we should not consider these arguments, in keeping
with Md. Rule 8-131(a). In his Reply Brief, Rogers
does not dispute Respondents’ assertion that his
constitutional arguments are unpreserved. In my view,

91a
the Court should not consider these arguments in
deciding this case.15
Rule 8-131(a) provides: “Ordinarily, the appellate
court will not decide any other issue [besides subject
matter and personal jurisdiction] unless it plainly
appears by the record to have been raised in or decided
by the trial court, but the Court may decide such an
issue if necessary or desirable to guide the trial court
or to avoid the expense and delay of another appeal.”
This Court has often cautioned that its “prerogative to
review an unpreserved claim of error is to be rarely
exercised and only when doing so furthers, rather than
undermines, the purposes of the rule.” Ray v. State, 435
Md. 1, 22 (2013) (cleaned up); see also In re Kaleb K.,
390 Md. 502, 513 (2006) (describing adherence to Rule
8-131(a) as promoting “basic fairness to the trial court
and to opposing counsel, as well as being fundamental
to the proper administration of justice”) (internal
quotation marks and citation omitted).
In the trial court, Rogers never raised the
constitutional arguments that he advances in this
Court. Rather, Rogers based his claim to a declaration
removing him from the Sex Offender Registry solely on
his contention that this case is controlled by Cain:

15

The Majority states that Rogers’s separation of powers
argument is not a basis for its holding in this case. Thus, the
Majority does not address whether this issue is preserved for
appellate review. Maj. Slip Op. at 12 n.3. The Majority does not
opine whether Rogers’s Apprendi argument is preserved, and if it
is not, whether the Court should exercise discretion to reach it.

92a
[W]hen we’re trying to decide whether or not
a minor is involved, what we should look at, is
exactly what he pled guilty to, the statement
of facts put on the record by the State, by the
prosecutor, where [the age of the victim is not]
mentioned. . . . [T]his is very much like Cain
v. State, . . . [where] the Court said, after
reviewing the statutes, we conclude that
whether the elements of a crime are sexual in
nature is dispositive of whether the person is
an offender requiring registration. So, we look
to the elements of the crime for which one
stands convicted, to determine whether
registration is appropriate or not. So if you
look at the actual elements of 11-303[a],
nothing in there requires a showing that the
person is, in fact, a minor.
On appeal, neither side raised a constitutional
issue in its framing of the questions presented for the
Court of Special Appeals to decide. In defending the
Circuit Court’s grant of summary judgment, Rogers
continued to base his argument on Cain and the lack
of an age element in his offense of conviction. He again
made no separation of powers argument, nor did he
provide any analysis of the intents-effects test as it
applies to MSORA’s registration requirements, or cite
Young, Doe v. Dep’t of Pub. Safety and Corr. Services,
430 Md. 535 (2013), or Apprendi.16
16

In one sentence of his Court of Special Appeals brief,
Rogers cited Nick H., 224 Md. App. at 701, for the alleged
proposition that, because a conviction under CR § 11-303 does not
automatically lead to Tier II sex offender status, CP § 11701(p)(2) “mandates a court finding . . . adduced at a hearing”

93a
The Majority correctly concludes that a conviction
under CR § 11-303(a) does not rule out the possibility
of Tier II sex offender registration, despite the fact that
the age of the victim is not an element of the offense.
Maj. Slip Op. at 25. This is a rejection of the only
argument Rogers made in the trial court or in the
Court of Special Appeals.17
In these circumstances, I would not reach Rogers’s
constitutional arguments, which he makes for the first
time before this Court. Rogers is asking this Court to
(internal quotation marks omitted, alteration by Rogers). The
pertinent provision of MSORA in Nick H., CP § 11-704(c), requires
a post-adjudication hearing at which the court determines
whether, under a “clear and convincing evidence standard . . . [a
person who committed an offense as a juvenile] is at significant
risk of committing a sexually violent offense or an offense for
which registration as a tier II sex offender or tier III sex offender
is required.” CP § 11-704(c)(1)(iii) (emphasis added). Rogers’s
citation of Nick H. in his Court of Special Appeals brief neither
raised an argument concerning the delegation of factfinding to the
Department, nor raised an argument that sex offender registration increases Rogers’s punishment and therefore, under the
Sixth Amendment, required the trier of fact in his criminal case
to find beyond a reasonable doubt that his victim was a minor.
17
In their Reply Brief in the Court of Special Appeals,
Respondents cited Young for the proposition that this Court had
rejected an argument that was “similar” to the argument Rogers
was making, and explained that, in Young, this Court rejected an
Apprendi challenge to MSORA. In its opinion reversing the
Circuit Court’s grant of summary judgment for Rogers, the Court
of Special Appeals also cited Young. However, the intermediate
appellate court did not conduct an intents-effects analysis, as it
certainly would have, had the Court believed that Rogers was
arguing that MSORA is now sufficiently punitive to require the
criminal trier of fact to find beyond a reasonable doubt all nonelement facts that trigger registration.

94a
expand the role of the criminal trier of fact in a way
that appears to be unprecedented in the United States.
He cites no legislatively or judicially created procedure
anywhere in the United States, nor has my research
disclosed such a procedure, in which the trier of fact
decides beyond a reasonable doubt whether a nonelement circumstance exists that would trigger sex
offender registration. Because Rogers did not make his
constitutional arguments below, this Court does not
have the benefit of separation-of-powers or intentseffects analyses by the lower courts to help inform our
decision making on these issues. Nor is the briefing on
these issues in this Court from either side as robust as
it should be, given the stakes involved. For these
reasons, I do not believe that we should excuse Rogers’s
failure to preserve his constitutional arguments,
including the Apprendi argument upon which the
Majority’s opinion ultimately turns. See Conyers v.
State, 354 Md. 132, 151 (1999) (explaining that “[w]e
usually elect to review an unpreserved issue only after
it has been thoroughly briefed and argued, and where
a decision would . . . help correct a recurring error” or
otherwise further the administration of justice)
(emphasis added); Krause Marine Towing Corp. v. Ass’n
of Maryland Pilots, 205 Md. App. 194, 223 (2012)
(declining to exercise discretion to reach constitutional
claim and observing that, “on matters of such import
and significance as constitutional questions, we cannot
overstress the necessity of fully preserving the issue
below. The trial court should be given not only the
opportunity to rule, but also the assistance of counsels’
arguments and memoranda in reaching its result.”)

95a
(quoting Hall v. State, 22 Md. App. 240, 245 (1974)
(cleaned up)).
B. MSORA Does Not Violate
Separation of Powers.

Maryland’s

Although the Majority does not reach Rogers’s
separation of powers argument, because I conclude
that Rogers’s other arguments do not entitle him to
relief, I will address whether the Department’s finding
of the age of his victim for purposes of sex offender
registration violates separation of powers principles.
In my view, there is no separation of powers violation
by virtue of the General Assembly’s implied delegation
of authority to a Supervising Authority to determine
whether a circumstance that is not an element of a
potential registrant’s offense of conviction exists for
purposes of triggering sex offender registration.
Article 8 of the Declaration of Rights provides:
“That the Legislative, Executive, and Judicial powers
of Government ought to be forever separate and
distinct from each other; and no person exercising the
functions of one of said Departments shall assume or
discharge the duties of any other.” As this Court has
recognized, “[t]he modern tendency of the courts is
toward greater liberality in permitting grants of
discretion to administrative officials in order to facilitate the administration of the laws as the complexity
of governmental and economic conditions increases.”
Governor of Maryland v. Exxon Corp., 279 Md. 410,
440-41 (1977) (internal quotation marks and citation

96a
omitted); see also Maryland Aggregates Ass’n, 337 Md.
at 677 (explaining that this Court “has recognized the
delegation to administrative agencies of both
legislative and adjudicatory power as legitimate, as
the separation of powers concept may constitutionally
encompass a sensible degree of elasticity and should
not be applied with doctrinaire rigor”) (quoting Dep’t of
Nat. Res. v. Linchester, 274 Md. 211, 220 (1975)
(cleaned up)). Thus, as stated above, it is well settled
that “administrative bodies may exercise quasijudicial authority, which essentially consists of
deciding questions of fact and law subject to judicial
review.” Reliable Contracting Co., 446 Md. at 717.
However, none of the three branches of Government
may usurp an “essential” function of another branch.
Getty v. Carroll Cty. Bd. of Elections, 399 Md. 710, 732
(2007); see also Shell Oil Co. v. Supervisor of Assessments of Prince George’s Cty., 276 Md. 36, 47 (1975)
(“Any attempt to authorize an administrative agency
to perform what is deemed a purely judicial function
or power, would violate the separation of powers
principle.”) (cleaned up).
Rogers argues before this Court that allowing the
Department to make the determination that his victim
was a minor and, therefore, that Rogers must register
as a sex offender, “permits an administrative agency to
impose punishment, a quintessential judicial function,
in violation of the separation of powers.” Brief for
Petitioner at 20. I disagree.
The Department’s determination of circumstances
that the General Assembly has seen fit to trigger sex

97a
offender registration in Maryland, but which are not
elements of a potential registrant’s offense of conviction, is the type of quasi-judicial power that this
Court has long recognized as legitimate, given that it
is subject to judicial review. See Reliable Contracting,
446 Md. at 717. Although there is no specific process
set forth in the Maryland Code or COMAR for judicial
review of a Supervising Authority’s determination of
the kind the Department made here, it is clear that
Rogers and others similarly situated can avail
themselves of judicial review of the agency action,
either through an administrative mandamus action
under Md. Rule 7-402 or, as occurred in this case, a
declaratory judgment action.
As discussed below, sex offender registration is not
sufficiently punitive in effect to require under the
Sixth Amendment that a criminal trier of fact determine a non-element fact that triggers registration. But
even if registration were considered effectively to be
“punishment,” it still would not be an authorized
sentence for the offense of which Rogers was
convicted. In sentencing Rogers, the Circuit Court was
authorized to impose as a sentence a term of
imprisonment not exceeding 10 years, or a fine not
exceeding $5,000, or both. CR § 11-303(c)(1). The
sentencing court was not authorized to impose a term
of registration as a sex offender as an independent part
of Rogers’s sentence, nor did the sentencing court have
the authority to order that Rogers need not register.
See Doe, 430 Md. at 599-600 (Barbera, J., dissenting).
To the contrary, sex offender registration is a collateral

98a
consequence of a conviction. Id.; see also Hyman v.
State, 463 Md. 656, 677 n.9 (2019) (noting that Md.
Rule 4-242(f ) confirms that sex offender registration
“is a collateral consequence” of a guilty plea to an
offense listed in CP § 11-701) (emphasis in original). It
follows that the Department did not usurp the judicial
function of imposition of sentence when it directed
Rogers to register, based on its determination that his
victim was a minor. See also State v. Bostic, 729 S.E.2d
835, 842-45 (W. Va. 2012) (no separation of powers
violation under West Virginia law where State Police
determined that, because Bostic’s victim was a minor,
the term of Bostic’s registration increased after a
change in the registration law); Lemmon v. Harris, 949
N.E.2d 803 (Ind. 2011) (no separation of powers
violation found in application of Indiana’s registration
law); Herreid v. State, 69 P.3d 507 (Alaska 2003) (no
separation of powers violation under Alaska’s
registration statute).
C. The Sixth Amendment Does Not Require
That the Criminal Trier of Fact Determine
the Age of a Victim Beyond a Reasonable
Doubt, Where That Fact Is Not Necessary to
Prove a Defendant’s Guilt, But Is Necessary
to Trigger Sex Offender Registration.
In sustaining Rogers’s Apprendi18 challenge to the
Department’s determination of the age of his victim for
18

In Apprendi, the Supreme Court held that “[o]ther than
the fact of a prior conviction, any fact that increases the penalty
for a crime beyond the prescribed statutory maximum must be

99a
purposes of triggering sex offender registration, the
Majority sub silentio overrules a portion of Young v.
State. In Young, this Court considered and rejected an
Apprendi claim that is materially indistinguishable
from Rogers’s Apprendi claim. 370 Md. at 711-18. Until
today, Young has remained good law with respect to
an Apprendi challenge to MSORA’s registration
requirements. The Majority is wrong to abrogate it.
1.

The Young Decision

The petitioner in Young was convicted of transporting a person for purposes of prostitution, in
violation of Art. 27, § 432, a predecessor version of the
human trafficking crime to which Rogers pled guilty.
See Young, 370 Md. at 692. At the time of Young’s
offense, unlike today, there was not a second mode
relating to the age of the victim by which a person
could violate the statute. As was the case with CR § 11303(a) under which Rogers was convicted, a conviction
under § 432 did not automatically trigger sex offender
registration. Rather, Young only would be an “offender”
under the then-applicable version of MSORA and
thereby required to register if a court exercised
discretion to order him to register and if the intended
prostitute was a minor, i.e., under the age of 18. Young,
370 Md. at 693. In Young’s case, as here, the criminal
trier of fact did not determine that the victim was a
submitted to a jury, and proved beyond a reasonable doubt.” 530
U.S. at 490. The Court based its holding on the Sixth Amendment
right to a jury trial, applied to the States by the Fourteenth
Amendment. Id. at 476.

100a
minor. Rather, the sentencing court apparently made
that determination in Young’s case. Young challenged
the order to register on the ground that, under
Apprendi, the jury in his criminal case needed to
determine the age of his victim beyond a reasonable
doubt before the court could consider whether to order
him to register.
This Court rejected Young’s Apprendi challenge
for two reasons. First, after conducting an extensive
survey of relevant case law and conducting an intentseffects analysis, the Court held that the version of
MSORA that existed at the time of Young’s offense was
not “so punitive that the General Assembly’s intent to
create a remedial scheme may be disregarded.” 370
Md. at 716. Rather, the Court noted its agreement
“with those courts that have found that sex
registration and notification statutes are not
punishment in the constitutional sense,” and therefore
held that “requiring petitioner to register as a sex
offender . . . does not constitute punishment, but is a
remedial requirement for the protection of the public.”
Id.
Second, the Court held that “[e]ven assuming,
arguendo, that sexual offender registration constituted
punishment for the purposes of our Apprendi analysis,
the requisite statutory predicate that [the victim] was
under eighteen years of age at the time of petitioner’s
crime is not a fact that increases the penalty for a
crime beyond the prescribed statutory maximum.” Id.
The Court noted that Young had been given a suspended sentence, and explained that Apprendi “does

101a
not apply to a case in which the trial court imposes a
discretionary sentence within the permissible statutory range.” Id. The Court also distinguished sex
offender registration from increases in prison time
beyond an otherwise applicable statutory maximum
that result from the determination of facts that are not
found by the jury. See id. at 717-18 (reasoning that the
“finding of the statutory predicates for sex offender
registration is much more akin” to the finding of the
amount owed by a defendant for purposes of
restitution (which does not implicate a “statutory
maximum”) than the finding of a specific drug
threshold quantity, which can affect the statutory
maximum term of imprisonment a defendant faces).
2.

Sex Offender Registration Under MSORA Is
Not Punitive Under the Intents-Effects Test.

The Majority does not hold that the Young Court’s
application of the intents-effects test to MSORA was
incorrect. Rather, the Majority concludes that the
2009-10 amendments to MSORA transformed Maryland’s sex offender registration from a remedial program that protects the public into a punitive regime.
Maj. Slip Op. at 38-44. I disagree.
The validity of the current version of MSORA
under the ex post facto provisions of the Maryland
Declaration of Rights and the United States Constitution was the subject of Doe, 430 Md. at 535. The
fractured resolution of Doe left open the question
whether registration under the current version of

102a
MSORA is “punishment in the constitutional sense,” or
rather “is a remedial requirement for the protection of
the public,” Young, 370 Md. at 716, as determined
through application of the intents-effects test. The
three-member Plurality in Doe did not conduct an
intents-effects analysis, concluding under Maryland
law that the change in MSORA after Doe’s conviction
“disadvantaged” Doe for ex post facto purposes. Id. at
559, et seq. In a concurring opinion, the Honorable
Robert N. McDonald, joined by the Honorable Sally D.
Adkins, did not explicitly conduct an intents-effects
analysis, but nevertheless concluded that “the
cumulative effect of 2009 and 2010 amendments of
[MSORA] took the law across the line from civil
regulation to an element of the punishment of
offenders.” Id. at 578 (McDonald, J., concurring).
Dissenting from the grant of relief to the petitioner in Doe, the Honorable Mary Ellen Barbera
conducted a thorough intents-effects analysis and
concluded that MSORA, as amended, is not sufficiently
punitive to make it a law that is subject to ex post facto
protections. Id. at 578-96 (Barbera, J., dissenting).19
I can do no better than now-Chief Judge Barbera
did in her opinion in Doe to explain why MSORA, as
amended, is not “punitive” for purposes of a constitutional analysis, thereby refuting the Majority’s
application of the intents-effects test here. Regarding
19

The Honorable Glenn T. Harrell III separately concurred
in the judgment granting relief to Doe, but not because of any
asserted punitive effect of MSORA. See id. at 569-75.

103a
the first part of the intents-effect test, Judge Barbera
observed that the General Assembly did not intend
MSORA, as amended, to be punitive. Rather, the intent
of the General Assembly in enacting the 2009 and 2010
amendments was “to accomplish two public-safety,
regulatory ends,” specifically the incorporation of provisions of the federal Sex Offender Registration and
Notification Act (“SORNA”), 42 U.S.C. § 16901 et seq.,
and “to further the objectives of the then-extant civil
regulatory scheme this Court previously held [in
Young] to be nonpunitive.” Doe, 430 Md. at 587
(Barbera, J., dissenting) (footnote omitted). Although
the Majority does not explicitly endorse Judge
Barbera’s analysis of the General Assembly’s intent in
enacting the 2009 and 2010 amendments to MSORA,
neither does the Majority voice any disagreement on
this point. See Maj. Slip Op. at 39; see also Long v.
Maryland State Dep’t of Pub. Safety and Corr. Services,
230 Md. App. 1, 21 (2016) (“[T]here is nothing in the
language used in either the 2009 or 2010 amendments
that indicates a legislative intent to punish the sex
offender.”).
Judge Barbera then proceeded to the second part
of the intents-effects test, first quoting the Supreme
Court’s seminal decision in this area, Smith v. Doe, 538
U.S. 84 (2003), for the proposition that, “[b]ecause we
ordinarily defer to the legislature’s stated intent, only
the clearest proof will suffice to override legislative
intent and transform what has been denominated a
civil remedy into a criminal penalty.” Doe, 430 Md. at
586 (Barbera, J., dissenting) (quoting Smith, 538 U.S.

104a
at 92) (alterations and emphasis supplied by Judge
Barbera).
Judge Barbera then applied pertinent factors
drawn from Kennedy v. Mendoza-Martinez, 372 U.S.
144, 168-69 (1963), to the question of whether the 2009
and 2010 amendments to MSORA are sufficiently
punitive to convert the law from the civil regulatory
scheme that the Court analyzed in Young to the
equivalent of a criminal penalty. As to whether sex
offender registration has historically been regarded as
a punishment, Judge Barbera concluded that there is
“no merit in the contention that the online posting of
information concerning the registrant’s conviction, his
photograph, residence, etc., amounts to public
humiliation and shaming.” Doe, 430 Md. at 592
(Barbera, J., dissenting); see also Young, 370 Md. at 714
(“Sex offender registration traditionally has not been
regarded as punishment.”). I agree.
As Judge Barbera noted, this Court in Young previously observed that, “although public dissemination
of one’s criminal history certainly has some negative
consequences, dissemination of such information in
itself has not historically been regarded as punishment
when done in furtherance of a legitimate government
interest.” Doe, 430 Md. at 592 (Barbera, J., dissenting)
(quoting Young, 370 Md. at 714) (cleaned up).
According to Judge Barbera, “[t]hat the means chosen
by Congress and the General Assembly to disseminate
this information now involves making the registry
available online for public access does not render the
dissemination punitive in effect or akin to public

105a
shaming.” Id. at 592-93 (footnote omitted). Rather, “[i]t
is simply a fact of present-day society that the Internet
is one of the most efficient and effective ways to
disseminate information; as such, the use of the
Internet in this way further supports the conclusion
that the purpose and the principal effect of notification
are to inform the public for its own safety.” Id. at 593;
see also id. (“[W]idespread public access is necessary
for the efficacy of the scheme, and the attendant
humiliation is but a collateral consequence of a valid
regulation.”) (quoting Smith, 538 U.S. at 99) (cleaned
up).
The Majority’s (and the Doe Plurality’s) analogy to
shaming, Maj. Slip Op. at 42; Doe, 430 Md. at 561,
ultimately is inapt because they fail to recognize that,
in today’s age, there is much more information that is
publicly available—and easily accessible—about most
Americans than there was when “shaming” was a
recognized form of punishment. See Matthew W.
Meskell, The History of Prisons in the United States
from 1777 to 1877, 51 Stan. L. Rev. 839, 842 (1999)
(explaining that, in colonial America, “[p]unishments
designed predominantly to humiliate the offender
included public penance, the stocks, the pillory, and the
scarlet letter. This group of deterrents depended
largely, if not exclusively, for its effect on the shame
and embarrassment arising from being punished in
front of one’s friends and neighbors. Indeed, strangers
to communities were much more likely upon conviction
to suffer physical punishment and banishment than
the stocks or the pillory.”) (footnote omitted). And,

106a
regrettably, public shaming on the Internet of
nonpublic figures is so common in today’s world that it
is difficult to conceive of the humiliation attendant to
sex offender registration as a form of state-imposed
punishment. See Kristine L. Gallardo, Taming the
Internet Pitchfork Mob: Online Public Shaming, the
Viral Media Age, and the Communications Decency Act,
19 Vand. J. Ent. & Tech. L. 721, 722-23 (2017)
(describing “the fierce and swift nature of online
vengeance against those who have committed behavior
the Internet deems unacceptable” and noting that “the
ills of online public shaming fall especially hard on
private citizens who become infamous on the internet
overnight due to instances of online shaming gone
viral”).
My view of the shaming analogy (and Judge
Barbera’s in her dissenting opinion in Doe) is in line
with the weight of authority construing similar
dissemination provisions in SORNA and other state
sex offender registration systems. See State v. PetersenBeard, 377 P.3d 1127, 1134-35 (Kan. 2016). These cases
hold that publication requirements do not render
registration regimes punitive, “despite candidly
recognizing they can result in greatly increased public
shame.” Id. at 201 (referring to all federal circuits that
have addressed SORNA’s publication requirements);
Kammerer v. State, 322 P.3d 827, 835 (Wyo. 2014)
(quoting E.B. v. Verniero, 119 F.3d 1077, 1099 (3d Cir.
1997)) (adopting the Third Circuit’s determination
that “[p]ublic shaming, humiliation and banishment

107a
all involve more
information”).

than

the

dissemination

of

I also disagree with the Majority’s (and the Doe
Plurality’s) comparison of sex offender registration to
probation. See Maj. Slip Op. at 42; Doe, 430 Md. at 561.
There are significant distinctions between these two
mechanisms. Reporting information, even in person, is
not as burdensome as submitting to supervision as
part of a sentence of probation. See Shaw v. Patton, 823
F.3d 556, 565 (10th Cir. 2016). In addition, probation
typically includes a series of conditions that go well
beyond the reporting of information associated with
sex offender registration, including placing restrictions
on weapons and alcohol, requiring employment as well
as participation in educational or counseling
programs, submitting to regular searches, and
obtaining approval of the probation officer before
moving. See id. Further, MSORA’s registration
requirements are “regulatory requirements separate
from [registrants’] . . . convictions. In contrast,
probation historically involved a deferred sentence
based on the underlying offense.” Id. at 566. While a
knowing failure to register can result in a new criminal
prosecution, under which a defendant can elect a jury
trial and guilt must be established beyond a
reasonable doubt, see CP § 11-721, a violation of
probation can be found by a judge under a
preponderance-of-the evidence test. Wink v. State, 317
Md. 330 (1989).
With regard to registration constituting an
“affirmative disability or restraint,” I disagree that the

108a
reporting requirements and their incidental effects,
such as lost employment opportunities, “weigh [ ]
heavily in favor of registration having a punitive
effect.” Maj. Slip Op. at 41. To be sure, MSORA’s
reporting requirements impose burdens on registrants
for many years, and damaging incidental effects often
flow from registration. However, I agree with Judge
Barbera that the burdens imposed on Maryland sex
offenders do not constitute affirmative disabilities or
punitive restraints, within the meaning of
constitutional jurisprudence.
First and foremost, in my view, there is a
significant distinction between a “burden” on the one
hand, and either a “disability” or a “restraint” on the
other. A burden is commonly thought of as an
obligation and/or that which is borne with difficulty.
See also Black’s Law Dictionary (11th ed. 2019) (defining burden as a “duty or responsibility” or “[s]omething
that hinders or oppresses”). But a burden is usually
considered to be something that can be accomplished
with effort. A “disability,” on the other hand, in the
sense relevant here, is a legal incapacity. See id.
(defining disability as the “inability to perform some
function”). For example, a child is legally disabled from
bringing a tort action until he or she is 18 years old.
Piselli v. 75th Street Medical, 371 Md. 188, 215 (2002).
Similarly, a “restraint” is understood to be a prohibition
of action. See also Black’s (defining “restraint” as
[c]onfinement, abridgment, or limitation”).
In my view, MSORA imposes burdens, but not
affirmative disabilities or restraints, on registrants.

109a
Most notably, of course, registration “imposes no physical restraint, and so does not resemble the punishment
of imprisonment, which is the paradigmatic affirmative disability or restraint.” Doe, 430 Md. at 593
(Barbera, J., dissenting) (quoting Smith, 538 U.S. at
100). While registrants are required to report in person
to a local law enforcement authority either twice a
year (for Tier I and Tier II sex offenders) or four times
a year (for Tier III sex offenders and sexually violent
predators), see CP § 11-707, this burden and the other
requirements placed on registrants do not rise to the
level of disabilities and/or restraints. But, even if they
did, I agree with Judge Barbera that this “conclusion
alone would not render the current registration
regime, taken as a whole, punitive in effect.” Doe, 430
Md. at 594 (Barbera, J., dissenting).
Judge Barbera also is correct that “the registration and notification features of the current scheme
have a rational connection to the regulatory purpose of
the legislative scheme.” Id. On this point, the Majority
agrees. Maj. Slip Op. at 43-44 (citing Young favorably
for the proposition that sex offender registration
statutes have “strong remedial aspects and serve[ ] the
important nonpunitive goal of alerting law
enforcement and the community to the presence of
sexual predators who may reoffend”). However, the
Majority fails to acknowledge that whether “there
exists evidence of a strong connection between the
features of a regulatory scheme and the obvious,
nonpunitive legislative purpose behind the law is a
‘most significant’ factor in the analysis.” Doe, 430 Md.

110a
at 594 (Barbera, J., dissenting) (quoting Smith, 538
U.S. at 102) (cleaned up).
The Majority also agrees with Judge Barbera’s
assessment that “the features of Maryland’s current
sex offender registration scheme are not excessive
when considered in light of the law’s public safety
purpose.” Id. at 594-95; Maj. Slip Op. at 44. In my view,
this recognition by the Majority settles the question.
Nevertheless, completing the effects analysis, the
lack of a scienter requirement in CP §§ 11-701(o), (p),
and (q) also favors the State’s position, as all “sex
offenders, without regard to the offenders’ state of
mind, must comply.” Long, 230 Md. App. at 22.
As to whether sex offender registration promotes
the traditional goals of punishment, as the Majority
observes, because sex offender registration statutes
were enacted to protect the public, registration is not
properly characterized as retribution. See Maj. Slip Op.
at 42. However, I also agree with the Majority that
there is a deterrent effect to sex offender registration.
Maj. Slip Op. at 42-43. While the Majority concludes
that this factor weighs in favor of registration being
punitive, I believe this factor is, at best for Rogers, in
equipoise. See Smith, 538 U.S. at 102 (“Any number of
governmental programs might deter crime without
imposing punishment. To hold that the mere presence
of a deterrent purpose renders such sanctions ‘criminal’
. . . would severely undermine the Government’s ability
to engage in effective regulation.”) (cleaned up).

111a
I agree with the Majority that whether the
behavior to which MSORA applies is already a crime
also is a factor that is in equipoise. Maj. Slip Op. at 43.
In any event, this factor should be accorded limited
weight. Long, 230 Md. App. at 23.
In sum, Rogers has not “met his burden to
establish by the clearest proof,” Doe, 430 Md. at 591
(Barbera, J., dissenting), that MSORA is sufficiently
punitive in effect to render registration a penalty for
purposes of an Apprendi claim. To the contrary,
MSORA is based on SORNA, and is materially similar
to other states’ sex offender registration laws that, like
SORNA, have been held not to be punitive for purposes
of Apprendi. The Majority does not cite a single case in
any jurisdiction that has held registration
requirements similar to those Rogers has been ordered
to abide by constitute a criminal penalty for purposes
of an Apprendi claim. However, the cases that have
rejected Apprendi challenges, concluding that
registration requirements similar to Maryland’s do not
constitute punishment, are legion. See, e.g., PetersenBeard, 377 P.3d at 1129; People v. Mosley, 344 P.3d 788,
805 (Cal. 2015); Kammerer, 322 P.3d at 839; State v.
Payan, 765 N.W.2d 192, 200-02 (Neb. 2009); State in
Interest of N.J., 275 So. 3d 267, 271-72 (La. Ct. App.
2019); People v. Golba, 729 N.W.2d 916, 925-25 (Mich.
Ct. App. 2007). The Majority’s intents-effects analysis
does not convince me that this Court should stake out
a different position from all of the other courts in the
country that have rejected Apprendi challenges on this
basis.

112a
3.

Sex Offender Registration Does Not Increase
a Registrant’s Punishment Beyond the
Otherwise Applicable Statutory Maximum.

Even if sex offender registration in Maryland were
properly considered a criminal penalty, Rogers’s
Apprendi claim would still fail. As noted above, in
Young, this Court rejected the petitioner’s Apprendi
challenge to MSORA on two grounds. The Majority
only addresses the first of the two bases for Young’s
holding. Young’s alternative holding – that an order to
register as a sex offender does not increase a defendant’s punishment beyond the otherwise applicable
statutory maximum – remains applicable to this
analysis, notwithstanding the post-Young amendments to MSORA. The Majority overrules this part of
Young sub silentio. For several reasons, I believe the
Majority errs in doing so.
First, it is not clear to me that Apprendi applies to
situations beyond judicial factfinding at an actual
sentencing proceeding. See Healey v. Carter, 109 N.E.3d
1043, 1049 (Ind. Ct. App. 2018) (noting that “[t]he issue
presented here is not one of judicial fact-finding but
rather a determination of the [Department of Corrections] under [Indiana’s Sex Offender Registration Act]”
and questioning whether “Apprendi and its progeny
extend beyond judicial factfinding”).
Second, as was the case with the petitioner in
Young, Rogers received a suspended sentence. Thus, he
did not receive the statutory maximum sentence for
his violation of CR § 11-303(a). Therefore, it is not

113a
accurate to say that, even if sex offender registration
is punitive, the Department’s order to register resulted
in Rogers receiving punishment in excess of the
statutory maximum. See Young, 370 Md. at 716.
Third, even if Rogers had been ordered to serve a
fully executed maximum sentence of 10 years of imprisonment, registration still would not have resulted
in a punishment in excess of the statutory maximum
for purposes of Apprendi. See State v. Trujillo, 430 P.3d
379, 385 (Ariz. Ct. App. 2018) (“[I]t does not necessarily
follow that the maximum authorized prison term plus
sex-offender registration automatically entitles a
defendant to a jury finding of the factor upon which an
order requiring registration is based.”). That is
because, even if registration is considered sufficiently
punitive that a change in the law that makes
registration more onerous than it was when a registrant
was convicted of his criminal offense can create an ex
post facto problem, registration nevertheless remains a
collateral consequence of a conviction, not a part of the
criminal sentence itself. See Doe, 430 Md. at 560
(Plurality Opinion) (holding that “imposing registration
alters the consequences for a prior crime”); id. at 600
(“Sex offender registration is not punishment, but
[rather] a collateral consequence of a conviction.”)
(Barbera, J., dissenting); see also Md. Rule 4-242(f )
(listing sex offender registration and deportation and
other immigration-related matters as “collateral
consequences” of certain guilty pleas); Healey, 109
N.E.3d at 1049-50 (because a “criminal sentence is the

114a
punishment ordered by the trial court after conviction—nothing more,” sex offender registration is not a
“penalty or punishment for the purposes of the Sixth
Amendment”); State v. Chambers, 138 P.3d 405, 413-14
(Kan. App. Ct. 2006) (in rejecting Apprendi challenge
to Kansas’s sex offender registration law, relying on
prior cases in which Apprendi was held inapplicable
“because the defendants’ sentences were not increased
beyond the statutory maximum terms . . . even though
the consequences of the district courts’ findings clearly
increased the defendants’ punishment. If Apprendi
does not apply to a sentencing judge’s imposition of
imprisonment rather than probation based upon a
nonjury factual finding that a defendant used a
firearm in the commission of a crime or was a gang
member, it is not evident how a sentencing judge’s
determination that a crime was sexually motivated,
which results in a defendant’s obligation to comply
with the comparatively mild sanction of registration,
implicates the Sixth and Fourteenth Amendments.”)
(emphasis in original).
Fourth, the Supreme Court has limited the
application of Apprendi to those situations in which
juries played a factfinding role at common law. Oregon
v. Ice, 555 U.S. 160, 168 (2009) (explaining that
application of the Apprendi rule turns on whether the
“finding of a particular fact was understood as within
the domain of the jury . . . by those who framed the Bill
of Rights”) (cleaned up). The Court also explained that
this limitation of Apprendi is particularly appropriate
when considering a Sixth Amendment challenge to a

115a
state law, given the sovereignty issues at stake. See id.
Thus, when considering Sixth Amendment challenges
to state criminal law procedures assigning factfinding
to judges, which indisputably affect a criminal sentence,
Apprendi should not be considered to require
reassignment of those functions to a jury “absent
impelling reason to do so.” Id. at 170-71.
As applied to MSORA, Ice further demonstrates
that the Department’s determination of the age of
Rogers’s victim does not violate the Sixth Amendment.
It is obvious that juries historically had no role with
respect to imposition of sex offender registration,
because sex offender registration is a modern development. Thus, it seems clear that the Supreme Court
would hold the Sixth Amendment does not require a
jury to determine a fact that triggers sex offender
notification. As the Supreme Court of California reasoned in rejecting the application of Apprendi to
judicial factfinding that affects sex offender
registration in that State:
[B]oth residency restrictions and underlying
sex offender registration requirements are
modern regulatory sentencing imperatives
unknown at common law. They are akin to a
variety of sentencing determinations other
than the length of incarceration, of relatively
recent vintage, in which trial judges often find
facts about the nature of the offense or the
character of the defendant—such as the
length of supervised release following service
of a prison sentence; [and] required attendance at drug rehabilitation programs or

116a
terms of community service. They are
additional examples of sentencing choices or
accoutrements in which juries have played no
historical role, and which do not implicate the
Sixth Amendment jury trial guarantee within
the meaning of Apprendi.
Mosley, 344 P.3d at 798. So too here.
Finally, even if the imposition of Tier II sex
offender registration for a violation of CR § 11-303(a)
is a penalty, it is not a penalty for Apprendi purposes,
because the Department’s finding did not increase
Rogers’s registration “penalty” from one level to
another. See Trujillo, 430 P.3d at 386 (rejecting
registrant’s argument that there was a mandatory
minimum sentence of no registration under Arizona’s
system).
The Majority expands Apprendi in an unprecedented and unwarranted manner that makes
Maryland an outlier in Sixth Amendment and sex
offender registration jurisprudence. Respectfully, I
believe the Court should tread more carefully than it
does here, especially given the public safety goals that
the General Assembly has addressed in MSORA.

117a
III
The Majority’s New Procedure is Not Workable
and Will Lead to Results the General Assembly
Could Not Possibly Have Intended.
If I agreed with the Majority that the Sixth
Amendment requires the criminal trier of fact to make
a finding beyond a reasonable doubt of a non-element
circumstance that triggers sex offender registration, I
would accept that criminal proceedings would have to
adapt accordingly, and that any resulting consequences to which the General Assembly and the
Maryland citizenry might object would be unavoidable.
Because I do not agree that the result here is correct, I
will point out what I think are some of the practical
problems with the Majority’s approach.
The Majority suggests that “[t]o establish the
victim’s age during the adjudicatory phase beyond a
reasonable doubt in a case in which the defendant
pleads guilty, the State could pursue an agreed
statement of facts that establishes the victim’s age.”
Maj. Slip Op. at 45. But, of course, a defendant need
not oblige. In some cases, the State will likely be able
to obtain the defendant’s stipulation to the victim’s age
in exchange for something the defendant wants,
perhaps a favorable sentencing recommendation. In
other cases, however, a defendant may not agree to
admit to the non-element circumstances that would
trigger registration. In that event, the Majority posits,
the defendant would not plead guilty. Maj. Slip Op. at
46. But is that necessarily so?

118a
Consider this hypothetical. A man grabs a 16 yearold girl he does not know off the street somewhere in
the State, forces her into his car, and drives off.
Fortunately, in this hypothetical, there is a witness to
the violent abduction, who notifies police immediately,
and within minutes officers capture the kidnapper and
rescue the victim before the perpetrator can commit
any additional crimes against the girl. The State
charges the man with one count of kidnapping under
CR § 3-502 for having, “by force or fraud . . . carried” a
person within the State. The defendant is well aware
of the fact that his victim is a minor, as irrefutable
evidence of her age has been provided to the defense in
discovery. The age of the victim is not an element of
§ 3-502. But, under CP § 11-701(q)(1)(iii), a person who
is convicted of kidnapping under § 3-502 is a Tier III
sex offender “if the victim is a minor.” Now imagine
that the State, in light of the Majority’s ruling today,
has offered the defendant a plea agreement that
requires him to admit that the victim was a minor. Not
wishing to have to register as a sex offender for life, the
defendant rejects the plea offer. At his next court
appearance, the defendant indicates that he wishes to
plead guilty to the charge without a plea agreement.
In her recitation of the facts, the prosecutor covers all
of the elements of the offense (the forced abduction
against the will of the victim, the carrying of the victim
within the State, etc.) and then also says that the
victim was 16 years old at the time of the offense.
Defense counsel or the defendant then responds that
everything the prosecutor said is correct, except for the
age of the victim. Assuming the prosecutor recited

119a
necessary facts to establish the elements of the offense,
would the court not be required to accept the guilty
plea? Surely, the State cannot prevent the defendant
from admitting guilt to all of the elements of the
offense. If so, under the Majority’s holding today, this
hypothetical defendant would not be required to
register as a sex offender. I believe this guilty plea
scenario will occur with substantial frequency in cases
where a defendant is charged with offenses that can
lead to registration only if a non-element circumstance
is present.
But what if the defendant does not want to plead
guilty at all? In that event, under the Majority’s
approach, “determination of the victim’s age beyond a
reasonable doubt could be achieved by a special verdict
question submitted to the jury.” Maj. Slip Op. at 46. I
would imagine that, in the absence of the Majority’s
holding, a trial judge presiding over my hypothetical
kidnapping trial might be amenable to a defense
request to prohibit the State from eliciting the victim’s
age during her testimony. After all, the age of the
victim seemingly would be irrelevant to a determination of the defendant’s guilt for kidnapping, but
could inflame the jurors if they learned it. Perhaps,
after today’s ruling, some trial judges—concerned
about a defendant’s right to a fair trial—still will
exclude such evidence and therefore decline to give the
jury the special verdict form envisioned by the
Majority, even with the knowledge that this will make
the defendant immune to sex offender registration. It
is difficult to imagine what remedy the State would

120a
have if a trial judge declined to allow the State to elicit
the age of the victim when it is not an element of the
criminal offense of which the defendant stands
accused. Practically speaking, a trial court’s decision to
exclude such evidence in my hypothetical case would
result in the defendant not registering as a sex
offender after being convicted of the kidnapping
charge, even though the victim was a minor.
Based on the Majority’s holding, many judges
likely will admit evidence of the victim’s age and then
will provide the jury with a special verdict form on
which the jury will be asked to answer a question that
will resolve whether, upon conviction of the offense, the
defendant will be required to register as a sex offender.
The Majority cites no case in Maryland or elsewhere in
which a criminal jury has answered such a question on
a special verdict form. This is a novel and troubling use
of a special verdict form, which has previously been
recognized as an appropriate device to create an
unambiguous record for appeal in a criminal case, see
State v. Adams, 406 Md. 240, 294 (2008), overruled on
other grounds, Unger v. State, 427 Md. 383 (2012), not
to have a jury make a finding that is relevant only to a
collateral consequence of a conviction.
To address the concern of prejudice, the Majority
suggests that trial judges consider bifurcating a
criminal trial in these circumstances. Maj. Slip Op. at
47. Presumably, in my hypothetical trial, after a
finding of guilt, the State would recall the victim and
have her testify a second time, this time for the sole
purpose of eliciting her age. The trial judge would then

121a
re-instruct the jury that they must determine whether
the victim was a minor at the time of the offense. Then,
the jury would deliberate again and presumably
return a “verdict” of “minor” beyond a reasonable
doubt.
Putting aside the added layer of complexity and
work that this would entail for Circuit Court judges
and juries, as well as the need in many instances to
make a traumatized young person testify a second
time in the same trial, the jury would not be rendering
a “verdict” in the second phase of this hypothetical
kidnapping trial. A verdict in a criminal case requires
a jury to choose between “guilty” and “not guilty” using
a reasonable doubt standard (and, when appropriate,
between “not criminally responsible” or “criminally
responsible,” by a preponderance of the evidence, see
CP § 3-110(c)). In other words, the Majority is incorrect
when it suggests that the jury in this sort of bifurcated
proceeding “would make sequential determinations of
the charges.” Maj. Slip Op. at 47 (emphasis added).
Under the bifurcation envisioned by the Majority, the
division would be between factfinding beyond a
reasonable doubt for a “charges” phase and factfinding
beyond a reasonable doubt for a “non-charges” phase
that has no relation whatsoever to the sentence the
court will impose based on a guilty verdict reached
during the “charges” phase. The Majority does not cite
any case in which a criminal jury in Maryland or
anywhere else has engaged in this kind of exercise.
I am also concerned about the implications of the
Majority’s holding with respect to the registration

122a
requirements of: (1) Maryland residents convicted in
other American or foreign jurisdictions after today of
crimes that are “similar to” or “would constitute” one of
the Maryland offenses or federal offenses that trigger
sex offender registration in Maryland; and (2) nonMaryland residents who move to Maryland to live or
work after having been convicted after today in
another jurisdiction of crimes that are “similar to” or
“would constitute” one of the Maryland offenses or
federal offenses that trigger sex offender registration.
Unless such a person voluntarily registers as a sex
offender for fear of violating the criminal prohibition
for failing to register, someone needs to determine that
a person in one of these two classes is required to
register, or else the General Assembly’s intent in
enacting MSORA will be frustrated with respect to
these persons. As discussed above, no jury would ever
be in a position to determine in such a person’s
criminal case whether the foreign jurisdiction’s crime
is “similar to” or “would constitute” one of the
Maryland or federal offenses referred to in CP § 11701.
The Majority does not address these other circumstances that lead to registration, but Rogers
believes that Apprendi requires them also to be proven
beyond a reasonable doubt. That is, under the logic of
the Majority’s holding today, “[b]ecause these additional elements would add to a defendant’s
punishment by requiring registration, they must be
submitted to a jury and proven beyond a reasonable
doubt.” Brief for Petitioner at 21. A case testing this

123a
proposition will likely soon make its way through the
courts, and if Rogers is correct, not only will Maryland
residents convicted of sex crimes in other jurisdictions
no longer have to register under MSORA; sex offenders
in other states also will take notice. Because the
Majority’s ruling is unique among the states,
Maryland soon thereafter may become a haven for
other jurisdictions’ sex offenders.20
IV
Summary Judgment Should Be
Entered in Favor of Respondents.
As discussed above, I would hold that the
Department, as Rogers’s Supervising Authority, had
the power under MSORA and its implementing
regulations to determine the age of Rogers’ victim, and
that neither the Maryland Declaration of Rights nor
the Sixth Amendment to the United States Constitution requires us to declare this delegation of
authority to the Department to be invalid. It follows
that the Circuit Court erred in granting summary
20

Another test case that likely will be filed soon will be from
a defendant in circumstances similar to Rogers, who was
convicted of a criminal offense before today. I offer no opinion on
whether the relief the Majority provides to Rogers today will be
available to other similarly situated current registrants and to
those persons who would otherwise become registrants, based on
a prior conviction, after they are released from jail terms they are
currently serving. I only predict that many of these individuals—
who never disputed that their victims were minors—will file
declaratory judgment actions challenging the application of
MSORA to them.

124a
judgment to Rogers, and the Court of Special Appeals
was correct to reverse the Circuit Court.
The Court of Special Appeals directed the Circuit
Court on remand to hold further proceedings to
determine whether Rogers’s victim was a minor at the
time Rogers committed his offense. 240 Md. App. at
370. The Court contemplated that the State would
need to introduce “affirmative evidence of M.H.’s
minority” to prove by a preponderance of the evidence
that M.H. was, indeed, under 18 years of age on April
3, 2015. Id. On this point, I disagree with the Court of
Special Appeals.
The Circuit Court should have considered in the
first instance whether the Department’s finding that
M.H. was a victim at the time of the offense was
supported by substantial evidence, reviewing the
record in the light most favorable to the Department.
See Maryland Dep’t of Env’t v. Anacostia Riverkeeper,
447 Md. 88, 119-20 (2016); Banks, 354 Md. at 68. In her
recitation of the statement of facts during Rogers’s
plea colloquy, the prosecutor twice described M.H. as
“the missing girl.” See Maj. Slip Op. at 4, 5 (emphasis
added). In my view, those references to M.H. as a
“girl”—to which Rogers did not offer any correction—
in conjunction with the description of the victim as a
minor in the investigating officer’s sworn Statement of
Charges and in the grand jury’s indictment, provide
substantial evidence in support of the Department’s
finding that M.H. was a minor at the time of the
offense. It follows that Rogers is a Tier II sex offender
under MSORA. For these reasons, I would remand the

125a
case to the Circuit Court with instructions to grant
summary judgment in favor of Respondents and to
enter a judgment declaring that Rogers is a Tier II sex
offender under MSORA, and must continue to register
as such.
Chief Judge Barbera and Judge Hotten have
authorized me to state that they join in this opinion.

126a
REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 1993
September Term, 2017
---------------------------------------------------------------------------------------------------------------------------------------------

STATE OF MARYLAND
v.
JIMMIE ROGERS
---------------------------------------------------------------------------------------------------------------------------------------------

Kehoe,
Nazarian,
Salmon, James P.
(Senior Judge, Specially Assigned),
JJ.
---------------------------------------------------------------------------------------------------------------------------------------------

Opinion by Nazarian, J.
---------------------------------------------------------------------------------------------------------------------------------------------

Filed March 28, 2019
On October 20, 2015, Jimmie Rogers pleaded
guilty in the Circuit Court for Anne Arundel County to
a single count of human trafficking under Maryland
Code § 11-303(a) of the Criminal Law Article (“CR”).
Under Maryland Code §§ 11-701(p)(2) and 11-704 of
the Criminal Procedure Article (“CP”), Mr. Rogers
qualified as a tier II sex offender and was required to

127a
register upon release from prison because he was convicted of violating CR § 11-303 and his victim was a
minor. Mr. Rogers registered with the Maryland Sex
Offender Registry (“MSOR”) as instructed on October
4, 2016.
On January 31, 2017, Mr. Rogers filed a complaint
in the circuit court seeking a declaratory judgment
that he was not required to register as a sex offender
because, he argued, the State had failed to establish
that his victim was, in fact, a minor. The State and Mr.
Rogers both filed motions for summary judgment—the
State contended that there was no factual dispute that
the victim was a minor, while Mr. Rogers argued that
there was no factual dispute that she wasn’t. The circuit court granted Mr. Rogers’s motion and entered a
declaratory judgment stating that Mr. Rogers’s conviction did not require him to register as a sex offender.
The State appeals that decision and we reverse and remand for further proceedings consistent with this
opinion.
I.

BACKGROUND

On May 1, 2015, Mr. Rogers was charged by indictment in the Circuit Court for Anne Arundel County
with five counts of human trafficking a minor victim
and two counts of prostitution. At the start of Mr. Rogers’s plea hearing five months later, Count Five of the
indictment was amended from alleging that he had
trafficked a minor victim, citing CR § 11-303(b), to human trafficking generally, citing CR § 11-303(a). Mr.

128a
Rogers pleaded guilty to the amended Count Five and
the State entered a nolle prosequi on the remaining
charges.
At Mr. Rogers’s plea hearing, the State laid out the
facts it planned to prove at trial. On April 3, 2015, Maryland State Trooper Heid was searching for a missing
young woman, M.H.,1 who was believed to be the victim
of human trafficking. In the course of his investigation,
Trooper Heid came across a post on Backpage, a website known to him as an advertising hub for sex workers and human trafficking victims.2 Based on his
knowledge and experience in human trafficking investigations, he suspected that the person featured in the
post was a human trafficking victim and might be
M.H.
Trooper Heid called the number provided on the
Backpage post to set up a meeting with the subject for
9:00 that morning. He suspected that the person he
spoke to on the phone was a man attempting to
1

The record extract filed with the briefs in this Court contained the unedited transcript of Mr. Rogers’s plea hearing, which
included the victim’s full name, contrary to the policy of our appellate courts not to identify minor victims of crimes. See Muthukumarana v. Montgomery Cty., 370 Md. 447, 458 n. 2 (2002);
Thomas v. State, 429 Md. 246, 252 n. 4 (2012); In re James R., 220
Md. App. 132, 134 n.1 (2014). The State agreed at oral argument
to correct the problem, and we entered an order on January 28
directing the State to file a revised extract.
2
Backpage was seized by the FBI in April 2018 and is now
defunct. Charlie Savage & Timothy Williams, U.S. Seizes Backpage.com, a Site Accused of Enabling Prostitution, N.Y.Times,
April 7, 2018, at A14.

129a
disguise his voice as a woman’s. Based on the pictures
on Backpage, Trooper Heid believed the victim was at
a Red Roof Inn in Linthicum, a hotel he knew was a
popular prostitution venue. Trooper Heid and several
colleagues surveilled the Red Roof Inn’s parking lot
and saw Mr. Rogers emerge from a vehicle, enter a motel room, return minutes later, and drive off. Shortly
thereafter, Trooper Heid received a phone call from the
number he’d found on Backpage. The caller, who had a
different voice than the individual to whom he had spoken earlier, instructed him to come to room 333.
When the police knocked on the door, a young
woman, later revealed to be M.H., answered. The officers identified themselves and M.H. explained that her
“boss,” later identified as Mr. Rogers, had rented the
hotel room for her and would be back to check on her
soon. She stated that Mr. Rogers had posted her ad on
Backpage and that she had, over several days, had sexual intercourse with men for money at Mr. Rogers’s direction. M.H. explained that Mr. Rogers set up “dates”
for her through Backpage and kept half of the proceeds
in exchange for security. It was later revealed that Mr.
Rogers had, in fact, been holding all of the proceeds
from M.H.’s sex work.
Mr. Rogers was sentenced to ten years’ imprisonment and two years’ probation. All but 548 days of Mr.
Rogers’s imprisonment were suspended and he got
credit for 202 days already served. Upon release, he
registered as a tier II sex offender, as mandated by CP
§ 11-704, when a person is convicted under CR § 11303, and their victim is a minor. See CP § 11-701(p)(2).

130a
On January 31, 2017, Mr. Rogers filed a complaint
for declaratory judgment in the circuit court seeking a
declaration that he was not required to register as a
sex offender and ordering the State to remove his
name from the MSOR. In his motion for summary
judgment, he argued that because he had not been convicted under CR § 11-303(b), and because the State
had failed to produce any evidence that M.H. was a minor, he did not qualify as a tier II sex offender under
CP § 11-701(p)(2). Mr. Rogers provided no evidence to
support his motion.
The State filed its own motion for summary judgment and countered that because Mr. Rogers indisputably had been convicted under CR § 11-303 and had
never contested M.H.’s minority, the plain language of
CP § 11-704 required him to register. The State attached to its motion the affidavit of Allison Gilford, the
supervisor and custodian of records for the MSOR, and
several documents that purported to demonstrate
M.H.’s minority status: (1) Mr. Rogers’s Criminal Hearing Sheet indicating he pleaded guilty to Count Five
after it was amended to cite CR § 11-303(b) rather than
§ 11-303(a), (2) the Statement of Charges prepared by
Trooper Heid, which indicated repeatedly that M.H.
was a minor, and (3) the indictment charging him with
five counts of trafficking a minor victim.
After a hearing, the circuit court granted Mr. Rogers’s motion for summary judgment and issued a declaration stating that “Jimmie Rogers is not required to
register as a tier II sex offender on the basis of his conviction in State of Maryland vs. Jimmie Junior Rogers,

131a
02-K-15-1039” and that “Defendants State of Maryland
and Maryland Department of Public Safety and Correctional Services . . . shall remove Mr. Rogers’ name
from any and all sex offender registries on which it appears as a result of his conviction in State of Maryland
vs. Jimmie Junior Rogers, 02-K-15-1039.” (emphasis in
original). The State appeals.
II.

DISCUSSION

Summary judgment provides trial courts the opportunity to “determine whether there are facts in dispute that must be resolved through a more formal
resolution process, such as a trial on the merits.” Hines
v. French, 157 Md. App. 536, 549 (2004). Summary
judgment is appropriate when “there is no genuine dispute as to any material fact and [ ] the party in whose
favor judgment is entered is entitled to judgment as a
matter of law.” Md. Rule 2-501(f ). We review a trial
court’s grant of summary judgment de novo, construing all “reasonable inferences that may be drawn from
the facts” in the light most favorable to the non-moving
party. Myers v. Kayhoe, 391 Md. 188, 203 (2006).
“[I]t is wholly appropriate for a trial court to grant
a declaratory judgment at the summary judgment
stage.” Piney Orchard Cmty. Ass’n, Inc. v. Piney Pad A,
LLC, 221 Md. App. 196, 206 (2015). We review that decision to determine “whether [it] was correct as a matter of law.” Olde Severna Park Improvement Ass’n, Inc.
v. Gunby, 402 Md. 317, 329 (2007) (quoting South

132a
Easton Neighborhood Ass’n v. Town of Easton, 387 Md.
468, 487 (2005)).
A. The Victim’s Age Was Not An Element
Of Mr. Rogers’s Crime And Did Not
Need To Be Proven Beyond A Reasonable Doubt.
The State argues that because Mr. Rogers was convicted of human trafficking under CR § 11-303(a) and
M.H. was a minor at the time of the offense, he must
register with the MSOR under CP § 11-704. Mr. Rogers
does not dispute that he was convicted under CR § 11303(a), but argues that the State is required to prove
beyond a reasonable doubt that his victim was a minor
to trigger the registration requirement. Mr. Rogers
cites no law that supports this argument, and the plain
language of the MSOR registration statutes and the
caselaw surrounding the MSOR debunk his position.
CR § 11-303(a) forbids the knowing “tak[ing] or
caus[ing] another to be taken to any place for prostitution; plac[ing], caus[ing] to be placed, or harbor[ing]
another in any place for prostitution; persuad[ing], induc[ing], entic[ing], or encourage[ing] another to be
taken or placed in any place for prostitution. . . .” In
layman’s terms, CR § 11-303(a) criminalizes human
trafficking, but says nothing specific about the victim.
Section 11-303(b), a more serious offense, specifically
criminalizes trafficking children and provides that “[a]
person may not violate subsection (a) . . . involving a
victim who is a minor.” Section 11-303(a) is a

133a
misdemeanor that carries a maximum penalty of ten
years’ imprisonment, a $5,000 fine, or both. CR § 11303(c)(1)(i). CR § 11-303(b), a felony, carries a maximum sentence of 25 years’ imprisonment, a fine
$15,000 fine, or both. CR § 11-303(c)(2).
Individuals convicted of violating CR § 11-303 are
Tier II sex offenders if the offense is perpetrated
against a minor, CP § 11-701(p)(2),3 and they must register with the MSOR. CP § 11-704. The registration
statute does not differentiate between convictions under CR § 11-303(b), a crime for which the victim’s age
is an element, and CR § 11-303(a), for which the victim’s age is not—a conviction under either subparagraph triggers tier II status if the victim is a minor.
Mr. Rogers contends that the State must prove beyond a reasonable doubt the prerequisites for tier II
status and registration. That standard applies both to
the factual elements that make up an offense and to
facts that may enhance a sentence for a criminal conviction. See generally In re Winship, 397 U.S. 358, 364
(1970) (holding that the Due Process Clause requires
each fact that makes up the crime charged to be proven
beyond a reasonable doubt to sustain a criminal conviction.); Apprendi v. New Jersey, 530 U.S. 466, 490
(2000) (“Other than the fact of a prior conviction, any
fact that increases the penalty for a crime beyond the
3

The statute provides that “a person who has been convicted
of conspiring to commit, attempting to commit, or committing a
violation of § 11-303 . . . of the Criminal Law Article, if the intended . . . victim is a minor” is a tier II sex offender. CP § 11701(p)(2).

134a
prescribed statutory maximum must be submitted to a
jury, and proved beyond a reasonable doubt.”). But registration with the MSOR isn’t punishment and isn’t
subject to the evidentiary burden of proof beyond a reasonable doubt. In Young v. State, the Court of Appeals
held “that the plain language and overall design of the
[MSOR] clearly indicate that it was not intended as
punishment, but rather was intended as a regulatory
requirement aimed at protection of the public.” 370
Md. 686, 712 (2002). So even though the requirement
to register with MSOR starts with a criminal conviction, it is not a criminal sanction—it’s “a collateral
consequence of a conviction.” In re Nick H., 224
Md. App. 668, 707 (2015) (emphasis in original) (quoting Doe v. Dep’t of Public Safety & Corrections Servs.,
430 Md. 535, 600 (2013) (Barbera, J., dissenting)). And
as a collateral consequence, the registration requirements need not be proven beyond a reasonable doubt.
Young, 370 Md. at 686. Had his case gone to trial, the
State would, of course, have been required to prove the
elements of his trafficking crime beyond a reasonable
doubt. But the victim’s age wasn’t an element of his
underlying crime—it bears on his requirement to register as a sex offender, and isn’t subject to the higher
standard.
Mr. Rogers argues that the requirement to register
with MSOR can stem only from a crime that “‘involves
conduct that by its nature is a sexual offense’ against
a minor.” Cain v. State, 386 Md. 320, 336 (2005) (quoting Md. Code (2002), § 11-701(d)(7) of the Criminal

135a
Procedure Article).4 His reliance on Cain is misplaced.
In Cain, the appellant had been charged with several
sex offenses as well as second-degree assault. 386 Md.
at 323. He pleaded guilty only to second-degree assault, which is not a sexual offense, but the trial court
still instructed him to register as a sex offender because the facts of the assault were sexual in nature. Id.
at 326. In that context, the Court of Appeals held that
registration with MSOR is not an appropriate consequence when the crime of conviction “is not one of the
enumerated crimes in the statute requiring registration,” or is not a crime “that by [its] nature constituted
a sexual offense.” 5 Id. at 335. Mr. Rogers’s case is distinguishable—he has been convicted of a sex offense
specifically enumerated in CP § 11-701(p)(2), and
amending the indictment from CR § 11-303(b) to CR
§ 11-303(a) did not “alter[ ] the offense’s character.”
Amending the indictment gave Mr. Rogers the opportunity to plead guilty6 to a misdemeanor rather than a
4

The Court in Cain was quoting one of several definitions of
‘offender’ from the 2002 version of the Criminal Procedure Article.
The current definition of ‘sex offender’ provides instead that: “‘Sex
offender’ means a person who has been convicted of: (1) an offense
that would require the person to be classified as a tier I sex offender, tier II sex offender, or tier III sex offender; . . . ” or offenses
that would fall into those categories committed in other jurisdictions. CP § 11-701(l).
5
In discussing crimes that, by their nature, are sexual offenses, the Court in Cain referenced a catch-all definition of ‘offender’ from the 2002 version of the Criminal Law Article. See
generally State v. Duran, 407 Md. 532 (2009). The current version
of the Criminal Law Article does not contain this language.
6
In granting Mr. Rogers’s summary judgment motion, the
circuit court speculated that his trial counsel had “worked out this
deal for this very reason. Didn’t want to be on the sex register.”

136a
felony, but his offense still fell well within the scope of
sexual crimes that can require registration as a tier II
sex offender. Had the General Assembly intended otherwise, it could easily have drafted the definition of tier
II sex offenders to encompass only those convicted of
CR § 11-303(b). It didn’t, and we decline to read such a
distinction into the statute.7
B. Mr. Rogers’s Motion For Summary
Judgment Should Have Been Denied.
The circuit court did not explain its reasoning
when it granted Mr. Rogers’s motion for summary
judgment and issued a declaration in his favor, but the
conversation between the court and trial counsel at the
motions hearing reveals the court’s concerns. In response to the State’s assertion that M.H. was a minor,
the court seemed troubled by the quality of the State’s
proof: “[b]ut [the] victim is not a minor in the sense
that it was merely alleged that the victim was a minor,
no proof was put onto that fact, there’s no finding . . .
in that regard.” When the State countered that Mr.
Rogers had never contested M.H.’s minority, the court
responded that “that’s not how we do it in America. In
Even if that were true, it would have been based on an incorrect
understanding of the law, and “the lack of any reference to a requirement for sex offender registration in appellant’s plea agreement cannot serve as a basis for implying a term the plea
agreement that appellant not be required to register as a sex offender.” In re Nick H., 224 Md. App. at 710.
7
The MSOR registration statutes use the “if the victim was
a minor” language for several other offenses as well. See, e.g., CP
§§ 11-701(o)(2), 11-701(p)(3), 11-701(q)(1)(iii).

137a
America, you have to be proven, not disproven of a fact
. . . you can’t make an allegation and say, well, it’s that
way, unless it’s proven to be that way.”
We agree that the evidentiary record at summary
judgment left questions about the victim’s age, but disagree with the decision to resolve the uncertainty by
granting summary judgment to Mr. Rogers. Mr. Rogers
has never meaningfully disputed the victim’s minority
aside from stating baldly that he disputes it, and that
is not enough either to defeat or win summary judgment. Zurich Am. Ins. Co. v. Uninsured Employers’
Fund, 197 Md. App. 290, 301 (2011) (“[m]ere general
allegations of conclusory assertions will not suffice” at
summary judgment). At the same time, the State did
not provide affirmative evidence of M.H.’s minority either. Although the State was not obligated to prove
M.H.’s minority beyond a reasonable doubt, it still had
to prove it by a preponderance of the evidence. See
Sweet v. State, 163 Md. App. 676, 688 (2005) (preponderance of the evidence is the appropriate standard
when a defendant challenges registration as a sexually
violent predator). The indirect evidence from the State
and the absence of any evidence from Mr. Rogers left
the circuit court without a record that could support
summary judgment for either party, which requires
that there be no genuine dispute of material fact, and
the court erred when it granted Mr. Rogers’s motion.
Situations like Mr. Rogers’s seem unlikely to arise
with any frequency. More commonly, the record from
the criminal trial or plea hearing for the triggering offense will resolve the evidentiary questions that

138a
underlie the requirement to register with the MSOR.
But the issue of M.H.’s minority was not addressed at
Mr. Rogers’s plea hearing, which required the parties
to develop a record sufficient for the court to resolve
the question of Mr. Rogers’s obligation to register. We
express no views on the ultimate merits of that question—we reverse the summary judgment and resulting
declaration and remand the case for further proceedings so that the circuit court can find whether or not
M.H. was a minor at the time of the offense and, from
there, determine whether Mr. Rogers must register as
a tier II sex offender under CP § 11-704.
JUDGMENT OF THE CIRCUIT COURT
FOR ANNE ARUNDEL COUNTY REVERSED AND REMANDED FOR FURTHER PROCEEDINGS CONSISTENT
WITH THIS OPINION. APPELLEE TO
PAY COSTS.

139a
JIMMIE ROGERS,

*

IN THE

*

CIRCUIT COURT

v.

*

FOR

STATE OF MARYLAND,
et al.

*

ANNE ARUNDEL
COUNTY

Plaintiff

Defendants

*
*

CASE NUMBER:
C-02-CV-17-296

**************************************************
DECLARATORY JUDGMENT and ORDER
On November 8, 2017 this matter came before the
Court for a hearing on the parties’ counter-motions for
summary judgment. Having reviewed and considered
the pleadings, papers and arguments of counsel, for
the reasons stated on the record, it is this 14th day
of November. 2017 by the Circuit Court for Anne
Arundel County:
DECLARED, ADJUDGED AND DECREED,
that Plaintiff Jimmie Rogers is not required to register
as a Tier II sex offender on the basis of his conviction
in State of Maryland vs. Jimmie Junior Rogers, 02-K15-1039 and accordingly, it is hereby:
ORDERED, that (1) Plaintiff Jimmie Rogers
shall not be required, ordered, or directed to register
as a Tier II sex offender on the basis of his conviction
in State of Maryland vs. Jimmie Junior Rogers, 02-K15-1039 and, (2) Defendants State of Maryland and
Maryland Department of Public Safety and Correctional Services, and any other agency charged with
administrating such registry, shall remove Mr. Rogers’

140a
name from any and all sex offender registries on
which it appears as a result of his conviction in State
of Maryland vs. Jimmie Junior Rogers, 02-K-15-1039,
and it is,
ORDERED, that Defendants shall pay any open
costs.
/s/ Paul G. Goetzke
Paul G. Goetzke, Associate Judge
I, Robert P. Duckworth, Clerk of
the Circuit Court for Anne Arundel
County, hereby certify that the
[Illegible] a true copy from the
record in this court.
Witness the hand and act of the
undersigned this 20th day of
November
2017
/s/ Robert P. Duckworth
Circuit Court for Anne
Arundel County, Maryland

141a
IN THE CIRCUIT COURT FOR ANNE ARUNDEL
COUNTY, MARYLAND
JIMMIE ROGERS,
Plaintiff,
vs.

Case Number:
C-02-CV-17-000296

STATE OF MARYLAND,
ET AL.,
Defendant.

/

TRANSCRIPT OF OFFICIAL PROCEEDINGS
DECLARATORY JUDGMENT
--------------------------

BEFORE:

THE HONORABLE
PAUL G. GOETZKE, JUDGE
--------------------------

DATE:

November 8, 2017
--------------------------

APPEARANCES:
For the Defendant: Nancy S. Forster, Esquire
For the State:
Benjamin R. Legum, Esquire
Transcriptionist:
AAERT Cert. No:

Brittany Donnell
CET-851

142a
Transcription
Service:

ACCUSCRIBES TRANSCRIPTION
SERVICE
2007 West Rogers Avenue
Baltimore, Maryland 21209
Tel: 410-466-2033
Fax: 667-210-2925

Proceedings recorded by digital media without video.
Transcript produced by transcription service.
[2] TABLE OF CONTENTS
PAGE
MOTION FOR SUMMARY JUDGMENT:
ORAL ARGUMENT BY MR. LEGUM

3

ORAL ARGUMENT BY MS. FORSTER

5

ORAL ARGUMENT BY MR. LEGUM (REBUTTAL)

9

ORAL ARGUMENT BY MS. FORSTER (SURREBUTTAL)

13

ORAL ARGUMENT BY MR. LEGUM (CONTINUING)

16

COURT’S RULING

20

TAKEN UNDER ADVISEMENT BY THE
COURT

21

EXAMINATION:
PLAINTIFF’S WITNESS(ES):
DIRECT CROSS REDIRECT RECROSS
None called.

143a
STATE’S WITNESS(ES):
DIRECT CROSS REDIRECT RECROSS
None called.
EXHIBITS:
PLAINTIFF’S EXHIBIT(S):

MARKED ADMITTED

None offered.
STATE’S EXHIBIT(S):

MARKED ADMITTED

None offered.
[3] PROCEEDINGS
(On the record – 1:42 p.m.)
THE COURT: Rogers versus State of Maryland. Case number C-02-CV-17-0296. State your name,
please, spell it when you do, counsel?
MS. FORSTER: Good afternoon, Your Honor.
Nancy Forster, F-O-R-S-T-E-R, on behalf of Mr. Rogers.
MR. LEGUM: Your Honor, my name is
Benjamin Legum, L-E-G-U-M, on behalf the State of
Maryland.
THE COURT: All right. We had the motion
for summary judgment in front of me, and I will be
happy to hear the motion, please, counsel, all right?
MS. FORSTER: Well, Your Honor, there are
actually two summary judgment motions we –
THE COURT: Cross summary judgment
motions? Let me see. I’ve got a motion for summary
judgment filed September 8th, and I beg your pardon,

144a
something called a motion for summary judgment in
response, correct, September 15.
All right. Who filed the first one?
MR. LEGUM:

Your Honor, the State did.

THE COURT:

Okay. Let me from you.

MR. LEGUM:

Thank you, Your Honor.

THE COURT:

Um-hum.

[4] MR. LEGUM: Your Honor, there’s no dispute of fact in this case. Mr. Rogers was convicted of
human trafficking under & 11-303 of the Criminal Law
Article –
THE COURT:

Okay.

MR. LEGUM: – and his victim was a minor.
The sex offender registry statute requires that if someone is convicted of human trafficking –
THE COURT:

Um-hum.

MR. LEGUM: – and the victim is a minor,
then that individual is required to register on the sex
offender registry.
THE COURT:

Um-hum.

MR. LEGUM: There is no dispute of Mr.
Rogers’ conviction, and there’s no dispute that Mr.
Rogers’ victim was a minor.
THE COURT:

Um-hum.

145a
MR. LEGUM: Your Honor, we’ve attached to
our motion the statement of the charges, and the indictment which indicate that the victim in this case
was a minor.
Mr. Rogers’ argument that –
THE COURT:

And there was a conviction?

MR. LEGUM:

Yes, Your Honor –

THE COURT:

Okay.

MR. LEGUM:

– there was a conviction.

THE COURT:

All righty.

[5] MR. LEGUM: The section under which
Mr. Rogers was convicted, does not have a – it’s not an
element of the human trafficking offense that the victim be a minor. Therefore, there was no reason at the
proceeding for there to be any fact in the criminal conviction that the victim was a minor. Nonetheless,
there’s no dispute that Mr. Rogers’ victim was a minor.
Mr. Rogers does not assert that the victim was not a
minor. Mr. Rogers has not provided any admissible evidence that the victim was not a minor.
Therefore, there’s no dispute of the only two facts
relevant to this case, which is that Mr. Rogers was
convicted of human trafficking, and that his victim was
a minor. That’s the plain language of the sex offender
registry statute. It’s clear, it’s unambiguous, and on
that basis, we’d actually grant summary judgment
for the State, and issue an order declaring Mr. Rogers

146a
continues to be required to register on the sex offender
registry, Your Honor.
THE COURT:

Okay. Thank you.

Counsel?
MS. FORSTER: Yes, Your Honor. I know that
the State says over and over in its motion, as well as
here today, that there’s no dispute. But there is a dispute –
[6] THE COURT:

Which is?

MS. FORSTER: Your Honor, I have the –
well, let me back up. What the Defendant pled guilty
– what Mr. Rogers pled guilty to is under Section &
11-303 of the criminal law code –
THE COURT:

Um-hum.

MS. FORSTER: – and it is Section & 11-303
(a). He was originally just charged under (b). Which
requires – has information in it requiring that it be a
minor.
And I have the actual – or a copy, I should say, of
the agreement, and that was reached at the actual
hearing on that charge, where it is written that the
State moved to amend the wording of the charging
document to read 11-303 (a), rather than (b), and that
was granted by Judge Jaklitsch.
So – and I also have for the Court a CD, which is –
on the CD is certified, is the actual hearing of where
Mr. Rogers did pled guilty, and nowhere in the

147a
statement of facts does it say that this was indeed a
minor. So the State – I – they’re relying on things that
never came before this Court, when, in fact, Mr. Rogers
pled guilty.
So what we have is, a guilty plea to human trafficking under 11-303 (a), which nowhere requires that
it be shown that it’s a minor, and because of that [7]
conviction, the State is ordering Mr. Rogers to register
under Section 11-701 (p), as in pig, (2). Which says
that if someone is convicted of violation of 11-303, if
the intended prostitute or victim is a minor, is required
to register.
So it seems to me, Your Honor, when we’re trying
to decide whether or not a minor is involved, what we
should look at, is exactly what he pled guilty to, the
statement of facts put on the record by the State, by
the prosecutor, where none of that is mentioned. And
what I would say to the Court, is this is very much like
the case call from the Court of Appeals, Cain v. State,
which is at 386 Md. 320, and there Mr. Cain was
charged with a variety of offenses – sex offenses, and
second degree assault.
THE COURT:

Um-hum.

MS. FORSTER: And he ultimately, after plea
negotiations, agreed to plead guilty to second degree
assault. Underlying the second degree assault, were
the sex offenses that were committed, that was the
basis for that. But the Court in Cain said, when the
State tried to make Cain register as a sex offender –

148a
THE COURT:

Um-hum.

MS. FORSTER: – the Court said, after reviewing the statutes, we conclude that whether the elements of a crime are sexual in nature is dispositive of
whether the [8] person is an offender requiring registration. So we look to the elements of the crime for
which one stands convicted, to determine whether registration is appropriate or not. So if you look at the actual elements of 11-303, nothing in there requires a
showing that the person is, in fact, a minor.
And the only time the Court is to look at the underlying conduct, is if it’s not clear. And when you look
at the underlying conduct, the Cain case talks about
that as well, and says that – talking about the statute
requires sexual conduct that involves an underage person must be presented – must be present within the
crime charged, and which the person state –
THE COURT: So this is – this was a plea
agreement that did not go to trial?
MS. FORSTER:

Correct.

THE COURT: All right. Let me ask Mr.
Legum for – so answer that.
He was not convicted of a crime in – that requires
the State to prove the victim was a minor, he pleaded
guilty to 11-303 (a). In fact, Judge Jaklitsch went to
the trouble of not amending the indictment and went
to the trouble of having the clerk, and then signing
the hearing sheet, Judge Jaklitsch did. Making it very

149a
clear that this was not a plea under 303 (b), but 303
(a).
[9] So that being the case, the State, whether
wisely or unwisely, agreeing to handle the case in that
fashion, why should he file – why is he required to file
as a sex offender?
MR. LEGUM: Your Honor, the plain text of
the sex offender registry statute is a conviction for 11303, if the victim is a minor requires registration. The
General Assembly did not say if convicted of 11-303 (a),
or 11-303 (b), the General Assembly said, if convicted
of 11-303, and the victim is a minor, the victim is required to register.
THE COURT:
to register.

No, the Defendant’s required

MR. LEGUM:
apologize.

Yes, of course, Your Honor. I

THE COURT:

That’s all right. That’s all

right.
MR. LEGUM: The statute is very clear: Mr.
Rogers was convicted of 11-303. The victim was a minor, but even –
THE COURT: But their victim is not a minor in the sense that it was merely alleged that the
victim was a minor, no proof was put onto that fact,
there’s no finding to that – in that regard. In fact,
Judge Jaklitsch probably at the request of Defense
Counsel, went to some – made some effort to make sure

150a
that was clear. And I [10] suspect, and I’m only guessing that the Defense Counsel worked out this deal for
this very reason. Didn’t want to be on the sex register.
Now, the State, and that’s you, but in the form of
the prosecutor, may have made a unwise decision to
proceed in that matter, but nevertheless, they did.
MR. LEGUM: Your Honor, the fact that the
victim is a minor does not need to be established in the
underlying criminal conviction. There’s no reason that
the criminal trial, or the criminal conviction, in this
case, a guilty plea, that needs to be established in that
forum, that the victim was a minor. The Department of
Public Safety and Correctional Services is charged
with administering the sex offender registry statute,
and the Department made an administrative determination that Mr. Rogers’ victim was a minor.
And even now, even at this hearing, there’s been
no assertion that the victim was not a minor –
THE COURT: But that’s not how we do it
in America. In America, you have to be proven, not disproven of a fact, and I don’t mean to glib, and I apologize if you think I was being glib, but I mean, that’s –
you can’t make an allegation and say, well, it’s that
way, unless it’s proven not to be that way.
Now, if you – or if it’s not disproven – [11] disproven thing, that’s that way. Let me ask you this, this
might be of help to you. Is this a – an administrative
procedure, the requirement that the registration be

151a
made, and was it established in that forum, that the
victim was a minor?
MR. LEGUM: Your Honor, the Department
of Public Safety and Correctional Services, which,
again, administers the sex offender registry statute –
THE COURT:

Um-hum.

MR. LEGUM: – made an administrative determination that Mr. Rogers is required to register. It’s
a civil determination, and the Department of Public
Safety and Correctional Services, in making that determination, reviewed the indictment, reviewed the
statement of charges, and determined that the victim
was a minor.
The fact of the conviction is undisputed, and that
the victim was a minor was not an element of the criminal offense, and so therefore, it’s illogical to read the
statute, that in order for someone to be required to register, if convicted under this section of –
THE COURT: So what you’re saying is, the
determination that the victim was a minor is not dependant upon what happens at criminal trial, but at a
subsequent administrative proceeding under, I imagine, the [12] Administrative Proceeding Act; is that
correct?
MR. LEGUM: Your Honor, it is an administrative determination, there is not an administrative
hearing under the APA –
THE COURT:

Um-hum.

152a
MR. LEGUM: – but there is an administrative determination made, and in this case that –
THE COURT:
proceeding?

Contested – at a contested

MR. LEGUM:

It’s not an APA contested

case.
THE COURT: All right. So it’s – so it goes
over to some person at the – the agency that administers this thing, and in an non-contested hearing, or at
least in a decision that was not subject to an administrative appeal. He or she says, well, this is the registration case. I mean, is that right? I didn’t mean to
make that as a statement. I’m MR. LEGUM: Your Honor, the agency makes
a determination, and that the – there is not, again, an
APA contested case hearing, but it is an administrative
determination, and in this case, Mr. Rogers filed this
declaratory judgment action to assert that he’s not required to register, and at no point has he even alleged
that the victim was not a minor, Your Honor, and –
THE COURT: Okay. All right. Well, let me
ask [13] opposing counsel.
Now, listen, if this is an administrative decision,
not subject to the APA, then the remedy from that decision is by mandamus; did you file an action in mandamus?
MS. FORSTER:
I–

Not yet, Your Honor, but if

153a
THE COURT:

When was the decision made?

MS. FORSTER: Well, that’s a good question.
I have no idea, because it operates in secret. The Defendant has no clue when they’re making this decision,
how they make this decision, what they base that decision on. In fact, there are supposed to be regulations
in place, Your Honor, from the Department saying how
this is to take place.
And if you look the COMAR regulations, they
aren’t even up to date. They don’t even have the Tier
requirements. They’re back when they’re – when the
statute required categories of child sex offender, offender, and a sexually violent offender, so you can’t
even go to COMAR to figure out how you can make a –
or contest whatever the finding is.
And it’s my understanding that what happens is
the – and I’m sure Mr. Legum will correct me if I’m
wrong, but it’s the person who is in charge, or manager,
I should say, of the sex offender registry who makes
these [14] determinations unilaterally –
THE COURT:

Um-hum.

MS. FORSTER: – and I know that the person, I believe, is no longer there, but they’re not even
required to be a lawyer, Your Honor.
THE COURT:

Um-hum.

MS. FORSTER: So what happens here is
you have a situation where a decision is made unilaterally by somebody without any regulations, without

154a
any procedures, to be contested. But more importantly,
Your Honor, I think is: if you look at the Cain case that
I cite, and at the Duran case –
THE COURT:

Um-hum.

MS. FORSTER: – which is at 407 Md. 532.
They talk about you either – when you’re trying to decide whether or not somebody is required to register,
you look either at the elements of the offense, and here
it doesn’t require that it be a minor, so it was never
established.
THE COURT: Well, those are the elements
of the crime charged, not elements of the offense. How
did we find the, quote, “Elements of ” – I’m sorry – “The
elements of the,” quote, “offense,” close quote?
MS. FORSTER: Um-hum. Right here, when
he pled guilty in this court, Your Honor, and the prosecutor read the statement of facts.
[15] THE COURT:
MS. FORSTER:

Okay.

That’s what we should look

to, and –
THE COURT: And the statement of facts,
and I’ll take your representation, because I know you
all wanted a continuance –
MS. FORSTER:

Yes.

THE COURT: – to get a transcript, that
was denied, but I’ll take your representation, unless
disputed by opposing counsel, that it was, in fact, the

155a
plea was to subparagraph (a), as in apple, and that the
statement of facts does not in any – 15935 and have
any places identify that the victim was a minor. Is that
what you’re telling me? Yes, no, maybe?
MS. FORSTER:
THE COURT:
MS. FORSTER:
THE COURT:

Oh, I’m sorry –
That’s okay.
– yes, absolutely –
Okay.

MS. FORSTER: – that’s there’s no mention
of the victim’s age, or date of birth.
THE COURT: All right. Mr. Legum, do you
agree with that, at least, as far it goes in the statement
– I’m sorry, the transcript?
MR. LEGUM: Your Honor, I have not reviewed the transcript, or listened to the audio file.
[16] THE COURT:

Um-hum.

MR. LEGUM: Just for the record, Your Honor,
the motion for a continuation, we did consent to that –
THE COURT:

Um-hum.

MR. LEGUM: – it was not intended to be
filed, or we did not intend – the State did not intend for
that to be filed as a joint motion. Again, just for the
record, I’m not aware of what’s on the disc, or what the
transcript would show –
THE COURT:

Um-hum.

156a
MR. LEGUM: – and it was only this morning
that it was even mentioned, so as far as the motion for
a summary judgment goes, I would say that it’s not
properly before this Court –
THE COURT:
properly before me?

For what – why is it not

MR. LEGUM: Your Honor, we’re here on a
hearing for a motion to dismiss, and Mr. Rogers had an
opportunity to file his motion, and to attach any evidence that he wished, and I believe it’s improper that
the morning of the hearing to attempt to introduce evidence that hasn’t been provided.
THE COURT: Well, let’s put the transcript
audio, or otherwise, aside. I think you still have trouble. And that is, the indictment being modified. The
finding – [17] I’m sorry, the plea being to paragraph –
subparagraph (a), as opposed to the other subparagraph, and really, I mean, it kind of stops there to be
truthful to you.
MR. LEGUM:

Your Honor –

THE COURT:

Um-hum.

MR. LEGUM: – even if the statement of
facts, the agreed upon statement of facts is silent as to
the age of the victim, that in no way demonstrates that
the victim was not a minor. There’s only one victim
mentioned in the indictment. There’s no legal basis –
THE COURT:

Um-hum.

157a
MR. LEGUM: – for the notion that the determination that the victim was a minor, must be a –
part of the underlying criminal conviction.
THE COURT:

Um-hum.

MR. LEGUM: The plain language of the
statute is clear. There’s two requirements and only two
requirements that require registry on the Maryland
sex offender registry, in this case. One is the fact of the
conviction, and two, is that the victim was a minor.
THE COURT: Well, occasionally a Defendant will make a request, I’ll take a plea to (a), because
I’ve got a job, or I hope to become employed, and, you
know, or a school – whatever it might be. Because I
don’t want to have to register their names.
[18] And if the State, whether wisely or unwisely,
and when I say State, I mean the State’s Attorney’s
Office, agrees to proceed in that manner, and the Defendant, after being examined and – as – after being
voir dired (sic), that is to say, do you understand what
you’re doing, and is this what you’re agreeing to do, and
he says yes, and everybody says yes, and there’s an
agreed statement of facts consistent with subparagraph (a), and his lawyer says no additions, deletions,
modifications, the Court finds the gentlemen guilty of
an (a). Probably sentenced under (a).
MR. LEGUM: And in that case, Your Honor,
the consequence of the registration requirement is by
operation of law. It’s not something that – you know,
had Mr. Rogers wanted to avoid registration, and had

158a
pled to a – an offense that did not require registration,
then it – than that –
THE COURT: That’s what he did. That’s
exactly what he did. And the other part of it is, how do
we know that the plea wasn’t accepted or agreed to
by the State because all of the sudden they go to trial,
and they obtain a birth certificate, or something else,
and find out, oh, my gosh, she was not a minor at the
time?
MR. LEGUM: Your Honor, the registration
obligation arises by operation of law, and the registry
[19] statute, again, very explicitly states that there’s –
if the conviction is for human trafficking, which it is –
THE COURT:
MR. LEGUM:
which she was –

Um-hum.
– and the victim was a minor,

THE COURT: Maybe. Maybe she was,
maybe she wasn’t. How do you know she was?
MR. LEGUM: Well, Your Honor, the agency
made a determination that she was a minor, based on
the indictment and the statement of charges, and at no
point in this proceeding, has Mr. Rogers asserted that
the age of the victim – that the victim was not a minor.
THE COURT: All right. Well, let’s assume
for purposes of argument that the person who made
that administrative decision was absolutely incorrect.
What is the remedy for the Defendant?

159a
MR. LEGUM:
Your Honor.
THE COURT:

Exactly what Mr. Rogers did,
Okay.

MR. LEGUM: He filed a declaratory judgment action, and in that declaratory judgment action,
if the agency was incorrect, or there was some basis to
believe the agency erred, then Mr. Rogers can seek a
declaration from this, or another Court, that he isn’t
required to register. That’s exactly what he did, and he
did not, [20] again, even assert that the victim was not
a minor, so –
THE COURT: All right. Thank you, counsel.
After reading and considering the cross motions for
summary judgment –
MS. FORSTER: Your Honor, excuse me, I’m
very sorry. Can I make one –
THE COURT:
MS. FORSTER:

No, you don’t have to –
Okay.

THE COURT: – you’re about to win. So in
any event, based upon the arguments of counsel, and
the pleadings, as well as the matters supporting the
cross motions, the Court will grant – (Inaudible) will –
who filed the first one, they’re not – it doesn’t – motion
for summary judgment filed by the moving party, that
is to say, the Plaintiff, Jimmie Rogers, and deny the
motion for summary judgment filed for the State of
Maryland.

160a
So, Madam Court Clerk, the Plaintiff ’s motion for
summary judgment –
CLERK:

You’ll grant it? Okay.

THE COURT:

– is granted, the State’s is

denied.
Now, what is the declaration you’re after? Plaintiff –
MS. FORSTER: Your Honor, it is that Mr.
Rogers is not required to register on Maryland sex
offender [21] registry.
THE COURT: Well, I’m going to take a look
at it, because it may need to be more narrowly tailored
than that. For instance, as a result of this incident, et
cetera. But I’m – that I’ll take under advisement –
MS. FORSTER:

Okay.

THE COURT: – the Court will take it under
advisement, the declaration to be entered. Okay?
MS. FORSTER:

Thank you very much, Your

Honor.
THE COURT: All right. You’re excused. Are
you Jonas (Phonetic) or Alan’s relative, or neither?
MR. LEGUM: I don’t know them personally.
I believe the family tree might extend that far, but I
don’t know.
THE COURT: They’re two very capable lawyers. All righty. Well, wait a minute –

161a
MS. FORSTER:

Thank you.

THE COURT: – are – is your – there are
about three other Legums I know in Annapolis. Are
there – are you from Annapolis? Your family from
Annapolis?
MR. LEGUM: My family’s from the Baltimore area, Your Honor.
THE COURT: Oh, okay. Okay. All right.
Well, you tried to make a silk purse out of a sow’s ear,
you did a good job at your effort, but at least at this
point, you [22] haven’t succeeded, you might later on if
you’re – if you take an appeal or something, okay?
MS. FORSTER:

Thank you, Your Honor.

MR. LEGUM:

Thank you, Your Honor.

THE COURT:

All right. You’re excused.

(End of recording – 2:08 p.m.)
[23] TRANSCRIBER’S CERTIFICATE
This is to certify that the proceedings in the matter of Jimmie Rogers v. State of Maryland, et al., case
number C-02-CV-17-000296, heard in Circuit Court
for Anne Arundel County on November 8, 2017, was
recorded on digital media without video.
I hereby certify that the proceedings herein contained were transcribed by me or under my direction.
That said transcript is a true and accurate record to

162a
the best of my ability and constitutes the official transcript thereof.
In witness thereof, I have hereunto subscribed my
name on January 24th, 2018.
/s/ Sherry R. Miller [SEAL]
Sherry R. Miller, President

163a
STATUTORY PROVISIONS INVOLVED
Md. Code, Criminal Law, § 11-303 (2014) provides
in relevant part:
(a)(1)

A person may not knowingly:

(i) take or cause another to be taken to any place
for prostitution;
(ii) place, cause to be placed, or harbor another
in any place for prostitution;
(iii) persuade, induce, entice, or encourage another to be taken to or placed in any place for prostitution;
(iv) receive consideration to procure for or place
in a house of prostitution or elsewhere another
with the intent of causing the other to engage in
prostitution or assignation;
(v) engage in a device, scheme, or continuing
course of conduct intended to cause another to believe that if the other did not take part in a sexually explicit performance, the other or a third
person would suffer physical restraint or serious
physical harm; or
(vi) destroy, conceal, remove, confiscate, or possess an actual or purported passport, immigration
document, or government identification document
of another while otherwise violating or attempting
to violate this subsection.
(2) A parent, guardian, or person who has permanent or temporary care or custody or responsibility for supervision of another may not consent

164a
to the taking or detention of the other for prostitution.
(b)(1) A person may not violate subsection (a) of this
section involving a victim who is a minor.
(2) A person may not knowingly take or detain
another with the intent to use force, threat, coercion, or fraud to compel the other to marry the person or a third person or perform a sexual act,
sexual contact, or vaginal intercourse.
(c)(1)(i) Except as provided in paragraph (2) of this
subsection, a person who violates subsection (a) of this
section is guilty of the misdemeanor of human trafficking and on conviction is subject to imprisonment not
exceeding 10 years or a fine not exceeding $5,000 or
both.
(ii) A person who violates subsection (a) of
this section is subject to § 5-106(b) of the
Courts Article.
(2) A person who violates subsection (b) of this
section is guilty of the felony of human trafficking
and on conviction is subject to imprisonment not
exceeding 25 years or a fine not exceeding $15,000
or both.
***
Md. Code, Criminal Procedure, § 11-701 (2016)
provides in relevant part:
(a) In this subtitle the following words have the
meanings indicated.

165a
***
(l) “Sex offender” means a person who has been convicted of:
(1) an offense that would require the person to be
classified as a tier I sex offender, tier II sex offender, or
tier III sex offender;
(2) an offense committed in another state or in a federal, military, or tribal jurisdiction that, if committed
in this State, would require the person to be classified
as a tier I sex offender, tier II sex offender, or tier III
sex offender; or
(3) an offense in a court of Canada, Great Britain,
Australia, New Zealand, or any other foreign country
where the United States Department of State has determined in its Country Reports on Human Rights
Practices that an independent judiciary generally or
vigorously enforced the right to a fair trial during the
year in which the conviction occurred that, if committed in this State, would require the person to be classified as a tier I sex offender, tier II sex offender, or tier
III sex offender.
***
(o) “Tier I sex offender” means a person who has been
convicted of:
(1) conspiring to commit, attempting to commit, or
committing a violation of § 3-308 of the Criminal Law
Article;

166a
(2) conspiring to commit, attempting to commit, or
committing a violation of § 3-902 or § 11-208 of the
Criminal Law Article, if the victim is a minor;
(3) a crime committed in a federal, military, tribal, or
other jurisdiction that, if committed in this State,
would constitute one of the crimes listed in item (1) or
(2) of this subsection;
(4)

any of the following federal offenses:

(i) misleading domain names on the Internet under
18 U.S.C. § 2252B;
(ii) misleading words or digital images on the Internet under 18 U.S.C. § 2252C;
(iii) engaging in illicit conduct in foreign places under
18 U.S.C. § 2423(c);
(iv) failure to file a factual statement about an alien
individual under 18 U.S.C. § 2424;
(v) transmitting information about a minor to further
criminal sexual conduct under 18 U.S.C. § 2425;
(vi) sex trafficking by force, fraud, or coercion under
18 U.S.C. § 1591; or
(vii) travel with intent to engage in illicit conduct under 18 U.S.C. § 2423(b);
(5) any military offense specified by the Secretary of
Defense under Section 115(A)(8)(C)(i) of Public Law
105-119 (codified at 10 U.S.C. § 951 Note) that is

167a
similar to those offenses listed in item (4) of this subsection; or
(6) a crime in a court of Canada, Great Britain, Australia, New Zealand, or any other foreign country
where the United States Department of State has determined in its Country Reports on Human Rights
Practices that an independent judiciary generally or
vigorously enforced the right to a fair trial during the
year in which the conviction occurred that, if the crime
were committed in this State, would constitute one of
the crimes listed in items (1) through (5) of this subsection.
(p) “Tier II sex offender” means a person who has
been convicted of:
(1) conspiring to commit, attempting to commit, or
committing a violation of § 3-307(a)(4) or (5), § 3-324,
§ 11-207, or § 11-209 of the Criminal Law Article;
(2) conspiring to commit, attempting to commit, or
committing a violation of § 11-303, § 11-305, or § 11306 of the Criminal Law Article, if the intended prostitute or victim is a minor;
(3) conspiring to commit, attempting to commit, or
committing a violation of § 3-314 or § 3-603 of the
Criminal Law Article, if the victim is a minor who is at
least 14 years old;
(4) conspiring to commit, attempting to commit, or
committing an offense that would require the person
to register as a tier I sex offender after the person was
already registered as a tier I sex offender;

168a
(5) a crime that was committed in a federal, military,
tribal, or other jurisdiction that, if committed in this
State, would constitute one of the crimes listed in items
(1) through (3) of this subsection; or
(6) a crime in a court of Canada, Great Britain, Australia, New Zealand, or any other foreign country
where the United States Department of State has determined in its Country Reports on Human Rights
Practices that an independent judiciary generally or
vigorously enforced the right to a fair trial during the
year in which the conviction occurred that, if the crime
were committed in this State, would constitute one of
the crimes listed in items (1) through (3) of this subsection.
(q) “Tier III sex offender” means a person who has
been convicted of:
(1) conspiring to commit, attempting to commit, or
committing a violation of:
(i) § 2-201(a)(4)(viii), (x), or (xi) of the Criminal Law
Article;
(ii) § 3-303, § 3-304, § 3-305, § 3-306, § 3-307(a)(1) or
(2), § 3-309, § 3-310, § 3-311, § 3-312, § 3-315, § 3-323,
or § 3-602 of the Criminal Law Article;
(iii) § 3-502 of the Criminal Law Article, if the victim
is a minor;
(iv) § 3-502 of the Criminal Law Article, if the victim
is an adult, and the person has been ordered by the
court to register under this subtitle; or

169a
(v) the common law offense of sodomy or § 3-322 of
the Criminal Law Article if the offense was committed
with force or threat of force;
(2) conspiring to commit, attempting to commit, or
committing a violation of § 3-307(a)(3), § 3-314, § 3503, or § 3-603 of the Criminal Law Article, if the victim is under the age of 14 years;
(3) conspiring to commit, attempting to commit, or
committing the common law offense of false imprisonment, if the victim is a minor;
(4) conspiring to commit, attempting to commit, or
committing an offense that would require the person
to register as a tier I or tier II sex offender after the
person was already registered as a tier II sex offender;
(5) a crime committed in a federal, military, tribal, or
other jurisdiction that, if committed in this State,
would constitute one of the crimes listed in items (1)
through (3) of this subsection; or
(6) a crime in a court of Canada, Great Britain, Australia, New Zealand, or any other foreign country
where the United States Department of State has determined in its Country Reports on Human Rights
Practices that an independent judiciary generally or
vigorously enforced the right to a fair trial during the
year in which the conviction occurred that, if the crime
were committed in this State, would constitute one of
the crimes listed in items (1) through (3) of this subsection.
***

170a
Md. Code Ann., Criminal Procedure, § 11-704
(2019) provides in relevant part:
(a) A person shall register with the person’s supervising authority if the person is:
(1)

a tier I sex offender;

(2)

a tier II sex offender;

(3)

a tier III sex offender; or

(4) a sex offender who is required to register by another jurisdiction, a federal, military, or tribal court, or
a foreign government, and who is not a resident of this
State, and who enters this State:
(i)
(ii)

to begin residing or to habitually live;
to carry on employment;

(iii) to attend a public or private educational institution, including a secondary school, trade or
professional institution, or institution of higher
education, as a full-time or part-time student; or
(iv)

as a transient.

(b) Notwithstanding any other provision of law, a person is no longer subject to registration under this subtitle if:
(1) the underlying conviction requiring registration is reversed, vacated, or set aside; or
(2) the registrant is pardoned for the underlying
conviction.
***

171a
Md. Code Ann., Criminal Procedure, § 11-706
(2019) provides in relevant part:
(a) For all sex offenders in the State, a registration
statement shall include:
(1) the registrant’s full name, including any suffix, and all addresses and places where the registrant resides or habitually lives;
(2) the name and address of each of the registrant’s employers and a description of each location where the registrant performs employment
duties, if that location differs from the address of
the employer;
(3) the name of the registrant’s educational institution or place of school enrollment and the registrant’s educational institution or school address;
(4) a description of the crime for which the registrant was convicted;
(5)

the date that the registrant was convicted;

(6) the jurisdiction and the name of the court in
which the registrant was convicted;
(7) a list of any aliases, former names, names by
which the registrant legally has been known, traditional names given by family or clan under ethnic or tribal tradition, electronic mail addresses,
computer log-in or screen names or identities, instant-messaging identities, and electronic chat
room identities that the registrant has used;
(8) the registrant’s Social Security number and
any purported Social Security numbers, the

172a
registrant’s date of birth, purported dates of birth,
and place of birth;
(9) all identifying factors, including a physical
description;
(10) a copy of the registrant’s passport or immigration papers;
(11) information regarding any professional licenses the registrant holds;
(12) the license plate number, registration number, and description of any vehicle, including all
motor vehicles, boats, and aircraft, owned or regularly operated by the registrant;
(13) the permanent or frequent addresses or locations where all vehicles are kept;
(14) all landline and cellular telephone numbers
and any other designations used by the sex offender for the purposes of routing or self-identification in telephonic communications;
(15) a copy of the registrant’s valid driver’s license or identification card;
(16) the registrant’s fingerprints and palm
prints;
(17) the criminal history of the sex offender, including the dates of all arrests and convictions, the
status of parole, probation, or supervised release,
and the existence of any outstanding arrest warrants; and
(18)

the registrant’s signature and date signed.
***

173a
Md. Code Ann., Criminal Procedure, § 11-717
(2019) provides in relevant part:
(a)(1) The Department shall make available to the
public registration statements or information about
registration statements.
(2) Information about registration statements
shall include, in plain language that can be understood without special knowledge of the criminal
laws of the State, a factual description of the crime
of the offender that is the basis for the registration, excluding details that would identify the victim.
(3) Registration information provided to the public may not include a sex offender’s Social Security
number, driver’s license number, medical or therapeutic treatment, travel and immigration document numbers, and arrests not resulting in
conviction.
(b)

The Department shall post on the Internet:
(1) a current listing of each registrant’s name
and other identifying information; and
(2) in plain language that can be understood
without special knowledge of the criminal laws of
the State, a factual description of the crime of the
offender that is the basis for the registration, excluding details that would identify the victim.

(c) The Department, through an Internet posting of
current registrants, shall:
(1) allow the public to electronically transmit information the public may have about a registrant

174a
to the Department, a parole agent of a registrant,
and each local law enforcement unit where a registrant resides or habitually lives or where a registrant who is not a resident of the State will work
or attend school; and
(2) provide information regarding the out-ofstate registration status for each registrant who is
also registered in another state as available
through a national sex offender public registry
website.
(d) The Department shall allow members of the public who live in a county in which a registrant is to reside or habitually live or where the registrant, if not a
resident of the State, will work or attend school, by request, to receive electronic mail notification of the release from incarceration of the registered offender and
the registration information of the offender.
(e) The Department shall establish regulations to
carry out this section.

